<html>
<title> - CRITICAL LAPSES IN FEDERAL AVIATION ADMINISTRATION SAFETY OVERSIGHT OF AIRLINES: ABUSES OF REGULATORY ``PARTNERSHIP PROGRAMS''</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 CRITICAL LAPSES IN FEDERAL AVIATION ADMINISTRATION SAFETY OVERSIGHT OF 
        AIRLINES: ABUSES OF REGULATORY ``PARTNERSHIP PROGRAMS'' 

=======================================================================

                               (110-109)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             APRIL 3, 2008

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure
























CRITICAL LAPSES IN FEDERAL AVIATION ADMINISTRATION SAFETY OVERSIGHT OF 
        AIRLINES: ABUSES OF REGULATORY ``PARTNERSHIP PROGRAMS''

































CRITICAL LAPSES IN FEDERAL AVIATION ADMINISTRATION SAFETY OVERSIGHT OF 
        AIRLINES: ABUSES OF REGULATORY ``PARTNERSHIP PROGRAMS''

=======================================================================

                               (110-109)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-821 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)








































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Andrews, Richard A., Aviation Safety Inspector, American Eagle 
  Operations Unit, AMR CMO, Professional Aviation Safety 
  Specialists....................................................   126
Ballough, James J., Director, Flight Standards Service, Federal 
  Aviation Administration........................................    60
Bassler, John, Principal Avionics Inspector, Dallas Fort Worth 
  Flight Standards District Office...............................   100
Bloch, Hon. Scott J., Special Counsel, U.S. Office of the Special 
  Counsel........................................................    60
Boutris, Charalambe ``Bobby,'' Aviation Safety Inspector and 
  Boeing 737-700 Partial Program Manager for Aircraft 
  Maintenance, Southwest Airlines Certificate Management Office..    10
Brantley, Tom, President, Professional Aviation Safety 
  Specialists, accompanied by Linda Goodrich, Region IV Vice 
  President, Professional Aviation Safety Specialists............   126
Collamore, Vincent Larry, Aviation Safety Inspector, Southwest 
  Airlines CMO...................................................   100
Cotti, Paul E., Supervisor, American Eagle Airworthiness Unit, 
  AMR CMO........................................................    10
Kelleher, Herb, Executive Chairman, Southwest Airlines Company...   100
Kelly, Gary, Chief Executive Officer, Southwest Airlines Company.   100
Lambert, Terry D., Manager, Safety and Analysis Group, Flight 
  Standards Division, FAA Southwest Region.......................    10
McNease, Bill, Retired Aviation Safety Inspector, FedEx CMO......   126
Mills, Michael C., Assistant Manager, Dallas Fort Worth Flight 
  Standards District Office......................................    10
Naccache, Robert A., Ret. Assistant Manager, SWA CMO.............    10
Peters, Douglas E., Aviation Safety Inspector and Boeing 757 
  Partial Program Manager, American Airlines Certification Unit, 
  AMR CMO........................................................    10
Sabatini, Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration........................    60
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................    60
Stuckey, Thomas, Manager, Flight Standards Division, Federal 
  Aviation Administration, Southwest Region......................    60
Thrash, Joseph P., Retired Aviation Safety Inspector, Continental 
  Airlines CMO...................................................   126

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................   262
Brown, Hon. Corrine, of Florida..................................   263
Carnahan, Hon. Russ, of Missouri.................................   266
Costello, Hon. Jerry F., of Illinois.............................   267
Cummings, Hon. Elijah E., of Maryland............................   272
Filner, Hon. Bob, of California..................................   275
Johnson, Hon. Eddie Bernice, of Texas............................   277
Matsui, Hon. Doris O., of California.............................   283
Mitchell, Hon. Harry E., of Arizona..............................   286
Oberstar, Hon. James L., of Minnesota............................   288
Walz, Hon. Timothy J., of Minnesota..............................   304

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Andrews, Richard.................................................   306
Bassler, John....................................................   310
Bloch, Hon. Scott J..............................................   352
Boutris, Charalambe ``Bobby''....................................   360
Brantley, Tom....................................................   375
Collamore, Vincent L.............................................   387
Cotti, Paul E....................................................   388
Kelleher, Herbert D..............................................   393
Lambert, Terry D.................................................   429
McNease, William L...............................................   437
Mills, Michael C.................................................   439
Naccache, Robert A...............................................   452
Peters, Douglas E................................................   459
Sabatini, Nicholas A.............................................   466
Scovel, III, Hon. Calvin L.......................................   543
Thrash, Joseph P.................................................   573

                       SUBMISSIONS FOR THE RECORD

Committee on Transportation and Infrastructure:

  Federal Aviation Administration, Advisory Circular, Aviation 
    Safety Action Program, November 15, 2002.....................   142
  Federal Aviation Administration, Advisory Circular, Voluntary 
    Disclosure Reporting Program, September 8, 2006..............   174
  Federal Aviation Administration, Airworthiness Directive, 14 
    CFR Part 39; Docket No. 2001-NM-246-AD; Amendment 39-13784; 
    AD 2004-18-06; Federal Register: September 8, 2004 (Volume 
    69, Number 173)..............................................   189
  Federal Aviation Administration, Notice 8900.36, Special 
    Emphasis Validation of Airworthiness Directives Oversight, 
    Effective Date: March 13, 2008, Cancellation Date: June 30, 
    2008.........................................................   202
  Federal Aviation Administration, Order 8000.82, Designation of 
    Aviation Safety Action Program (ASAP) Information as 
    Protected from Public Disclosure Under 14 CFR Part 193, 
    Spetember 3, 2003............................................   205
  Federal Aviation Administration, Order 8900.1, Volume 11: 
    Flight Standards Programs, Chapter 2: Voluntary Safety 
    Programs, Section 1: Aviation Safety Action Program (ASAP), 
    November 8, 2007.............................................   216
  Federal Aviation Administration, Fact Sheets, FAA Customer 
    Service Initiative, April 2003...............................   248
  Federal Aviation Administration, letter to Colleen Barrett, 
    President, Southwest Airlines Co., March 6, 2008.............   251
  Federal Aviation Administration, FAA News, FAA Aviation Safety 
    Action Plan, April 2, 2008...................................   257
Oberstar, Hon. James L., a Representative in Congress from the 
  State of Minnesota, Chairman, Committee on Transporation and 
  Infrastructure, Peter A. DeFazio, a Representative in Congress 
  from the State of Oregon, Chairman, Subcommittee on Highways 
  and Transit, Jerry F. Costello, a Representative in Congress 
  from the State of Illinois, Chairman, Subcommittee on Aviation, 
  letter to Nicholas A. Sabatini, Associate Administrator for 
  Aviation Safety, Federal Aviation Administration, James J. 
  Ballough, Director, Flight Standards Service, Federal Aviation 
  Administration, and Thomas Stuckey, Federal Aviation 
  Administration.................................................   298
Sabatini, Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration, and James J. Ballough, 
  Director, Flight Standards Service, Federal Aviation 
  Administration, responses to questions from the Committee......   478

                        ADDITIONS TO THE RECORD

Bruno, Gabriel D., Retired Federal Aviation Administration 
  Manager, ``An Insider's Analysis of the FAA's Failure to 
  Protect the Skies,'' written statement.........................   704
Diefenderfer, Mary Rose, Ex-FAA POI, Alaska Airlines Section, 
  written statement..............................................   712
Southwest Airlines Pilots' Association, written statment.........   718

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 OVERSIGHT AND INVESTIGATIONS HEARING ON CRITICAL LAPSES IN FAA SAFETY 
  OVERSIGHT OF AIRLINES: ABUSES OF REGULATORY ``PARTNERSHIP PROGRAMS''

                              ----------                              


                        Thursday, April 3, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order.
    Before we begin the hearing which is the subject of today's 
session, I have a housekeeping item to attend to, to welcome 
the newest Member of the Committee on Transportation and 
Infrastructure, the gentleman from New Jersey, Mr. Sires, who 
replaces our former colleague from Indiana, the late Julia 
Carson. Mr. Sires, unfortunately, is still in New Jersey 
because they have a filing deadline for the November election, 
and he has to be there in person to do that. But he assured me 
that he will be an active, vigorous participant in all the work 
of the Committee as we continue our work.
    Ms. Carson's untimely death created vacancies on the 
Subcommittee on Highways and Transit and on the Subcommittee on 
Railroads, Pipelines, and Hazardous Materials. The Democratic 
Caucus of the Committee on Transportation and Infrastructure 
unanimously recommended Mr. Sires fill these positions. So, 
pursuant to the rules of the Committee, I ask unanimous consent 
that Mr. Sires be appointed to the Subcommittee on Highways and 
Transit and to the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials. Is there objection?
    [No response.]
    Mr. Oberstar. The Chair hears none. So ordered.
    At the outset, I want to observe that we will have, as I 
have notified Members, only four opening statements, in order 
to expedite the business of the day and to assure that we hear 
all witnesses in timely fashion. So we will have four opening 
statements: mine; the gentleman from Florida, Mr. Mica; Mr. 
Costello; and Mr. Petri.
    Mr. Miller, will you close the door?
    Today's hearing is a continuation of the long-established 
practice and precedent of this Committee of overseeing the work 
of the government agencies and the programs under the 
jurisdiction of this Committee. The Special Investigating 
Committee on the Federal-Aid Highway Program was established at 
the direction of Speaker Sam Rayburn in 1959, three years after 
enactment of the Highway Trust Fund and the Interstate Highway 
Program.
    My predecessor, John Blatnik, whose portrait hangs in the 
corner of this room, was selected to head that Special 
Committee to inquire into fraud, corruption, abuse, and right-
of-way acquisition practices, construction practices at a time 
when the Interstate Highway Program was just beginning, when 
unprecedented amounts of money were flowing from the Federal 
Government to State Departments of Transportation, which our 
Subcommittee investigative staff found had no internal audit 
and review procedures; where money was flowing out fraudulently 
to contractors; where Federal and State and local government 
officials were being paid off by contractors to sign off on 
shoddy or non-existent practices. Thirty-six people went to 
Federal and State prison as a result of those hearings over a 
period of six years.
    The work of the Special Investigating Committee continued 
as the Committee was then restructured as a standing 
Subcommittee on Investigations and Oversight of the Full 
Committee on Public Works. It was a great privilege for me, 
years later, beginning in 1985, to Chair that Subcommittee 
through 1989, and later as Chair of the Aviation Authorizing 
Committee, and to continue the work of oversight, inquiry into 
issues of importance to the broad spectrum of activities of our 
Committee on Public Works, and then Public Works and 
Transportation.
    Aviation has been a major focus of our oversight 
activities. Practically the first hearing I chaired as Chair of 
the Investigations and Oversight was an inquiry into the crash 
of Galaxy Airlines in January 1985 in Reno, Nevada, when 93 
people died. Other hearings inquired into an uprising, a rash 
of near mid-airs.
    At a time when the FAA was reporting that near mid-air 
incidents, aircraft coming too close to one another in the air, 
was down by 50 percent, we learned, through the AIMs reporting 
system, that, in fact, near mid-airs had doubled throughout 
1984 and that there was a rising incidence of aircraft coming 
too close to one another and the FAA did not even have a 
standard for measuring near mid-air incidents of aircraft 
coming too close to each other.
    Whistleblowers in the form of air traffic controllers, 
flight attendants, mechanics, pilots, came to the Committee 
with information about failures to uphold the highest standards 
of safety in aviation. With my Committee colleague, Newt 
Gingrich, first, and later Bill Klinger, Republican from 
Pennsylvania, we followed up on all those leads and we 
conducted intensive hearings and inquiries into aviation safety 
issues. As a result of those hearings, first of Galaxy 
Airlines, the FAA transformed its oversight into a holistic 
view; not looking at one piece here and one piece there, but 
requiring a holistic overall overview of aviation safety as 
conducted by the airlines and their maintenance practices.
    The near mid-air series of hearings led to establishment 
and requirement of MTSI transponders in the terminal control 
area. After the tragic crash of two aircraft over Cerritos, 
California, our Committee colleague Ron Packard, Republican of 
California, and our Committee leadership moved to, by law, 
require establishment of ground proximity warning systems and 
traffic collision avoidance systems on board aircraft, because 
the FAA either was not moving fast enough or, as they told us, 
that the regulatory process will take much too long. We did it, 
bipartisan spirit, through legislation.
    And then there were incidents of, again, whistleblowers 
coming to the Committee, saying a foreign airline has a 747 at 
Boeing's headquarters in Seattle, where they are removing the 
over-wing exits in order to save weight and accommodate more 
passengers and fuel, and we think that is a serious safety 
violation. Flight attendants and mechanics brought it to our 
attention. In this very Committee hearing room we held a 
hearing on that subject with then FAA Administrator Don Engen 
waiting in the audience to testify.
    We had testimony from Joan Jackson, the lead flight 
attendant in civil aviation's worst accident at Tenor Reef in 
the Canary Islands, testifying how, shrouded in fog, with two 
747s crashing into one another, one after another flight 
attendant tried to get their passengers out the exit, only to 
one be decapitated, another see the chute melt in flames; and 
Joan Jackson led her 60 passengers out to safety through the 
over-wing exit. We had testimony from other flight attendants 
in other 747 tragedies where lives were saved because of the 
over-wing exits.
    To his great credit, Administrator Engen, sitting right 
there in that front row, wrote out a note, sent it to the 
Seattle administrator's office--it was a regional administrator 
at the time--directing that the work be suspended on over-wing 
exit removals.
    In the aftermath of Aloha Airlines, where 18 feet of an 
aircraft ripped off in flight, something that was not supposed 
to happen, had never happened, could not happen, did happen. 
The result of that tragedy in which the flight attendant was 
pulled to her death, the flight crew, remarkably, was able to 
safely land the aircraft.
    I, working with FAA, called a worldwide conference on aging 
aircraft. The result of that was the Aging Aircraft Safety Act, 
in which Congress directed in-depth oversight of and 
maintenance on high-time aircraft; complete tear-down at 35,000 
cycles and every 4500 cycles thereafter. Significant because in 
this incident, in this instant case with Southwest Airlines, 
violation of that airworthiness directive was the cause of the 
whistleblowing that we will hear about shortly.
    Subsequently, the mysterious crash of 737 at Aliquippa, 
Pennsylvania, 132 fatalities. Again, the NTSB investigation 
ultimately found that it was an uncommanded rudder movement 
that caused that aircraft to crash. Because of that finding, 
the NTSB went back into its records and looked at other crashes 
and other incidents short of crash in which there was a 
movement they could not account for and attributed it back to 
the uncommanded rudder control and the power control unit 
within that. Significant because here again was an 
airworthiness directive compliance with which was avoided by 
Southwest in compliance with and in concert with FAA 
inspectors.
    Other oversight hearings which we conducted resulted in 
changes in airport runway oversight by FAA and air traffic 
controllers dealing with runway incursions, and air traffic 
control staffing standards. In nearly every case of our 
oversight hearings we have seen changes in practice, changes in 
airworthiness directives driven by a need to adhere to the 
highest standards of safety.
    And I will say it and I will say it again, the opening 
paragraph of the FAA Act of 1958 directs the newly established 
agency ``to maintain safety at the highest possible level.'' 
Not the level the airlines want to spend money on, not the 
level that they think is okay, but the highest possible level. 
That is the gold standard of aviation safety worldwide. That is 
what we expect the FAA to live up to, not some international 
standards organization, not something that RKO does, but that 
FAA is the gold standard for the world.
    I made it clear when I took the Chairmanship of the Full 
Committee that oversight would be an important part of our 
work, and so it has become.
    We are going to hear this morning from another generation 
of whistleblowers, dedicated professionals who have put their 
careers on the line in the interest of safety, willing to risk 
what is necessary in the interest of the safety of the 
traveling public. They will present testimony that Southwest 
Airlines, with FAA complicity, allowed at least 117 aircraft to 
fly with passengers in revenue service in violation of Federal 
aviation regulations. Documents they presented to our 
Committee, which I reviewed last summer and continuing through 
the fall, set in motion an inquiry into the most egregious 
lapse of safety I have seen in 23 years. The details will be 
forthcoming from the witnesses.
    They suggest to me that the voluntary disclosure initiative 
instituted with good intentions by FAA, has migrated into 
complacency at the highest levels of FAA management, reflecting 
a pendulum swing away from a culture of vigorous enforcement of 
compliance toward a carrier-favorable cozy relationship. This 
shift from vigilance occurred at the very time that airline 
maintenance has been massively outsourced by airlines, by 
specifically network carriers except for American Airlines, 
with less FAA enforcement, less airline management involvement, 
and outsourcing to both domestic and foreign repair stations.
    I understand full well from many years of doing this work 
that FAA probably could not hire enough. Maybe they have some 
3,000 inspectors. Ten times that many might not be enough to 
conduct the in-depth, vigorous surveillance that is needed. But 
certainly more than we have now are necessary. And, yet, the 
partnership program FAA initiated with the airlines, that can 
be beneficial to safety, has drifted into a system that is 
inimical to safety. FAA needs to rethink its relationship with 
the airlines and with the other aviation entities which it 
regulates.
    I was astonished to read off the FAA website their mission 
statement: ``Our customers are people and companies requesting 
certification, other aviation services or information related 
to the products and mission of flight standards.'' The only 
customer, if you are going to use that term, of the FAA is the 
air traveling public. Airlines are not customers. FAA is not 
providing a service to them. Bedrock responsibility of the FAA 
is to ensure safety for the traveling public. FAA needs to 
clean house from top to bottom, take corrective action, hire 
more inspectors and give them a safety mission.
    Congress should, and following these hearings will--I 
will--draft legislation--I hope we can have bipartisan 
concurrence on it--to establish a long post-service cooling off 
period for FAA inspectors before they are allowed to go to work 
for the airlines. This is something that FAA could do by 
regulation, but it would take them way too long to do it. Just 
as we do with other Executive Branch personnel, we should do it 
for FAA.
    Senior management at FAA has to develop a better way to 
monitor local airline oversight offices and avoid lapses in 
compliance such as we saw with Southwest.
    It is no mere coincidence that FAA's recently initiated 
audit began just after news of our hearing was revealed to the 
public. We are going to look in-depth at the factors that 
brought us to this point in the course of this hearing.
    With that point, I yield to the gentleman from California, 
Mr. Mica.
    Mr. Mica. Thank you for yielding and also thank you for 
convening a very important hearing this morning.
    Probably one of the most important responsibilities we have 
as a Member of this Committee, whether it is Mr. Oberstar, 
myself, or any other Members here is making certain that we do 
conduct thorough oversight, and, particularly when it comes to 
aviation, that we ensure, as is the charter set forth for FAA, 
the highest standard of safety.
    I do want to, though, assure the Members of Congress and 
the American people that we have developed and maintained the 
safest system of passenger aviation in the history of the 
world. Last year, we had over 735 million people fly. In fact, 
two-thirds of all the air traffic in the world took place 
within the boundaries of the United States. Since 2001, 
November 12th, we have not had a single aviation fatality in a 
large aircraft in the United States of America. That record is 
unparalleled, again, in the history of aviation.
    But I think that today's hearing is very important because 
we have had a couple of people step out at probably some great 
personal risk and bring information to the Committee that, as 
good as the system we developed and put in place, we can't sit 
on our laurels; that, in fact, we have got to look at what we 
put in place. And, you know, I was a strong advocate of a risk-
based inspections and also self-reporting system, and I think 
so far it has proven to work well.
    But what we have from the individuals that we will hear 
from today is a wake-up call, a wake-up call that you can never 
just accept a standard or a protocol or a routine in 
government, and particularly where it involves safety, that you 
have to be constantly vigilant of the system you put in place 
and then take corrective action. So we are going to hear about 
what went wrong with the system we had.
    We are going to hear about some relationships the Chairman 
described that probably are improper and that need to be 
corrected. We are going to hear about some revolving door 
relationships, too, that also need to be corrected. But what we 
have got to do is come up with positive changes that ensure 
that the record that we have had to date continues.
    Now, again, I want to assure the American people the system 
is safe; we found some flaws, but this hearing is going to 
ensure that we continue that record and we correct the things 
that we found and we will hear today what has gone wrong. Just 
for example, last year, 43,000 people were killed in automobile 
accidents. Since the last major aircraft crash and deaths in 
2001, over 200,000 people have died on our highways and 
millions injured. So just put all of this in perspective. But, 
again, we can't rest on our laurels.
    I have tried to take a look at what went wrong, and I think 
that we have several problems, and at least three things need 
to be addressed. First of all, the system that we put in place 
was a self-reporting and risk-based system, which is a good 
system. What we didn't put in place is somebody to check those 
who are doing the checking; and I think that is what is missing 
in the system. We can't just rely on what we created to be, 
again, a self-policing, the fox guarding the hen house; we have 
got to have some independent check of the checkers.
    The second thing that concerns me in all of this is if you 
look at the number of employees, we have 3800 people in FAA and 
inspections. They do about 7,000 commercial aircraft. We 
probably have enough people to do the job if everybody was on 
the job. I think we are going to hear_and we need to ask 
questions of Mr. Sabatini about_who are the people we have 
doing the job and how many people we actually have in place.
    My observation is we have a serious problem with 
retirement, we have a serious problem with recruitment, we have 
a serious problem with replacement, and we also have a serious 
problem with looking at the number of people in administrative 
positions versus the people who are actually online conducting 
these inspections. So it is not always how many people you 
have, it is how you use the people that you have and if the 
positions are filled or will become vacant and then finding a 
way to replace them.
    My third and last concern is we are here today, we are on 
our third extension of FAA reauthorization. Congress sets the 
policy; we have basically failed in our responsibility to pass 
FAA legislation reauthorization. We have not had an 
administrator at the FAA, a confirmed administrator since 
September of last year. This is particularly a very difficult 
return to what we experienced in the past.
    I have been on the Committee for 16 years. When I came on 
at one point, we had five administrators in a very short period 
of time, and then we had no administrators or acting 
administrators for almost the same period of time. You cannot 
run a Federal Aviation Administration without someone at the 
helm.
    And I have written every Member of the Senate before this 
hearing was convened or announced and asked them to take action 
on that. We have no deputy. It took us years to get a COO. The 
COO left. We have a new COO. So I am not a happy camper as far 
as the way FAA is rudderless, and, again, Congress has 
abdicated its responsibility to confirm or reject the 
President's nominee.
    Out of all this, in closing, there is some good news, and 
the public and you can take confidence when you have an 
incident like this, as you have heard already, the planes are 
being pulled out of the sky, there are re-inspections, there 
are audits, there are reviews. Everyone is going to ``dot'' 
there ``I''s and cross their ``T''s as far as safety is 
concerned, so in a bad situation some good things will happen.
    But again, finally, the public has to be also assured in a 
time when airlines are being forced. I mean, they are really 
feeling the pinch. We had another one go down today. But the 
public has to be reassured that even when there is cost-cutting 
by airlines and cost attention to expenses, that safety will 
not be compromised by the Federal Government, which has that 
important responsibility.
    So I look forward to working with the Chairman, Members of 
the Committee, those that are left at FAA, the industry, and 
others to make certain we restore confidence and correct 
problems with the system. Thank you.
    Mr. Oberstar. I appreciate the gentleman's affirmative 
statement in favor of safety and concur on the points that he 
has made.
    The gentleman from Illinois, Chair of the Aviation 
Subcommittee, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. And, Mr. Chairman, I 
think you have given a very good summary of why we are here 
today and the issues before us. Therefore, I will submit my 
statement into the record and make some brief comments. But 
before I do, I want to follow up on Mr. Mica's comments. I 
think he has made very good points concerning the lack of an 
administrator and, secondly, the fact that the legislation that 
we passed through the House is pending in the other body.
    So the two points that I would make is that we on this 
side, this Committee and the Subcommittee, as well as the House 
of Representatives, we have not failed in our duties. We have 
passed a reauthorization bill. It passed the House with 
bipartisan support on September 20th of last year. It is 
pending in the other body.
    On the other issue of you have to have someone at the helm, 
an administrator, I agree with Mr. Mica, but I would also point 
out that many of these violations, when the inspectors were 
reporting these violations to their supervisors, we did have an 
administrator in office at the time. So I just want to, for the 
record, point that out.
    First, Mr. Chairman, let me thank Mr. Boutris and Mr. 
Peters for being here, but for their persistence and 
dedication. We would not be holding this hearing today had it 
not been for their determination and their courage and their 
persistence. They were the ones who exposed the violations, and 
they should be commended for their actions.
    It is a pretty sad day when employees of any agencies here 
in the Federal Government, when they have to seek whistleblower 
protections in order to do their job, let alone safety 
inspectors from an agency whose number one responsibility is 
protecting the flying public. The fact that Southwest failed to 
ground planes that should have been grounded is inexcusable, 
and they should pay a hefty fine.
    However, this hearing today is not about Southwest 
Airlines; it is about the total failure by the FAA to perform 
sufficient oversight of its maintenance program. While 
Southwest's failure is inexcusable, the fact that FAA 
supervisors prevented FAA inspectors from doing their job, 
preventing them from enforcing serious safety violations, is 
nothing more or nothing less than outrageous.
    We need to know, this Committee needs to know, the American 
people need to know who at the FAA knew about these violations, 
when they learned about the violations, and why the FAA waited 
so long to impose a fine on Southwest. We also need to know 
what action will be taken by the FAA to prevent this from 
happening again in the future.
    Mr. Chairman, we have seen a pattern at the FAA of being an 
agency that is reactive, and not proactive. Since I became 
Chairman of the Subcommittee in January of last year, I can 
tell you that sometimes you get the feeling that the agency is 
on autopilot until they are pushed into action, either by this 
Committee, the Aviation Subcommittee, the media, or, in this 
case, whistleblowers.
    I can give many examples, but just to give you a few, the 
issue of runway incursions. The FAA acted when we were at the 
height of runway incursions back in 1999, 2000, and 2001. They 
put together a committee. The administrator and the secretary 
interacted with that committee, all of the stakeholders. They 
created an Office of Director of Runway Safety. But then, when 
the numbers started coming down, the FAA left the problem, 
walked away from it, and left the office vacant; and no more 
input or contact with the stakeholders.
    Secondly, the issue of hazardous conditions in towers at 
the FAA. We have had reports and the FAA has had reports from 
air traffic controllers and their employees about the hazardous 
conditions at the air traffic control towers, the TRACONs and 
other facilities. They didn't act until the Subcommittee 
started to take action. In fact, they didn't even put together 
a list as to which facilities were in the worst condition in 
order to address the problem. In my judgment, they ignored the 
problem until we at the Subcommittee level held a hearing.
    The issue of congestion and delays. It was when the 
Subcommittee held a hearing. We pushed the FAA, in my judgment, 
to addressing the issue by having the secretary and the 
President of the United States issue a directive to the 
secretary and the administrator to do something about 
congestion and delays.
    And last--and there are many other examples--consumer 
issues like holiday travel and emergency contingency plans. You 
know, only after my call to the Secretary of Transportation 
saying, look, we anticipate, over Thanksgiving and the 
Christmas holiday, more people flying than ever before, do we 
have a plan to address this; are we going to bring airport 
operators and the airlines together to put a plan together? And 
I was told, boy, that is a great idea, we should do that. And I 
said, well, let's begin meeting and we will do it around your 
schedule.
    The next call I got was, well, I am not going to be able to 
participate because I am working over at the White House to try 
to address the issue. And on the very morning that we held our 
Subcommittee hearing on the issue of holiday travel and 
congestion during that period the Secretary and the President 
made an announcement that he was directing the Secretary to 
come up with a plan.
    It is very clear that the agency acts when they are pushed 
to act. You know, it is not enough to have safety regulations 
in place. We in this Committee, the Subcommittee on Aviation, 
and the American people expect the FAA to enforce these 
regulations.
    As has been pointed out by the Chairman and others, we have 
the safest air transport system in the world here in the United 
States, but we can't become complacent and rely on the past.
    Finally, Mr. Chairman, let me say that I have said it 
before and I will said it again, I have said it at Aviation 
Subcommittee hearings and I have said it over and over again, 
and I will say it again today: I want the FAA to know, I want 
the industry to know this Committee is not going away, the 
Aviation Subcommittee is not going away. We are going to 
fulfill our responsibilities of aggressive oversight on this 
issue and every issue. We owe it to the American people. That 
is our responsibility and we are going to live up to our 
responsibility.
    With that, Mr. Chairman, I look forward to hearing from our 
witnesses today, and I thank you for calling this hearing.
    Mr. Oberstar. I thank the gentleman for his comments and 
for his superb work as the Chair of the Aviation Subcommittee.
    Ranking Member of the Subcommittee on Aviation, 
distinguished gentleman from Wisconsin, Mr. Petri.
    Mr. Petri. I thank my Chairman from Minnesota. And I would 
like to thank you for having this important hearing on the 
FAA's airline maintenance oversight and how they have 
discharged that responsibility. I will summarize my remarks and 
ask that the full remarks be made a part of the record.
    Mr. Oberstar. Without objection, it will be included in the 
record.
    Mr. Petri. The roughly 6,900 employees of the FAA's Office 
of Aviation Safety, including some 3,800 aviation safety 
inspectors, oversee approximately 19,000 aircraft, including 
about 7,000 aircraft that make up the U.S. commercial airline 
fleet; over 500,000 pilots and approximately 5,000 repair 
stations. Their charge is as important as it is obviously 
large.
    While it is true that we are enjoying the safest period in 
aviation history, due in no small part to the hard work of many 
at the FAA and at the airlines, we must keep a vigilant guard 
to protect safety because lives, as has been pointed out, 
depend on it.
    Clearly, there were serious problems at the FAA's Southwest 
Certificate Management Office. The dysfunctional make-up of the 
office got in the way of proper safety oversight, and we are 
fortunate that no lives were lost.
    As we listen to today's witnesses, we need to pay special 
attention to proposed recommendations to prevent such a 
situation from happening again. Our emphasis today also should 
focus on the future of aviation safety, on the ``how it 
happened'' so that we can fix the problem, not just on ``what 
happened.''
    To this end, I am interested in hearing the Inspector 
General's recommendations after having fully investigated the 
events that occurred at the FAA's Southwest Certificate 
Management Office, as well as recommendations from our other 
witnesses.
    Fundamental to this Committee's responsibility to safety is 
to ensure that the FAA has the proper number of inspectors to 
carry out the mission of the Office of Aviation Safety. The 
FAA's Aviation Safety Workforce Plan, released Monday, 
indicates that 14 percent of the engineers and up to 35 percent 
of its inspector corps will be eligible to retire in budget 
year 2009, compared to 4 percent that actually retired in 
budget year 2007.
    This Committee's FAA reauthorization bill included language 
requiring the Administration to develop an aviation safety 
inspector staffing model to account for retirement trends and 
ensure adequate staffing. For this reason, along with many 
others, I urge our Senate counterparts to move forward on their 
bill so that we can address these important aviation safety 
issues.
    I thank the Chairman again for calling this important 
hearing and yield back the balance of my time.
    Mr. Oberstar. I concur in the gentleman's appeal to the 
other body and to Mr. Mica's vigilant efforts with the other 
body, as we have all done, and hope that we can come to a point 
where we have a conference with the Senate and move the FAA 
reauthorization act.
    We will now move to our first panel, ask members to rise, 
raise your right hand. Do you solemnly swear that the testimony 
you will give before this Committee in the matters now under 
consideration will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    [Witnesses respond in the affirmative.]
    Mr. Oberstar. You may be seated.
    Mr. Boutris, we will begin with you, but, at the outset, I 
want to express my great appreciation to all of the members of 
this panel for the public-spirited courage it took when you ran 
the length of administrative procedures to call to account the 
failing practices and came to no avail, that you had the 
courage to step forward and come to our Committee and say 
something serious is amiss. And I regret that a death threat 
ensued in that process, but I am greatly relieved that it is 
under investigation by law enforcement authorities. You deserve 
the gratitude of the flying public and of the Members of this 
Committee.
    Mr. Boutris.

  TESTIMONY OF CHARALAMBE ``BOBBY'' BOUTRIS, AVIATION SAFETY 
   INSPECTOR AND BOEING 737-700 PARTIAL PROGRAM MANAGER FOR 
AIRCRAFT MAINTENANCE, SOUTHWEST AIRLINES CERTIFICATE MANAGEMENT 
OFFICE; DOUGLAS E. PETERS, AVIATION SAFETY INSPECTOR AND BOEING 
 757 PARTIAL PROGRAM MANAGER, AMERICAN AIRLINES CERTIFICATION 
UNIT, AMR CMO; MICHAEL C. MILLS, ASSISTANT MANAGER, DALLAS FORT 
    WORTH FLIGHT STANDARDS DISTRICT OFFICE; PAUL E. COTTI, 
SUPERVISOR, AMERICAN EAGLE AIRWORTHINESS UNIT, AMR CMO; ROBERT 
  A. NACCACHE, RET. ASSISTANT MANAGER, SWA CMO; AND TERRY D. 
 LAMBERT, MANAGER, SAFETY AND ANALYSIS GROUP, FLIGHT STANDARDS 
                 DIVISION, FAA SOUTHWEST REGION

    Mr. Boutris. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and Members of the Committee. My name is Charalambe 
Boutris. I go by Bobby for obvious reasons. I have a lot to say 
this morning, so if I speak too quickly and it sounds Greek to 
you, more than likely it probably is. However, I will do my 
best to ensure that everyone understands me.
    For 20 years I worked in the aviation industry, performing 
aircraft maintenance and inspections for several U.S. major 
airlines and U.S. major cargo carriers. I also held several 
management positions, including Director of Maintenance.
    In February of 1998, I was hired by the Federal Aviation 
Administration as an Aviation Safety Inspector. I am currently 
assigned to Southwest Airlines Certificate Management Office as 
the maintenance Partial Program Manager for the Boeing 737-700 
aircraft.
    For me, safety comes first and my job second. I am not a 
disgruntled employee; I am a person with integrity and I do 
believe that we should cooperate and collaborate with the 
airlines, but not to the point that we go outside our guidance 
and break the law. I have followed the chain of command, 
without any results.
    I am here today because I am concerned for the safety of 
the flying public, which has been jeopardized by the abuse of 
authority and violations of the Federal regulations. I have 
summarized the information for my verbal testimony; however, I 
would like to inform you that details for this information 
which I am about to present were originally submitted to the 
Division Management Team at the Southwest Regional Office and, 
six months later, to the Office of Special Counsel. In 
addition, I have provided the Committee with a detailed written 
testimony.
    Since 2003, I have been raising safety concerns regarding 
my Supervisor/Principal Maintenance Inspector Douglas 
Gawadzinski suppressing my inspection findings and his refusal 
to follow FAA guidance regarding chronic and systemic non-
compliance maintenance issues that affect air safety.
    The FAA issues Airworthiness Directives--we call them ADs 
for short--in order to address unsafe conditions for aircraft 
and their components. AD requirements are mandatory and by 
Federal regulations.
    In December 2003, I was the Partial Program Manager for 
engines for Southwest Airlines. After reviewing the Southwest 
Airlines AD compliance records for several aircraft engines, I 
discovered the required AD compliance information was 
inconsistent and was difficult to track the AD compliance. This 
was contrary to Title 14 CFR Part 121.380.
    After long talks with my supervisor, Mr. Gawadzinski, on 
January 23rd, 2004, he allowed me to send Southwest Airlines a 
letter of concern, not a letter of investigation, as I wanted 
to and was required in accordance with our guidance. Southwest 
Airlines agreed with my findings and took one year to complete 
the project and bring the AD information into compliance.
    In January of 2006, I became the PPM for the Boeing 737-700 
aircraft. In reviewing the AD compliance records, I found 
similar discrepancies to the ones I had found with the engines 
two years earlier. I immediately informed my supervisor, Mr. 
Gawadzinski, of my findings and told him I wanted to send 
Southwest Airlines a letter of investigation, but Mr. 
Gawadzinski refused.
    After going to him several times and insisting that we had 
to address the AD problem, Mr. Gawadzinski, in January 2007, 
assigned me to perform the AD Management Safety Attribute 
Inspection--SAI for short. This inspection evaluates the 
content of the airline's manual system and procedures in 
meeting the regulatory and FAA policy requirements for AD 
management.
    When Southwest Airlines found out that I was the assigned 
inspector for this inspection, for the SAI, the Southwest 
Airlines Director of Quality Assurance, Mr. Mats Sabel, and the 
AD compliance team leader, Mr. Bill Krivanek, had a meeting 
with my supervisor, Mr. Gawadzinski, and requested my removal 
from doing the inspection. Mr. Gawadzinski called me into his 
office and told me of this meeting. I went to the office 
manager, Mr. Mike Mills, and complained to him that it was 
obvious that Southwest Airlines wanted to cherry-pick the 
inspector for this inspection. Mr. Mills talked to my 
supervisor who then informed me to go ahead and do the 
inspection.
    On February 26th, 2007, I informed the Southwest Airlines 
AD compliance team leader, Mr. Krivanek, that due to the fact 
that both of us already knew that Southwest Airlines did not 
have all the required procedures in place for the AD 
management, I was also going to look and review some aircraft 
records to ensure AD compliance.
    Mr. Krivanek stated that he and my supervisor, Mr. 
Gawadzinski, had discussed what my assignment was, and 
reviewing aircraft records for AD compliance was not part of my 
inspection. I told Mr. Krivanek he was correct; however, due to 
my knowledge of the previous history with AD issues, I felt 
that reviewing some of the Southwest Airlines aircraft records 
for compliance was appropriate. Mr. Krivanek was not happy 
about that, but he agreed to meet with me on March 15th and 
start the inspection.
    On March 15th, 2007, I went to Southwest Airlines and met 
with Mr. Chris Roth. Mr. Chris Roth informed me that Mr. 
Krivanek could not participate at the meeting because he was 
working on a project. I went to my supervisor, Mr. Gawadzinski, 
and told him that Mr. Krivanek could not participate with AD 
management inspection because he was working on a project. 
Before I had the chance to say anything else to my supervisor, 
he stated, ``Yeah, they had some airplanes over-fly an AD and 
they are going through the records to find out how many.''
    At this point, it was obvious to me that since I had told 
Mr. Krivanek that, along with the AD management SAI, I was 
going to review some aircraft records for AD compliance, Mr. 
Krivanek had decided to have the aircraft records reviewed 
prior to my inspection and had discovered the AD over-fly 
discrepancies.
    On March 22nd, 2007, while I was performing night 
surveillance inspections at Southwest Airline maintenance 
facility at Chicago Midway Airport, I witnessed a Southwest 
Airlines aircraft being repaired due to a crack that was found 
on the fuselage. After returning back to my office and talking 
with another inspector, I discovered that this aircraft was 
flying in revenue service with overdue AD inspections, with the 
knowledge of my supervisor, Mr. Gawadzinski. I immediately 
reported this serious safety issue to my office manager, Mr. 
Mills.
    Due to my ongoing safety concerns with Southwest Airlines 
and the inadequate procedures for tracking and complying with 
AD requirements, I preformed a review of the aircraft records 
and I discovered the following: On March 15th--that was the 
date I was supposed to start my inspection for the ADs--2007, 
Southwest Airlines informed my supervisor, Mr. Gawadzinski, 
that they had discovered that some of their aircraft had 
overflown the inspection requirements of Airworthiness 
Directive 2004-18-06. At the time, Southwest Airlines were not 
sure of how many aircraft were affected and estimated that the 
number could have been up to 100 aircraft.
    The AD requirements that Southwest reported that were not 
being accomplished require inspections of the fuselage on their 
Boeing 737-300 and-500. On the first page of the AD it states: 
``This action is necessary to find and fix fatigue cracking of 
the skin panels, which could result in sudden fracture and 
failure of the skin panels of the fuselage and consequent rapid 
decompression of the airplane. This action is intended to 
address the identified unsafe condition.''
    FAA records show that besides the March 15 verbal 
notification, on March 19, also, Southwest Airlines, via the 
Voluntary Disclosure Reporting Program, reported the AD non-
compliance again, but this time they informed Mr. Gawadzinski 
that their investigation had determined that there were 47 
aircraft affected, not 100 as was originally reported to him on 
March 15. Even though Mr. Gawadzinski was aware of this unsafe 
condition on March 15th, 2007, he did not document anything 
until March 19th, when Southwest submitted the self-disclosure 
in writing.
    In reading the VDRP report that was prepared by Southwest 
Airlines and accepted by Mr. Gawadzinski, under the Initial 
Notification, ``Did Non-compliance Cease After Detection?'' 
Southwest reported ``Yes.'' However, this is not the truth. The 
aircraft records show that Southwest continued to operate the 
affected aircraft in a known unsafe condition and fly 
passengers until March 23rd, 2007.
    From March 15th, 2007, the date that Mr. Gawadzinski was 
initially informed for this non-compliance, to March 23rd, 
2007, while Southwest Airlines was performing the overdue 
inspections on these aircraft, and while these aircraft were 
still operating in revenue service, records show that six 
aircraft had cracks on their fuselage. Maintenance records show 
that one of these aircraft had multiple cracks, ranging from 
one inch to three and a half inches long.
    This is enough evidence of a serious safety issue. When it 
comes to ADs, our guidance is crystal clear, and had Mr. 
Gawadzinski followed the FAA guidance, he should have notified 
Southwest Airlines that the affected aircraft could not be used 
in air transportation past the date that this non-compliance 
was discovered and initially reported to him on March 15th, 
2007. What is also aggravating and brings this unsafe condition 
to the highest level of concern is the fact that, according to 
the VDRP report, at the time of discovery, the violation for 
compliance with the AD inspections had remained undetected for 
30 months.
    What is interesting here is that in reading the VDRP 
report, under the ``Information of the Person Preparing the 
Comprehensive Fix'' for Southwest Airlines is the name Paul 
Comeau. Mr. Comeau is an ex-FAA inspector who was performing 
oversight inspections for regulatory compliance issues for the 
Southwest Airlines certificate at the Southwest Airlines CMO 
with Mr. Gawadzinski.
    While working for the FAA, Mr. Comeau accepted a job offer 
from Southwest Airlines as the Manager for Regulatory 
Compliance. I believe that Southwest Airlines knowingly hired 
Mr. Comeau for his FAA connections with inspectors in our 
office and, to their advantage, placed him in the position that 
directly interfaces with our office on a daily basis in regards 
to Regulatory Compliance issues in dealing with aircraft 
maintenance.
    I questioned Mr. Comeau's hiring by Southwest Airlines and 
I was told by my supervisor, Mr. Gawadzinski, that his hiring 
was cleared through our Regional Office. However, there is an 
ethics issue here and, as proven, a conflict of interest. In 
addition, in March of 2007, during an FAA security 
investigation, I gave Special Agent Dave Friant a statement 
regarding my concerns with the relationship of my supervisor, 
Mr. Gawadzinski, and Mr. Comeau. I stated that since Mr. Comeau 
was hired with Southwest Airlines, my supervisor was working 
directly with him, and I was being bypassed and kept out of the 
loop on reported safety concerns regarding my fleet.
    I believe that this cozy relationship between Mr. 
Gawadzinski and Mr. Comeau played a contributing factor and 
allowed the 47 aircraft to remain in service and operate in a 
manner that would provide relief to schedule the AD overdue 
inspections at the Southwest Airlines' convenience while flying 
paying passengers. Mr. Comeau, being an ex-FAA inspector, 
should have known AD inspection requirements are mandatory and 
address unsafe conditions. They teach that to the FAA 
inspectors at the Academy.
    Southwest Airlines is reporting that they are the ones that 
blew the whistle on themselves. That is correct. What they are 
not reporting is that at the time of discovery of the non-
compliance, back on March 15th, 2007, Southwest Airlines was 
required by Federal law to immediately remove the 47 aircraft 
from service and comply with the AD requirements. But Southwest 
Airlines did not take immediate corrective action and kept the 
affected aircraft flying passengers with a known unsafe 
condition until March 23rd, 2007.
    At the time of discovery, by not taking the 47 aircraft out 
of service and by not complying with the inspection 
requirements of the Airworthiness Directive 2004-18-06, 
Southwest Airlines failed to resolve an unsafe condition and, 
therefore, violated the requirements of Title 14 Code of 
Federal Regulations, Part 39.11, which clearly states: 
``Airworthiness Directives specify inspections you must carry 
out, conditions and limitations you must comply with, and any 
actions you must take to resolve an unsafe condition.''
    As it is stated in the AD, due to the past events 
pertaining to the Boeing 737, the skin fatigue and cracks could 
have resulted in a sudden fracture and failure of the skin 
panels of the fuselage, and consequently cause a rapid 
decompression which would have had a catastrophic impact during 
flight. This inspection requirements are the result of the 
Aloha Airlines accident in which a Boeing 737 aircraft, during 
flight, lost the top of its fuselage due to undetected cracks.
    The requirements of the AD are stated on its first page as 
follows: ``Airworthiness Directives affect aviation safety and 
are regulations which require immediate attention. You are 
cautioned that no person may operate an aircraft to which an 
Airworthiness Directive applies, except in accordance with the 
requirements of the Airworthiness Directive.''
    There is no excuse for the actions of Southwest Airlines 
and FAA personnel. Mr. Gawadzinski did not have the authority 
to allow these aircraft to operate with a known unsafe 
condition past the date at which time the AD non-compliance was 
discovered and reported to him, March 15th, 2007. In addition, 
it was his responsibility to ensure that Southwest Airlines had 
taken immediate corrective action in taking these aircraft out 
of service.
    FAA Order 8300.10 under Inspector Responsibility states: 
``An inspector who becomes aware of an unsafe condition in an 
aircraft that is being operated or about to be operated and 
fails to act under the provisions of Section 605(b) FA Act of 
1958, as amended, is in dereliction of duty. This duty is 
placed specifically by Congress upon the inspector, rather than 
on the Administrator. If the inspector, after due 
consideration, still has any doubts regarding whether or not to 
ground the aircraft, the grounding notice should be issued.''
    Also, there is a similar statement under Title 49 of the 
U.S. Transportation law in the Air Commerce and Safety Section.
    FAA inspectors are hired by the taxpayers to ensure 
airlines conduct their business with safety as the utmost 
consideration at all times. Allowing an airline to fly 
passengers on an aircraft with a known unsafe condition puts 
the lives of the flying public in jeopardy and, in my opinion, 
it is dereliction of duty and should be criminal.
    The 47 aircraft with the overdue AD inspections were not 
the only ones that kept flying in revenue service and out of 
compliance. On March 20th, 2007, via the VDRP, Southwest 
Airlines reported to Mr. Gawadzinski that 70 of their aircraft 
had overflow the requirements of their maintenance program for 
the functional check of the rudder standby hydraulic system.
    This required maintenance task is a very detailed and in-
depth functional check which ensures the integrity of the 
hydraulic system for the standby rudder and its components. The 
hydraulic standby system provides hydraulic fluid under 
pressure to operate the rudder, among other components, in the 
event of a main hydraulic system failure. In the past, several 
catastrophic accidents have occurred with other airlines due to 
the malfunction of the rudder control system.
    Even though the 70 aircraft had been flying out of 
compliance for over a year, at the time of discovery of the 
non-compliance, again, Southwest Airlines and Mr. Gawadzinski 
took no action and the 70 aircraft remained in service and 
operated in a matter that would provide relief to schedule the 
overdue inspections at the Southwest Airlines' convenience 
while flying passengers. In the VDRP report, Southwest 
Airlines, in part, states: ``Due to availability of the 
equipment and man-hours needed for each aircraft, it will take 
approximately 14 days to complete this task on all affected 
aircraft.''
    But in reading the VDRP report that was prepared by 
Southwest Airlines and accepted by Mr. Gawadzinski, under the 
Initial Notification question ``Did the Non-compliance Cease 
after Detection?,'' Southwest reported ``Yes.'' However, this 
is not the truth. As I stated earlier, the records show that 
the non-compliance did not cease after detection, and the 
affected aircraft were allowed to fly in revenue service and 
out of compliance for an additional 10 days past the date of 
detection.
    These 70 aircraft were part of my fleet, but my supervisor, 
Mr. Gawadzinski, kept me in the dark and worked this VDRP 
directly with Mr. Comeau.
    In one of the statements that were made by the FAA 
regarding the operation of the Southwest Airlines aircraft in 
revenue service with the overdue AD inspections, it was stated 
that one FAA inspector looked the other way. I am here to 
report that more than one FAA inspector along the FAA 
management have been looking the other way for years. No 
supervisor can do what my supervisor was doing without the 
support from fellow inspectors, the support of the Division 
Management Team, who were fully aware of what was going on; and 
I believe the support of some people in Washington.
    This should have been obvious. I was the only maintenance 
inspector that kept finding and raising the safety concerns 
since 2003. And when they were elevated to the Division 
Management Team, nothing was done. Every time I pointed out to 
Mr. Gawadzinski that he was not following our mandated guidance 
regarding safety violations in the presence of the office 
manager, Mr. Mills, Mr. Gawadzinski would respond that our 
guidance was outdated and that he was talking with Mr. 
Ballough, the Director of Flight Standards, who always informed 
him of the ups and comings. According to Mr. Gawadzinski, he 
spent a lot of time with Mr. Ballough at the Eastern Region 
during his executive leadership program.
    Mr. Mills always looked into my safety concerns and 
supported my findings; however, every time he elevated them to 
the Division Management Team, he received no support. Under the 
circumstances that I just described, no matter how good of a 
manager a person is, without upper management support, the 
system makes him ineffective.
    The FAA is a great organization with many good inspectors 
and managers, and I am proud to be part of it. However, there 
is no accountability throughout the ranks. As FAA inspectors, 
we have taken an oath to uphold the rules and regulations 
outlined in our mandated guidance, and we are told that safety 
is our job. If that is the case, then how come the FAA does not 
hold accountable the management and inspectors who look the 
other way instead of ensuring that the airlines conduct their 
business with safety as the utmost consideration? After all, we 
owe this to the taxpayers who put their trust in us. To this 
date, other than moving some personnel around, the FAA has 
taken no action.
    The Southwest aircraft that I reported flying with the 
overdue AD inspections were not part of my fleet. The 
inspector, Mr. Collamore, who is the Partial Program Manager 
for those aircraft, had full knowledge of the serious safety 
issue seven days before I did. He also had an obligation and 
responsibility to follow our guidance and the Federal 
Regulations and ensure that this unsafe condition was 
immediately addressed. But Inspector Collamore chose to take no 
action and went along with Mr. Gawadzinski's decision.
    As for management accountability, after the removal of Mr. 
Gawadzinski from our office, the current office manager, Mr. 
Bobby Hedlund, promoted Inspector Collamore and gave him more 
authority by letting him act in Gawadzinski's position as 
Supervisor/Principal Maintenance inspector. I had a meeting 
with Mr. Hedlund and expressed my concerns, but he was not 
interested.
    I wrote several e-mails to the Division Manager, Mr. 
Stuckey, raising my concerns and stating that instead of 
holding inspectors accountable for their inactions, the 
management was rewarding them and giving them additional 
authority. I requested a meeting and his immediate attention. 
Mr. Stuckey never responded. However, I received an e-mail from 
the Assistant Division Manager, Mr. McGarry, who informed me 
that management has the right to assign acting personnel to 
temporary supervisory positions.
    We all hear statements that we have the safest air 
transportation system in the world. I believe that the safety 
we are enjoying today is the fruit of the aftermath of the 
Value Jet accident in the mid-1990s, which forced us to refocus 
and put in place new procedures. Unfortunately, that was done 
after the accident. I do not think that we should be taking 
credit for being reactive to accidents.
    What is alarming is the fact that even today we are still 
being reactive. This is proven by the notice that the FAA 
issued two weeks ago, ordering FAA inspections of the airlines 
in order to validate AD compliance because of this hearing. 
Despite the fact that our databases are full of positive 
findings, the current events are proving us wrong by having 
hundreds of aircraft taken out of service with AD compliance 
issues. Where are the ATOS risk indicators?
    Southwest Airlines is reporting that, according to Boeing, 
there was no safety issue regarding the 47 aircraft that were 
flying passengers with the overdue AD inspections in which six 
of them had cracks on the fuselage. It is nice of Boeing to 
offer an opinion for their largest customer; however, if 
aircraft manufacturers could predict accidents, we wouldn't 
have the safety requirements of this AD today.
    In addition, consultants have been reporting that after 
reviewing the data, in their opinion, safety was not 
jeopardized. I am reporting to you that calling Boeing for an 
opinion or hiring a consultant is not an option, because 
neither one has the authority over the mandatory requirements 
of an AD, and that is the law.
    The majority of the ADs are the result of catastrophic 
accidents, and, as the industry saying goes, ``ADs are written 
in blood.'' I am very concerned because these safety issues 
affect the lives of the flying public, and, instead of being 
advocates for safety, some people are still trying to mud the 
water by down-playing this serious safety issue.
    It is very sad that an FAA inspector has to become a 
whistleblower in order to address safety issues. But I would 
like to set the record straight because, for some reason, the 
FAA Biweekly news is stating the following: ``In the Southwest 
Airlines case of non-compliance, an inspector repeatedly raised 
issues with his supervisors, but he felt he needed to use an 
anonymous FAA hot line in order to be heard.''
    That is not the truth. I did not use an anonymous FAA hot 
line. These are serious safety issues, and I wanted the people 
that received my concerns to be able to get in touch with me; 
this way I could answer any questions they might have. For the 
record, I have been raising safety concerns for AD compliance 
and maintenance issues since 2003 on record and openly. I have 
followed the chain of command from my manager all the way to 
the Regional Office and the Division Management Team. Every 
safety concern, every inspection finding has my name on it.
    What you will find interesting is that in late March of 
2007, after I discovered that Southwest Airlines, along with 
the FAA, had allowed the operation of these aircraft with the 
overdue AD inspections in revenue service, and once everybody 
knew that I elevated this serious safety issue, I was removed 
from my position and was placed under investigation due to an 
anonymous complaint with allegations against me that was 
forwarded to our office through Mr. Gawadzinski from Southwest 
Airlines.
    Along with the anonymous complaint, my office manager, Mr. 
Mills, received an e-mail from the Director of Quality 
Assurance, Mr. Mats Sabel--the same person who had previously 
requested my removal from doing the AD SAI inspections--
requesting my restriction from Southwest Airlines property 
until this investigation and any other official investigation 
had been contacted. That day, Mr. Gawadzinski came to my cube 
and told me, with that type of allegations against me, he did 
not see a reason for me to stay in the office. I questioned the 
timing of the anonymous complaint, but I got no response.
    From March 2007 to the end of August of 2007, I was hoping 
that the Division Management Team would do the right thing and 
look into my findings and safety concerns. However, they did 
not address anything. In July 2007, they closed the 
investigation regarding my documented safety concerns and they 
concentrated their efforts in silencing the messenger. By the 
end of August, I realized that the Division Management Team's 
interest was damage control and covering up the serious safety 
concerns.
    By the end of August, I put a package together, the same 
package I had given to the Division Management Team six months 
earlier, and I sent it to the Office of Special Council, and 
again I went on record and openly identified myself. By the end 
of September 2007, after the Division Management Team found out 
that I had elevated the safety issues to Washington, they 
reinstated me back to my original position and they reopened 
the investigation regarding my reported safety concerns. I am 
here to report to you that all my findings and safety concerns 
have been validated 100 percent.
    During the FAA town hall meeting in March 2008, Mr. 
Sabatini stated that the FAA is working on a solution to 
prevent this from happening again, and it is my understanding 
that the FAA is going to put in place a hot line process for 
inspectors to elevate safety concerns. But, with all due 
respect, I have a question here: If FAA management did not 
respond when I openly, and on record, raised the serious safety 
concerns, how is the hot line process going to work? What we 
need is accountability throughout the ranks, and that will fix 
the problem. There is no need to burden the taxpayers with 
another hot line process.
    Additionally, I would like to inform you that for years we 
had a similar hot line system in place that inspectors do not 
trust, because hot line complaints and safety issues end up on 
the FAA Administrator's desk, and then they are passed down to 
the local FAA Regional Office to be investigated. The Regional 
Office assigns the local FAA security, which reports to them, 
to conduct these investigations. FAA security does not have the 
technical background, and that is when the Regional Office 
controls the outcome by assigning the technical portion of the 
investigation to Regional FAA personnel that report to them 
also.
    From my experience, I believe the priority of the Regional 
Office is damage control, and I see no interest in 
accountability or doing the right thing. At the end of the 
investigation, no matter what the evidence shows, it is 
disregarded by the Division Management Team, who cherry-pick 
the information from the investigation reports and, without 
looking at the big picture, they apply Band Aids instead of 
fixing the root of the problem.
    I would also like to inform you that since the FAA put in 
place the customer service initiative, the partnership programs 
such as the Voluntary Disclosure Reporting Program and Aviation 
Safety Action Programs have become ineffective. We are told 
that the airlines are our customers, and if they do well we do 
well--more jobs for us. However, some of us have forgotten that 
we have another more important customer--the taxpayers--who put 
their trust in us to ensure that the airlines provide safe 
transportation for the flying public.
    The airlines take advantage of the customer service 
initiative and they constantly remind us that they are the 
customer. The best way to put this is like you are going down 
the highway committing traffic violations and jeopardizing the 
safety of others, and when the police officer stops you and 
informs you that you are breaking the law by endangering 
people's lives and you tell the officer that he cannot document 
the violation because you are his customer. I know this sounds 
funny, but this is as close to an example as I can come up 
with.
    We also have the customer service feedback line for the 
airlines, which gives them the opportunity and the tool to 
cherry-pick the inspectors that manage their certificate by 
praising the inspectors that go along with their wishes. 
However, there is nothing in place to support the inspectors 
that are intimidated by the FAA management and by the airline 
because they do their job by the book. In the performance of my 
duties, I have been asked by Southwest Airlines management to 
make a violation go away. In addition, I have been threatened 
by Southwest Airlines management that they could have me 
removed from the certificate by picking up the phone.
    The airlines use the VDRP as a tool to circumvent the 
regulations and provide relief for themselves from maintenance 
and inspection requirements in order to keep their aircraft 
flying. A good example of this is the Southwest Airlines VDRP 
report of the 70 aircraft that were flying in revenue service 
with the functional check of the rudder, which were overdue for 
over a year, and they used the VDRP report to continue flying 
the aircraft in revenue service and out of compliance for an 
additional 10 days past the date of discovery due to the 
shortage of manpower and equipment.
    The ASAP program is also abused by maintenance personnel 
who are no longer held accountable. They are using the program 
for reasons other than its intent, and I will give you a couple 
of examples. In the past, Southwest Airlines mechanics were 
installing the wrong tire and wheel assemblies, B-737-300, 
wheel and tire assemblies, on the Boeing 737-700 aircraft. The 
first time this discrepancy was reported and accepted into the 
ASAP, the mechanic that was involved received human factors 
training and the tire and wheel assembly paperwork was revised 
for future installations by adding a paragraph as a note right 
above where the mechanic signs for changing the wheel and tire, 
questioning him or her to check that the proper wheel and tire 
assembly was installed.
    The second time another mechanic installed the wrong tire 
and wheel assembly on another aircraft, the ASAP accepted the 
report and the mechanic also got human factors training. In 
addition, a new safety net was put in place by writing on all 
the tires with big letters on the sidewall indicating to what 
type of aircraft they belong to. The third time another 
mechanic installed the wrong tire and wheel assembly on another 
aircraft. The FAA again accepted his ASAP report, at this point 
I see accepting the first mechanic's report, but how can we say 
that by accepting the other two mechanics' reports into the 
ASAP we contributed to safety?
    I can stand here and give you all kinds of similar 
examples, but the bottom line is that some mechanics are not as 
vigilant as they should be, and they do not worry about it 
because they know that they can always ASAP the performance of 
improper maintenance, even after an FAA inspector finds it. We 
need to refocus and ensure that these programs meet their 
intent, instead of being a get out of jail free card.
    I hope the information I have provided today will help 
bring some overdue changes and help inspectors like myself to 
continue serving the public and give hope to the inspectors 
that have lost faith in the system.
    Thank you for your time and for giving me the opportunity 
to raise my safety concerns in front of your honorable 
Committee.
    Mr. Oberstar. Thank you, Mr. Boutris.
    I will say to Committee colleagues that this is a lengthy, 
in-depth statement, but it was necessary to hear in every 
detail the journey of public interest and of safety that this 
panel made, and this witness in particular. You have to hear it 
all in its specific details.
    Mr. Peters has a somewhat shorter statement, and after him 
we will limit the other witnesses to five minutes.
    Mr. Peters.
    Mr. Peters. Good morning, Mr. Chairman and Members of the 
Committee. My name is Douglas E. Peters, and I am an Aviation 
Safety Inspector employed by the FAA and am currently assigned 
to the American Airlines Certificate Management Office, or CMO. 
I am the Acting Boeing 757 Partial Program Manager. I have been 
employed by the FAA for a total of seven years, all of which 
have been in the Flight Standards Service. Prior to my 
assignment to the AMR CMO, I was assigned to the Southwest 
Airlines CMO from April 2001 through October 2007, holding the 
positions of Inspector, Assistant Principal Maintenance 
Inspector, and Data Evaluation Program Manager. I have an 
untarnished career at the FAA and, in February 2004, was 
selected as the Southwest CMO Maintenance Inspector of the 
Year.
    Prior to my employment with the FAA, I worked for two major 
U.S. air carriers and I am a veteran of the United States Air 
Force. I have 27 years of experience in aircraft maintenance.
    I have provided detailed records to the Office of Special 
Council, the Office of Inspector General, and the FAA Security 
regarding FAA employees of the Southwest CMO's participation 
and involvement in violation of Federal regulations, abuse of 
authority, and substantial and specific danger to public 
safety. I am not a disgruntled employee, nor do I wish to 
embarrass the FAA or ruin its reputation. I merely wish to 
truthfully describe the events that brought me here today.
    At this time, I would like to take the opportunity and 
explain the events surrounding the Southwest AD overflight 
issue and explain how that event became the catalyst that 
brought us before the Committee.
    In April 2007, the Southwest CMO conducted an internal 
investigation of the Voluntary Self-Disclosure that was 
submitted by Southwest Airlines to the FAA regarding an AD 
overflight that was accepted by PMI Douglas Gawadzinski. I was 
the lead inspector on that investigation. During the 
investigation, the Division Management Team instructed Office 
Manager Mike Mills to hand over the preliminary results of the 
investigation to an audit team who were on-site in our office.
    At that time, my investigation was ongoing and incomplete; 
however, I had discovered that several aircraft had been 
operated in an unsafe condition beyond the date of March 15th, 
2007, three of which had cracks in the area inspection required 
by the AD. A fourth was found to have cracks at a location 
outside of the inspection area called out in the AD.
    The audit team was constructed of management personnel from 
other offices within the Southwest region. Following the audit 
team's conclusion of the AD overflight investigation, a memo 
from FAA Managers Teppen and Whitrock, dated April 18th, was 
given to Manager Mills stating that Southwest Airlines had 
indeed operated 47 aircraft in an un-airworthy condition and 
that the PMI condoned such operation. Additionally, the memo 
stated ``Southwest CMO has a relaxed culture in maintaining 
substantiating data as well as any documents that would support 
any decisions made by the airworthiness unit.'' PMI Gawadzinski 
was the supervisor for that unit.
    Following the memo by FAA Managers Teppen and Whitrock, on 
May 8th, Mike Mills called the entire office to an all-hands 
meeting where the Assistant Division Manager for Flight 
Standards, Ron McGarry, temporarily removed both Manager and 
PMI pending an investigation and announced Bobby Hedlund as the 
Acting Manager of the CMO. Neither Mills nor Gawadzinski 
attended that meeting.
    June 11th, 2007, at approximately 1:00 p.m., Acting Manager 
Bobby Hedlund stopped by my office. That was during the time 
frame of the FAA's initial internal investigation of the AD 
overflight. I was typing my written statement to FAA Security 
Special Agent Jay LaFlair and I informed Hedlund that I would 
be sending him a memo regarding unethical actions taking place 
by inspectors in the Southwest CMO. He agreed to look into the 
matter once he received the memo.
    Before Hedlund left my office, I told him that I thought 
writing my concerns about unethical actions was the right thing 
to do. He stated and agreed that we should always do the right 
thing, and that is what his father had always told him to do. 
He got out of the chair and walked over to my bookcase, where I 
keep pictures in frames. He picked up a picture of my son that 
was taken next to an aircraft and said, ``This is what's 
important, family and flying.'' He then pointed to a picture of 
my family and said, again, ``This is what is important.'' On 
the way out the door, he made the following statement: ``You 
have a good job here and your wife has a good job over at the 
Dallas FSDO. I'd hate to see you jeopardize yours and her's 
career trying to take down a couple of losers.''
    June 14th I sent the previously described memo to Acting 
Manager Bobby Hedlund. As of today, I never received a formal 
response to that memo.
    On June 14th I submitted a 15-page written statement 
following a two-day interview where I was interviewed by FAA 
Security. Special Agent Jay LaFlair and Flight Standards 
Manager Terry Lambert conducted the interview. During my sworn 
statement, I described over two and a half years of PMI 
Gawadzinski's improprieties, unethical actions, abuse of 
authority, and misuse of government resources along with 
relaxed oversight of Southwest Airlines. I also included in my 
statement several instances where his subordinates were engaged 
in unethical actions as well.
    In July 2007, I made my first contact with Congressional 
staff personnel at the T&I Committee. I informed them of the 
situation in the office and that I believed that Southwest 
Airlines was at risk due to the lax oversight that they had 
been under in the absence of accountability actions with regard 
to FAA personnel. I also informed them the conditions were 
basically the same following FAA Security investigation that 
had taken place in June. There was a serious divide within the 
office. The divide consisted of those who followed national 
policy and those who were loyal to Gawadzinski. I provided a 
copy of the AD overflight disclosure to substantiate my initial 
concern.
    After waiting nearly two months for corrective action to 
occur by either the Division Management Team or the Flight 
Standards Director, James Ballough, for the improprieties 
identified by the FAA security investigation, it was evident 
that no action was being considered by FAA senior management 
personnel, leaving a strong underlying tone that the happenings 
of the Southwest CMO were not only condoned, but possibly 
sanctioned.
    In August 2007, after gathering additional facts and 
documentation following the FAA security investigation that 
occurred in June, Inspector Boutris and I filed disclosures 
with the Office of Special Council. We supposed the OSC and the 
T&I detailed documentation which substantiated our safety 
concerns and supported our disclosures. The poor condition of 
the Southwest Airlines regulatory maintenance oversight was a 
risk that neither Inspector Boutris nor I was willing to 
accept.
    On August 28th, during a telephone conversation with T&I 
Congressional staff personnel, I was informed that a call had 
been placed to FAA Headquarters to the Director of Flight 
Standards, James Ballough. Mr. Ballough was not available to 
take the call; however, a message was left regarding the events 
at Southwest Airlines and he was encouraged to return the call. 
During the next few weeks, several unsuccessful attempts and 
messages were said to have been made by T&I personnel to 
contact the Director during the time period between August 28th 
and mid-September.
    According to T&I staff personnel, the FAA initially refused 
to cooperate with a request for information regarding this 
matter. Only under threat of subpoena in an October 5th, 2007 
letter to Acting Administrator Sturgill from Chairman Oberstar 
and Chairman Costello was the documentation from the FAA 
internal investigation obtained.
    September 9th, 2007, Acting Manager Bobby Hedlund called a 
Southwest CMO for an all-hands meeting where Division Manager 
Tom Stuckey and Assistant Division Manager Ron McGarry were 
present. The meeting was called to announce that Bobby Hedlund 
was selected as the permanent Manager of the Certificate 
Management Office and that Mike Mills had accepted a position 
as Assistant Manager at the DFW FSDO. To my knowledge, that was 
the first visit by the Division Manager to address the CMO in 
over two years. He spoke about change and made reference to the 
train leaving the station, and if anyone didn't want to be on 
that train, he might be able to help them in making 
arrangements for that person or persons to work in another 
location.
    At the close of the meeting, I asked to speak to him. Mr. 
Stuckey and Assistant Division Manager Ron McGarry visited me 
in my office. I stated to the Division Manager that I did not 
want to be on that train and that I had put in a request for 
reassignment to the AMR Certificate Management Office. I also 
stated that he was about five months too late. I made reference 
to the divide in the office and how Gawadzinski's previous 
subordinates with one other inspector had engaged in unethical 
and inappropriate actions in May.
    I presented a copy of the June 14th memo that I had given 
to then Acting Manager Hedlund. He briefly scanned over the 
memo and handed it to Ron McGarry. They both acknowledged my 
request for reassignment and stated that they would have to 
talk to the manager of the AMR CMO, but the final decision 
would be entirely up to him.
    On October 14th I was reassigned to the AMR CMO as the 
Acting Boeing 757 Partial Program Manager.
    Only under the watchful eyes of the T&I Committee, the OIG, 
and the OSC did this gross misconduct by FAA management 
personnel and the Southwest CMO, Regional, and Headquarter 
levels receive the close scrutiny that was warranted.
    It didn't have to come to this. Or maybe it did.
    As a follow-up to the FAA town hall meeting which was held 
March 18th, ironically, one year following the AD overflight 
Self-Disclosure by Southwest, it was evident that management 
personnel with the responsibility and the authority to take 
appropriate action proved themselves unworthy to being 
custodians of the public trust. The proof was provided by their 
blatant disregard and failure to respond to significant safety 
events that were constantly reported in both verbal and written 
form to the Division Management Team.
    Mr. Sabatini made several points in his FAA town hall 
meeting which I agree with, first being that we have identified 
a risk. However, I am not confident that the risk defined by 
him is accurate. Secondly, I also agree that what is in the 
media is troubling, and I believe that, as an agency, 
appropriate action does indeed need to be taken. After being a 
key witness to the lack of concern for public safety through 
the intentional and blatant disregard of national policy, I do 
not have the confidence that all responsible individuals will 
be identified and held accountable.
    There have been public statements made that indicate FAA is 
conducting damage control to protect the agency's reputation, 
while clouding the issues surrounding the impropriety that 
occurred in the FAA's Southwest Region and was known by FAA 
senior management. There is evidential proof that there are 
more involved than just one man or a few individuals. It is my 
earnest plea that this Committee take the accompanying data 
along with the factual testimony that is being voiced today to 
draw conclusions and submit a plan of action that not only 
restores faith in the FAA, but also dispels any fears or 
concerns that the American citizens might have towards aviation 
safety.
    The implications that this is all the doing of one man is 
simply a misnomer. This one man, Douglas Gawadzinski, was 
fueled and energized by others around him who were willing to 
disregard policy. We operate on a documented and carefully un-
engineered system of rules and orders, and at no time is any 
one of the individuals involved permitted the self-appointed 
power to make determinations contrary to that guidance.
    In the aforementioned FAA town hall meeting, Mr. Ballough 
described the events surrounding Inspector Boutris' claims. He 
stated, ``There were indicators, there were warning signs that 
we should have picked up that go back for a period of over two 
years, at least.'' Southwest Airlines, yes, I agree we have 
identified a risk and a breakdown. Regarding Boutris, it wasn't 
at the inspector level. Regarding Manager Mills, it wasn't at 
the CMO manager level. These two individuals were raising 
safety concerns to the Division Management Team for over two 
years.
    In addition to meetings by CMO Manager Mills with the 
Division Management Team personnel, e-mails and memos from 
Boutris and myself, several WEAT Team visits occurred. WEAT 
Team was a term used for Workplace Evaluation Assessment Team, 
where other FAA Management personnel would come to visit and 
assess the environment within the office. These are the office 
audits I spoke about earlier today. I personally communicated 
my concerns during the past three years to WEAT Team members. 
The audit that occurred in April 2007 revealed several 
shortcomings regarding the lack of approval documentation for 
Southwest Airlines' maintenance program.
    The flying public and Southwest Airlines deserves to hear 
the truthful facts surrounding the lack of oversight at this 
carrier. They also deserve to board a flight without having to 
worry if the FAA inspector responsible for the oversight of 
that carrier has allowed them to knowingly fly in an unsafe 
aircraft. They deserve to fly in a plane knowing that when 
known safety concerns are brought to FAA Divisional, 
Headquarter levels, that they are not ignored and pushed aside 
until the threat of subpoena has been made by Congress.
    In conclusion, let me say that I feel it is my duty to see 
this matter through in hopes of the Committee assessing the 
information and making the determination of what needs to 
happen next. The unethical actions that have been identified 
and permitted, as well as the known unsafe conditions, have 
gone on for too long. The fact that FAA senior management knew 
about these issues within the Southwest CMO is undisputed.
    I have received unsolicited encouragement from field 
inspectors all throughout the agency, with many of them 
revealing examples of the same types of mismanagement that we 
are discussing today. Not only for my sake, but for theirs, I 
feel empowered and compelled as a United States citizen, and 
having the privilege of being a Federal employee, to stand up 
for the rights of all aviation safety inspectors. I am thankful 
for the opportunity to come before you and explain the 
obstacles that we face on a daily basis, placed upon us 
oftentimes by our own agency that hinders us from our first and 
foremost duty: safety.
    As for Southwest Airlines as a whole, it is my opinion that 
your company was led down the wrong path by a handful of 
individuals both within your ranks and ours. Unfortunately, 
these individuals have negatively impacted your company's 
reputation and put passengers and crew at risk. I am not sure 
how long it will take to recover from this, but I am sure that 
if any company can do it, Southwest Airlines can. You have a 
great company and your reputation will shine again.
    Thank you, Mr. Chairman and Members of the Committee.
    Mr. Oberstar. Thank you, Mr. Peters
    I think the American public should take great heart from 
the courage demonstrated by these two witnesses and, as we will 
see, from the others in this panel, but also from the depth of 
conviction with which they give their testimony. And I just 
want to say, parenthetically here, Mr. Peters' statement I do 
not have confidence that all responsible individuals will be 
held accountable, I make the observation that Mr. Gawadzinski, 
about whom you heard devastating testimony, is still an FAA 
inspector. He has been removed from the Southwest Certificate, 
transferred to the American Airlines Certificate as CMO at 
$100,000 a year pay.
    Mr. Mills.
    Mr. Mills. Thank you, Mr. Chairman, Mr. Mica, and honorable 
Members. My name is Michael Mills. I am currently Assistant 
Manager of the Dallas-Fort Worth Flight Standards District 
Office in Fort Worth, Texas. I have been employed with the FAA 
for almost 13 years, including 6 years in management. Prior to 
my employment with the FAA, I worked for 28 years as a 
commercial airline pilot, and much of that time was spent in 
airline operations management. I have accumulated more than 
15,000 hours of accident-free flying, and in my employment with 
the FAA I have enjoyed a blemish-free employment record until 
May 8th, 2007, when I was abruptly removed from my position as 
Manager of the Southwest Airlines Certificate Management 
Office.
    My removal occurred within a matter of days after I had 
discovered and reported to my superiors that Southwest Airlines 
had overflown critical safety inspections of some of its 
aircraft and that one of my subordinates, the Principal 
Maintenance Inspector, Douglas Gawadzinski, had apparently 
suppressed this information.
    Inspectors Boutris and Peters, along with one of my 
supervisors, Paul Cotti, all of whom are appearing with me 
today, were instrumental in discovering and analyzing the 
records that led to my initial reporting of these overflights 
to the regional level and my call for an investigation in early 
April 2007. I applaud their courage in exposing this episode, 
especially in light of the humiliating treatment that I have 
received as a result of my actions. These are honest, hard-
working men, proud of what they do, and who attempted to work 
within the system to have their concerns addressed. They saw in 
me someone they could trust, and I decided to help them. My 
dismissal for doing so was a fate that certainly was not lost 
on them, so it is no surprise that they sought the 
whistleblower protection that was available.
    Even considering the damage to my reputation at the hands 
of my superiors, I am still proud to be a part of this agency 
and its important mission.
    The partnership concepts that are the subject of this 
inquiry have some use in the FAA toolbox, but this unfortunate 
episode bears stark evidence that the success of these 
partnerships is highly dependent upon the integrity of those 
persons engaged in the process and the propriety of their 
actions.
    I was appointed Manager of the Southwest Airlines 
Certificate Management Office by Tom Stuckey, the Southwest 
Region Flight Standards Division Manager. After a few months on 
the job, it became clear to me that the oversight mission of 
the office towards Southwest Airlines was considerably degraded 
by virtue of the informality of its business and the coziness 
between some of the inspectors and their counterparts at 
Southwest Airlines.
    I also found that the FAA Principal Maintenance Inspector, 
Douglas Gawadzinski, one of four supervisors who reported to 
me, appeared to be unusually lenient with the carrier in 
several areas, especially enforcing Federal aviation 
regulations. He had also accrued among the office staff a 
number of adherents to his philosophy of accommodation for the 
carrier.
    He professed to have been enlightened to this approach 
through personal relationships he convincingly purported to 
have had at FAA Headquarters with Flight Standards Director 
James Ballough and Associate Administrator Nicholas Sabatini, 
whose names he frequently dropped, describing them as his 
mentors and the sources of this line of thought. As I was and 
still am a strong advocate of regulation enforcement, 
Gawadzinski considered me an impediment to his cause, and I 
became a source of great irritation and conflict for him.
    My assessment that the CMO's oversight and enforcement 
posture had deteriorated led me to publish a memorandum 
entitled A Time for Change, setting forth my goal of refocusing 
the office toward a more business-like oversight model.
    Mr. Chairman, I am running out of time. Would you like for 
me to continue?
    Mr. Oberstar. If you could summarize the rest of your 
statement, please.
    Mr. Mills. Okay.
    Counseling Gawadzinski had proved futile and my attempts to 
document his actions were met with a warning against doing so 
from my supervisor, Ron McGarry. This exemplified a pattern of 
protection of Gawadzinski from above my level. That I was 
unable to penetrate into the Southwest Airlines AD overflight 
occurred in March 2007.
    My full testimony recounts the numerous occasions that I 
reported to my superiors the concerns I had for the PMI's 
actions, most of which were initiated through reports from Mr. 
Boutris. The record will show these warnings and requests for 
assistance were ignored, shelved, or responded to with 
smokescreen events like office audits or forced mediation, but 
did nothing to address the safety implications of what I was 
reporting.
    Finally, in late March, when I became aware of 
Gawadzinski's role in allowing Southwest to fly unsafe 
airplanes contrary to an AD, I reported the circumstances to my 
superiors and called for an investigation. Soon afterward, I 
found that Gawadzinski had allowed Southwest to overfly 
required rudder system inspections and did also suppress this 
information, which I reported to my superiors. Their response 
was a chilling telephone call where I was informed that the 
region wanted to keep this matter very quiet and low key. 
Within five days I was removed from my position as Office 
Manager.
    In my view, my actions over the period of my tenure as 
Southwest CMO were focused on the elimination of a serious 
deficiency in the maintenance oversight of the carrier, an 
imperative I felt I could not ignore even though I could not be 
sure of its impact on my career. My actions were met with 
indifference or roadblocks at every turn from the regional 
level. The price of my effort to ensure safety, however, was 
not recognition, as perhaps might be expected for the first 
management official to report the incidents, but the 
humiliating ejection from my job under circumstances that could 
only invite questions as to whether it was a coverup attempt by 
the region.
    Within a few weeks after my removal, and still very 
concerned about these matters, I wrote a prophetic e-mail to 
the Office Manager who succeeded me at the Southwest CMO. I had 
no idea then just how poignant my remarks would turn out to be. 
In the message I mentioned that I suspected the region was 
soft-peddling these events, and then I wrote, ``My feeling is 
that this will likely not remain low profile, nor quiet. My 
advice to you as my successor would be to ensure that you are 
fully conversant with these two events, among others you may 
ultimately discover, and take whatever measures are necessary 
to validate the adequacy of Southwest's control over its 
maintenance program.''
    Because of the illumination of this unfortunate estimate, 
Mr. Sabatini has announced that he will take steps to improve 
employee communication at all levels, including a mechanism to 
encourage employees to take their concerns to a higher 
authority when there is a failure in the chain of command. Time 
will tell as to whether this will be effective, and I would add 
to that initiative a recommendation that higher level FAA 
managers be rotated periodically so as to lessen the likelihood 
that a dysfunctional management team perhaps too willing to 
give in to outside influence can perpetuate what in this case 
can only be termed a hoax on the flying public.
    I thank this honorable Committee for the opportunity to 
present this information.
    Mr. Oberstar. Thank you very much, Mr. Mills. Your last 
comment about rotating high-level personnel comes right along 
with the earlier proposal I made of limiting the revolving 
door.
    Mr. Hayes?
    Mr. Hayes. Mr. Chairman, if I could interrupt just a 
moment. I have a statement from the Southwest Airline Pilots 
Group that I would like to submit under unanimous consent for 
the record. They are obviously a very important part of the 
whole safety program and not knowing what time constraints are 
going to do, I would like to give it to you.
    Mr. Oberstar. Without objection, the material will be 
included in the record, along with the testimony from Southwest 
Airlines.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. Cotti.
    Mr. Cotti. Good morning, Mr. Chairman, Members of the 
Committee. My name is Paul Eugene Cotti. I am currently an 
Airworthiness Unit Supervisor in the FAA's AMR Certificates 
Management Office. I have been in the FAA Flight Standards 
Service for nearly 18 years, four as a Principal Inspector and 
over three now as a frontline supervisor.
    My work experiences prior to the FAA include a variety of 
aviation maintenance-related positions in commercial and 
military aviation. Like so many in the FAA Flight Standards 
Service, I care very deeply about ensuring the safety of the 
flying public and for FAA's success in achieving the objectives 
of its critical mission. I am honored to be appearing before 
you today.
    I served as the Geographic Unit Supervisor in the Southwest 
Airlines CMO from March 2005 to May 2007. During that entire 
period, the Office's management team was often divided on 
matters relating to the management and oversight of the 
Southwest Airlines operating certificate. This division can be 
summarized as being between management officials that insisted 
on adherence to the stated and implied intent of FAA orders and 
those that insisted on exercising degrees of latitude and 
discretion that often fell well outside of the parameters of 
those orders.
    Under the banner of collaboration with the airline, the 
latter group, whose most important or prominent member was the 
Supervisory Principal Maintenance Inspector, did so in a manner 
that was often contrary to FAA orders and at times openly 
hostile to the requirements of transparency and accountability.
    Proper collaboration with airlines can be an effective 
method for collectively reducing risks and improving safety; 
however, in this case, it was engaged in an environment in 
which regulatory compliance could be delayed or gained only 
through deals which under the best of circumstances only 
provided to the traveling public that to which it is already 
entitled to on a continuing basis. It is unfortunate that the 
resistant group was not as committed to collaboration with the 
office manager as it apparently was to the airline. Had they 
done so, the events and conditions that ultimately resulted in 
these hearings would have been avoided.
    By virtue of his important position, the PMI's erroneous 
decisions and opinions were unfortunately afforded a 
significant degree of legitimacy by the airline. Consequently, 
a distinct contrast was created between the PMI and the 
resistant group on one hand and the compliant management 
officials and inspectors, such as Boutris and Peters, on the 
other.
    This had a very detrimental impact on how the airline 
perceived the hazards and risks that were discovered and 
presented to them by FAA personnel that were attempting to 
follow FAA orders. By his words and actions, the PMI presented 
a distorted view of FAA expectations and a very negative 
example to his subordinates. Over time and for various reasons, 
the PMI's resistance to transparency and accountability was in 
turn adopted by a number of other inspectors in the office as 
well. This further exacerbated divisions in the office and had 
a very detrimental impact on the office's productivity and 
effectiveness.
    The expectation to follow FAA orders was specifically 
expressed and elaborated on many times by the office manager. 
It was also expressed by the Regional Division Manager at every 
management conference attended by the Office Management Team 
during the above period. In light of their obligations and such 
frequent admonitions from their chain of command, I am at a 
loss to understand how the PMI or the resistant group could 
have possibly justified their actions, or why those actions 
went uncorrected for over two years.
    Although the office's Geographic Unit, which I supervised, 
provided airworthiness and operations inspection services to 
the principal inspectors, it was deliberately designed by the 
FAA as a separate work unit, with its own supervisor and with a 
line of responsibility and authority that was direct to the 
Office Manager. This design constituted a control to ensure 
that, from a supervisory standpoint, the Geographic Unit was 
independent of the PMI and the other two principal inspectors.
    The PMI, and at times the Principal Avionics Inspector, 
were openly adverse to that organizational design, and 
particularly so when I, as the Geographic Unit Supervisor, 
insisted that the unit follow FAA policies that resulted in 
inspection and enforcement outcomes that did not meet with the 
PMI's personal desires. Regulatory violation findings by the 
Geographic Unit were often met with active or passive 
resistance from the PMI. On more than one occasion the PMI or 
one of his direct reports improperly contacted one of my 
subordinates to undermine my position with regards to 
regulatory enforcement in order to effect an outcome that was 
outside of the FAA's orders.
    The PMI was also openly critical of my efforts to improve 
the deficient safety inspection and enforcement performance of 
a number of my direct reports. I concluded from his behavior 
that the PMI was threatened by inspection and enforcement 
outcomes which he personally could not influence and control, 
regardless of the fact that those outcomes would fully conform 
to FAA policies.
    On quite a few occasions, responsible inspectors such as 
Boutris and Peters brought disconcerting airline events or 
circumstances to the manager's attention, apparently, because 
they were unable to garner the level of acknowledgment and 
support from the PMI that was necessary for appropriately 
addressing those matters. A number of the issues they brought 
forward were especially alarming because they represented 
precursors for aviation accidents.
    When the PMI failed to display appropriate reactions to the 
manager's resulting inquiries, he often tasked the assistant 
manager and me with conducting objective reviews in order to 
determine the validity of the inspectors' concerns. The results 
of those reviews were dutifully reported back to the manager 
and further exposed the scope and nature of the office divide 
with further discoveries that certain investigative enforcement 
and airline safety oversight related processes were being 
mismanaged. Examples included failures to take required 
enforcement action in response to discovery of regulatory 
violations by the air carrier.
    It must be understood that I am referring to all levels of 
enforcement, including simple administrative actions. There 
were concerns with how voluntary disclosure and aviation safety 
action programs were being administered; there were efforts by 
the PMI and his ASAP representatives to prevent dissemination 
of de-identified ASAP information to the manager, who is 
responsible for approving continuation of that program; there 
was misapplication of the ATOS surveillance process; and there 
were concerns with the manner in which Southwest Airlines 
maintenance time limitations for maintenance tasks were 
approved and documented. When the results of these reviews were 
brought to the PMI's attention, he was hostile, close-minded, 
and resistant to efforts to professionally discuss and take 
actions appropriate to those concerns.
    The most glaring example of the PMI's failure to follow FAA 
orders involves the manner in which he responded to the now 
well-known voluntary disclosure from the airline that it had 
grossly overflown a structural inspection Airworthiness 
Directive. The prohibition against further passenger flights 
until the AD was accomplished should have been immediately and 
specifically conveyed to the airline, and enforced as 
necessary. Such a response should be clear to any journeyman 
inspector and a natural reflex for someone in the critical 
position of Principal Maintenance Inspector.
    The FAA's voluntary disclosure and aviation safety action 
programs can be beneficial to the traveling public and to the 
airlines and individuals that fundamentally commit to the 
requirements of those programs. However, the effectiveness and 
long-term legitimacy of those programs is dependent on sound 
understanding of responsibilities, proper exercise of 
authorities, and on effective efforts to detect and correct 
abuses.
    Throughout the above period, I communicated my concerns 
through appropriate channels and maintained the expectation and 
faith that FAA machinery would engage and appropriately correct 
the PMI and those that were driving the office divide by their 
resistance to authority and accountability. Unfortunately, I do 
not believe that the scope and source of the serious safety and 
compliance-related differences in the Southwest Airlines CMO 
were ever properly acknowledged or understood outside of the 
CMO during the above period.
    My observations concerning events and conditions within the 
Southwest CMO ended with my transfer to the AMR CMO in May 
2007.
    I trust that my statement and responses to any questions 
are helpful to this distinguished Committee and its processes. 
Whatever the outcome of these hearings, I am also hopeful that 
the outstanding service and everyday commitment to aviation 
safety by so many others in the Flight Standards Service is not 
forgotten by those that we constantly strive to faithfully 
serve. Thank you.
    Mr. Oberstar. Thank you very much, Mr. Cotti. The web, it 
seems, gets ever more intricate.
    Mr. Naccache.
    Mr. Naccache. Good morning, Mr. Chairman and Members. In 
response to your invitation, it is an honor and privilege to be 
here to provide you with my testimony.
    First, if I may, now that I have retired, I would like to 
take a minute to introduce myself and state some of my 
credentials. My name is Robert Andre Naccache. After more than 
20 years of service in flight standards, I recently retired in 
November 2007 from the FAA as an Assistant Manager of the 
Southwest CMO.
    During my tenure with the FAA, I served about three years 
as a Principal Inspector for 129 foreign carriers, six years as 
a Principal Operation Inspector for several 129 supplemental 
air carriers operating domestically and internationally, eight 
years as a Supervisor for Certificate, airman certification and 
carrier certificate and surveillance, and, lately, three years 
as an Assistant Manager at the Southwest CMO. While with the 
FAA, I was presented the Southwest Region's Field Inspector of 
the Year Award in 1994. I also twice received the Southwest 
Region's Supervisor of the Year Award for the year 2001 and 
2003.
    Prior to my career with the FAA, I was an airline pilot for 
17 years, flying overseas Boeing 707 and the Boeing 747, as a 
captain, between Europe, Asia, Australia, and the U.S. Before 
that, back in my mid-twenties, I was an FAA-certified flight 
instructor for three years. This gives me over 40 years of 
experience in the field of aviation.
    Now let me tell you that I care a great deal about the FAA. 
It is an excellent agency, unmatched anywhere else in the 
world. And, trust me, I have experience of that, flying 
overseas. The majority of employees produce outstanding work 
for aviation safety. The FAA guidelines are well conceived. The 
air transport industry and the FAA created partnership program 
as a means of addressing safety problems and to prevent 
potential safety hazards; however, they need to be consistently 
and fairly implemented across the board.
    This has been the problem in Southwest Airlines Certificate 
Management Office. Of the FAA partnership programs, I notice 
the abuse of authority of the following two, discussed in my 
written testimony. They are voluntary disclosure reporting 
program and Memorandum of Understanding addressing airman 
certification. Very important.
    Mr. Mike Mills and I were assigned to the Southwest Airline 
Certificate Management Office simultaneously as Manager and 
Assistant Manager, respectively, on November 14th and 15th of 
2004. It was not long until we noticed that there was a lack of 
substantiating data records, correspondence and other reporting 
documentation related to certificate management. In addition, 
we also noticed that the Principals, two or three of them, were 
not adhering to FAA policy and guidance when it came to 
enforcement actions.
    My attempts to correct these issues were always met with 
intense resistance, especially from the Principal Maintenance 
Inspector. As our concern about the Principal Maintenance 
Inspector and other inspectors' relationships with the carrier 
increased, the Manager tried in vain, through numerous meetings 
and memos, to correct the situation. Some of these inspectors 
are still working at the Southwest Airlines Certificate 
Management Office.
    After communicating several times to the Regional Office 
about this issue, the Manager was told it was a personal 
problem between the Principal Maintenance Inspector and 
himself. Ultimately, the Regional Office prepared an agreement 
of cooperation which management at the office were told to 
sign. The last version of this agreement was signed in January 
of 2007.
    Two months later, in March of 2007, Southwest Airlines flew 
several aircraft without compliance with an unworthiness 
directive. After self-disclosure by the carrier under the VDRP 
program, this violation continued with the knowledge of the 
Principal Maintenance Inspector and probably other inspectors. 
Allowing Southwest Airlines to continue operation of these 
aircraft in passenger revenue service by the Principal 
Maintenance Inspector is an abuse of authority. I am not sure 
whether the other two Principals knew or not. This was a 
serious safety issue because cracks were found in the aircraft 
fuselages.
    About the same time there was another case of Southwest 
Airlines operating aircraft without complying with the required 
inspection concerning the standby rudder power control unit. 
One airworthiness inspector who became aware of these 
violations tried to do the right thing and kept insisting to 
follow the agency guidelines. He was shunned as a troublemaker 
and, for a period of several months, was suspended by the 
Regional Office from any work related to Southwest Airlines. 
The manager sent repeated requests to the Regional Office for 
assistance. The last one relating to the power control unit was 
sent the first week of May of 2007. A few days later he was 
removed from his position and replaced by the Principal 
Operation Inspector at the time.
    I have more details in my written testimony.
    On the operation side, guidance and policy were not 
followed in the approval of a Memorandum of Understanding 
concerning airman certification. According to Order 8400.10, 
now 8900.1, Southwest Airlines is not qualified to have a 
designee program; therefore, not eligible to have a Memorandum 
of Understanding for training of FAA Aircrew Program Managers.
    Despite their lack of qualifications, Southwest Airlines 
has been approved by the Regional Manager's Office for many 
years to have a Memorandum of Understanding which does not 
limit the training to an Aircrew Program Manager as specified 
in the Order I mentioned earlier. But this approval allows all 
FAA Operation Inspectors, including FAA management, to receive 
all required training and to obtain a type rating at the 
carrier's expense. I believe that this improper approval was a 
blatant abuse of authority by higher management, leading to 
conflict of interest and unethical practices and, in addition, 
endangering the public safety. This is well detailed in my 
written statement.
    In conclusion, we need to make sure that the job is done in 
a manner consistent with FAA policy guidance and directives. I 
believe that abuse of authority and regulatory partnership 
programs should never be allowed because this will lead to 
serious consequences. Thank you very much.
    Mr. Oberstar. Thank you, Mr. Naccache. Certainly, against 
your extraordinary professional background, that is very 
compelling testimony. Thank you.
    Mr. Naccache. Thank you.
    Mr. Oberstar. Mr. Lambert.
    Mr. Lambert. Thank you, Mr. Chairman. My name is Terry 
Lambert. I have been a Federal employee for 37 years. I have 
been an Aviation Safety Inspector with the FAA since February 
1998. Those years, I had six years in management. I have been 
assigned as a Manager of the Safety Analysis and Evaluation 
Branch, ASW-290, Southwest region since April 1st, 2007. During 
the last year, I have spent almost 100 percent of my time 
investigating the issues within the Southwest Certificate 
Management Office.
    As you have heard, there is no way I could present all 
these findings in a mere five minutes; therefore, I will 
summarize a few of the most serious.
    In April 2007, the Southwest Region Division Management 
Team assigned ASW-290 to investigate into the Southwest 
Certificate Office based on the following: a technical 
evaluation conduct in April 2007; Workplace Evaluation 
Assessment Team report from 2005; a review of letters of 
concern by Bufford Eatmon in December 2005; AD 2004-18-06 
overflight review conducted in April 2007 by Kermit Teppen and 
Skip Whitrock; and a memo from Bobby Boutris dated April 30th, 
2007, sent to the Office Manager, Mr. Mills. Here are some of 
the results:
    The technical evaluation team discovered 42 issues in the 
office. The office file system was almost non-existent or not 
current. The office did not maintain the proper documentation 
of approvals or rejections. The office relied on documents that 
Southwest Airlines maintained in their online system as 
historical documents. Southwest Airlines called Mr. 
Gawadzinski, the SPMI, Supervisory Principal Maintenance 
Inspector, on March 15th, 2007, and informed him of AD issues 
on 100 aircraft. Gawadzinski encouraged Southwest to self-
disclose the issue. Southwest filed a Voluntary Disclosure on 
March 19th, 2007.
    The initial report stated it would take until March 21st, 
2007, to complete the inspections; it actually took until March 
23rd. The report did not state which aircraft were affected. 
Southwest Airlines stated the non-compliance issue had ceased. 
A review of log sheets by ASW-290 indicated that Southwest 
continued to operate the aircraft in passenger operation 
between March 15th and March 23rd, 2007, and flew 1,241 flights 
during that time with passengers onboard. Southwest's 
comprehensive fix did not include any changes to the AD 
management system. Mr. Gawadzinski was the only inspector to 
address the disclosure and accepted Southwest's actions. The 
Teppen-Whitrock report had similar issues with the AD, but only 
two aircraft were reviewed.
    A review of 29 letters of concern issued by Gawadzinski 
indicated at least five of the letters should have been letters 
of investigation. Mr. McGarry, from the Southwest Region, 
instructed Gawadzinski to stop sending letters of concern and 
send letters of investigation, as required. Mr. Gawadzinski 
continued to send letters of concern. The Southwest Office 
appeared to be divided between those that supported Mr. 
Gawadzinski and those that support the Office Manager, Mr. 
Mills.
    Mr. Boutris wrote a memo to Mr. Mills on September 16th, 
2005 with some of the same concerns as his April 2007 memo. Mr. 
Boutris stated that Gawadzinski removed the letterhead from a 
letter of investigation so he could personally go to Southwest 
to resolve the violation. Mr. Gawadzinski instructed Don Back 
to change his paperwork so that Southwest could voluntarily 
disclosure an issue that Mr. Back had found. Mr. Gawadzinski 
allowed Southwest to make changes to approved manuals without 
FAA review. The review substantiated Mr. Boutris' concerns 
addressed in his memo.
    Safety Attribute Inspection 1.3.6 AD Management had not 
been accomplished since 1999. In 1999, there were a multitude 
of no responses. Mr. Boutris was assigned the inspection and 
had approximately 20 no responses when he was put on desk duty 
as a result of an anonymous complaint received by Southwest 
Airlines. The inspection was assigned to John Bassler and Larry 
Collamore. They did not use any of Mr. Boutris' information. 
When completed, Mr. Bassler had seven no responses and Mr. 
Collamore had zero. The inspection was reassigned to a regional 
team.
    Southwest Airlines overflew a rudder PCU check inspection 
in March 2007. Southwest voluntarily disclosed the issue to Mr. 
Gawadzinski; however, they continued to operate 70 aircraft 
while the inspections were being accomplished. All this 
information was contained in Executive Summary submitted to the 
Division Management Team in May 2007.
    In June 2007, ASW-290 was assigned by Mr. Ron McGarry to 
assist Security with conducting an investigation to a hot line 
complaint against Mr. Gawadzinski. Mr. McGarry requested that 
ASW-290 provide technical assistance to the security inspector, 
take notes, and provide a summary. The following was discovered 
during the interviews.
    Mr. Gawadzinski stated that he should have grounded the 
aircraft, but he chose not to. Mr. Comeau stated that 
Gawadzinski did not tell him to ground the aircraft. Mr. 
Gawadzinski insisted he assigned the Voluntary Disclosure to 
Mr. Larry Collamore. In his first two interviews, Mr. Collamore 
claimed Mr. Gawadzinski never told him anything about the self-
disclosure.
    Mr. Collamore changed his statement in his third interview, 
indicating that Mr. Gawadzinski had told him as soon as 
Southwest had called. Mr. Collamore said he did nothing because 
Mr. Gawadzinski did not assign him any tasks. Mr. Gawadzinski 
showed favoritism to Matt Crabtree, an inspector in the office, 
when he paid out of his pocket for Mr. Crabtree to attend 
training.
    Office management has not effectively dealt with the issues 
in the office. A summary of these events was given to the 
Division Management Team in June 2007. It was also noted that 
Mr. Gawadzinski continually suppressed the work efforts of Mr. 
Boutris and his ability to do surveillance.
    These are a few of the issues that have been and are being 
worked at the Southwest Regional Office. Mr. Gawadzinski's 
actions, his relationships with Southwest employees, and the 
actions of other inspectors that have supported Mr. Gawadzinski 
is outside the guidance and authority entrusted to FAA 
employees. This has affected the oversight of the Southwest 
Airline Certificate.
    Thank you, Mr. Chairman and Committee Members.
    Mr. Oberstar. Thank you, Mr. Lambert.
    I would note for the record that Mr. Lambert, as a member 
of management at FAA, is in effect here testifying against his 
boss, and that takes enormous courage to do that.
    I thank all of the panel, all members, for the courage you 
have shown in coming forward, I will say it once again, for 
your public-spirited defense of aviation safety.
    The FAA would have us believe that what took place was an 
isolated incident and has been contained. In fact, the 
testimony we have heard substantiates that, clearly, this is 
not an isolated aberration attributed or attributable to a 
rogue individual, but, rather, a systematic breakdown of the 
safety oversight role of the FAA. It is misfeasance, 
malfeasance, bordering on corruption. If this were a grand jury 
proceeding, I think it would result in an indictment.
    The FAA has incorporated into its oversight system, for a 
variety of reasons, what is called the ATOS, Air Transportation 
Safety Oversight System. That is supposed to be a rating, 
supposed to be a structure, a system for tracking safety and, 
through record-keeping, identify shortcomings. I think the 
result of ATOS is that inspectors are spending more times 
looking at databases than doing hands-on inspection. This is 
not new. This goes back to the mid-1980s, when FAA inspectors 
were telling me they were spending more time inspecting 
paperwork than engine work; more time processing papers than 
spending time on the floor of the maintenance shops and 
observing the work being done.
    So I have a question for Mr. Boutris and Mr. Peters. What 
has happened here? Has the ATOS broken down? And let's look at 
the chronology. March 6th, after revelation of our Committee 
inquiry and your representations and documentation to the 
Committee, FAA imposes a $10.2 million fine on Southwest; March 
10, a special FAA team is sent to investigate Southwest; March 
11, Southwest puts three employees on administrative leave; 
March 12, Southwest grounds 41 aircraft for inspection; March 
13, FAA issues a national order to all flight standard district 
offices to conduct a special emphasis validation of AD 
oversight; American Airlines grounds 200 aircraft, 200 MD-80s, 
for further inspections; U.S. Airways loses a part of a wing 
panel in flight; United Airlines grounds its entire 777 fleet 
for further inspections; Delta Airlines grounds its MD-88s for 
further inspections; Northwest holds back its 757s for slats 
inspections; and Southwest grounds another 38 aircraft for 
further inspections.
    If ATOS is so good, why has it failed? Why have these 
incidents come to light only after what your testimony has 
submitted here took place? Mr. Peters.
    Mr. Peters. Yes, sir. Unfortunately, ATOS is a generic 
oversight system that applies to an air carrier that might 
operate, let's say, 10 aircraft of one specific fleet type or 
model. That also applies to an air carrier that might be 
considered a mega-carrier, with over 600 aircraft and maybe six 
different types of fleet types. I say it is generic that the 
tools are the same; however, in this particular element, AD 
management, it is considered a high criticality element, and 
those generic procedures apply to both small carrier, large 
carrier. High criticality requires an inspection twice a year. 
Of course, the Principal Maintenance Inspector responsible for 
that can increase that number based on the number of different 
fleet types and the number of different models that they 
operate.
    ATOS doesn't really address that. Our guidance is weak when 
it comes to the larger carriers that operate different types of 
fleets of aircraft and they operate them whether in or outside 
of the United States. It is generic and I don't believe that it 
is adequate, our policies and procedures.
    Mr. Oberstar. Thank you. I have long felt that it is 
insufficient. It is a useful tool, but insufficient, and in 
this case, combined with the Voluntary Disclosures, resulted in 
a major failure of safety.
    Mr. Lambert, were you ordered to destroy your notes after 
FAA Region learned that our Committee was investigating the 
incidents about which you testified?
    Mr. Lambert. If you are referring to the notes that I took 
during the investigation?
    Mr. Oberstar. Correct.
    Mr. Lambert. Yes, sir, I was.
    Mr. Oberstar. Who issued that order?
    Mr. Lambert. I believe it was in October of 2007, and it 
would have been Mr. Steve Douglas.
    Mr. Oberstar. Thank you.
    Mr. DeFazio. And who is Mr. Steve Douglas, Mr. Chairman? 
Who is Mr. Steve Douglas?
    Mr. Oberstar. Mr. Douglas is? State for the record his 
title.
    Mr. Lambert. He would be one of the Assistant Division 
Managers at the Southwest Region.
    Mr. Oberstar. Southwest Region, yes. We have that 
information in our files.
    In light of this testimony, what changes do you recommend 
in the Voluntary Disclosure and the ATOS systems? Mr. Lambert?
    Mr. Lambert. One of the changes I would make is we need to 
train the inspectors on how to do the inspections, rather than 
how to do the computer work associated with those inspections. 
It is not just a matter of putting it into the computer; it is 
a matter of doing the inspection.
    Mr. Oberstar. Thank you. Over-reliance on system rather 
than people doing inspections, putting their nose into the 
work. It is not a matter of going around and demeaning, saying, 
well, we don't need people going around kicking tires and 
putting hands on fuselage. That is demeaning of the role of 
inspector. And you are right about the degree and extent of 
training.
    I will withhold at this point.
    Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I am interested in getting a sense of this. It is a very 
traumatic thing for the agency and for the individuals 
involved. Is it in part a difference of philosophy, of trying 
to do things completely by the book, when the book may be 
outdated, as opposed to creating an ethos of safety and working 
together for a common end? Is this underlying this at all, a 
difference in sort of management philosophy here, or is it 
malfeasance by an individual? I don't know who would like to 
testify to that. Mr. Mills, you would be in a position, I 
think.
    Mr. Mills. It is my opinion that there is a necessity that 
is clear to Washington Headquarters that, based on the ever-
increasing airline industry and the failure of the FAA 
oversight capability to keep up with that, some mechanism needs 
to be put in place in order to allow the airlines to take a 
bigger role in their oversight, and I believe that is why ATOS 
was created, because we simply can't be everywhere to do 
everything as inspectors.
    I do not believe any of the people who run the FAA are 
opposed to regulatory enforcement. I think perhaps that we may 
have gone too far toward considering airlines as customers and 
being customer-friendly. But in an effort to be everywhere and 
do everything we can, I believe that is why this model was 
created.
    And there are different schools of thought within the FAA. 
There is the old school of thought that says enforce the 
regulations and make life difficult for those operators who 
don't comply with them, and the school of thought that was 
represented by the Principal Maintenance Inspector was that 
this was outdated and we needed to secure the cooperation of 
the operators in order to have some degree of effectivity in 
our oversight.
    In my view, ATOS needs to be a tool. We need to surveill 
based on risk, but we also can't have the advice that it is the 
be-all and end-all. I know of some inspectors who believe that, 
when they are sent out and assigned a task under ATOS, that 
they can't look at anything else but what they are specifically 
assigned according to the risk.
    There is also the element that it is easy to answer a 
question yes when a question is raised by ATOS as to whether an 
airline has a specific thing that it is supposed to have, and 
it is sometimes hard to say no because it creates a great deal 
of extra paperwork and it often causes the carriers to display 
some difficulty with the FAA. So inspectors are human beings; 
some of them respond poorly to that. I think the model may need 
to be revised.
    Mr. Petri. Let me just say it clearly is a management 
problem if you have honest and very hard-working, able 
inspectors who question the integrity of the framework in which 
they are operating, not entirely, but in some respects here, 
and that is not healthy. If there may be differences in 
philosophy, then that is management's job to work with people 
so that they understand what that is and have confidence in it; 
and if there are differences, that they are treated and dealt 
with, rather than intimidating people or pushing them under the 
counter, and this seems to be one of the issues here.
    Mr. Mills. It is a training issue, largely, I believe.
    Mr. Oberstar. We have a vote in progress, but there is time 
for further questions, and I will turn to Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    A question for all of our witnesses. Do any of you have 
evidence or reason to believe that the issues that have 
occurred at this CMO is occurring in other parts of the 
Country? Is this widespread or is it unique to this CMO? Mr. 
Boutris?
    Mr. Boutris. Well, sir, I cannot speak for the other 
offices because I don't have any experience with the other 
offices, but the observation that somebody can make, including 
our CMO, is if our ATOS databases are doing the job they are 
supposed to do, why do we have all these hundreds of airplanes 
taken out of service? In my opinion and belief--and I have 
lived it--management can control the outcome of the ATOS 
database.
    If you are a principal and you send me out to do the job, I 
will come back with at least several noes, because no airline 
has all the procedures they are required to be there. So if I 
came back and put no in the database, then you, as a Principal, 
will have to do a risk analysis; you will have some red on your 
dashboard and you have to take action. If you send Inspector B 
out that is going to give you all the yeses, you can sit back 
and say my dashboard looks good. So you can manipulate the 
system and by that have the results you want. And I believe 
that what I am stating is the result, when you see all these 
airlines grounding airplanes, they are under ATOS also. 
Shouldn't the Principal have something on his dashboard saying, 
hey, we have something wrong here?
    Mr. Costello. The other members of the panel, do you have 
either evidence or reason to believe that this is happening at 
other CMOs? No?
    Mr. Cotti. Mr. Costello, ATOS, or the Air Transportation 
Oversight System, is based on system safety principles, and 
those principles dictate that, in order to have appropriate 
safety measures in place or to have an appropriate level of 
safety, that you have to have controls in place and that, more 
than anything, you have to factor out the human being as much 
as possible from the equation because that is where a lot of 
the errors occur.
    I think, in response to your question, what happened at the 
Southwest CMO, from my perspective, was unique in that it was 
so out of line--and I have been to a number of different 
offices around the Country--it certainly was unique, and it was 
gross as compared to some of the things I have seen elsewhere. 
But thinking in terms of system safety and the human element, 
this could have occurred in any office, because our current 
design is still pretty heavily dependent on the human being.
    Mr. Costello. Mr. Boutris, you specifically say in your 
testimony that you were told by Mr. Gawadzinski that you were 
not to enter information in the ATOS system. Is that correct?
    Mr. Boutris. That is correct, sir.
    Mr. Costello. Why do you think he told you that?
    Mr. Boutris. That was referencing the AD safety attribute 
inspection I had started and the one that Southwest had 
requested for me to be removed from. The first two inspections 
I did on two different dates----
    Mr. Costello. My question is, though, why do you think he 
told you not to enter the information----
    Mr. Boutris. Because, in my opinion, my supervisor knew 
that in a week from there I was going to be under investigation 
and, therefore, would be knocked from the database.
    Mr. Costello. Very good.
    We have got a vote, so, very briefly, if you will keep your 
answers concise.
    Each of you and the IG reviewed to two different camps, one 
loyal to Mr. Gawadzinski and the other to Mr. Mills. Was Mr. 
Stuckey and the Regional Office aware of these two loyalties 
and these two camps?
    Mr. Peters. Sir, I believe they were, and that is evident 
by the office audits that were conducted and the WEAT Team 
visits that were conducted during the past two years prior to 
the AD event. And I think Mr. Lambert's testimony that he 
briefed the Division Manager May 2nd of similar events, I know 
that in my security investigation I explained the divide in 
that as well, and I believe that he briefed the Division 
Management Team.
    Mr. Costello. Do either of you believe that this went up to 
Headquarters in Washington, that they had knowledge of the 
divide?
    Mr. Peters. I know that they did as far as mid-September 
they did, because that was the date that I contacted the T&I 
staff, and they had requested to speak to Mr. Ballough. So I 
can only say that date for sure.
    Mr. Costello. And that was in 2007, September of last year?
    Mr. Peters. Yes, sir.
    Mr. Costello. But you have no knowledge or no reason to 
believe that Headquarters knew about it before then?
    Mr. Peters. I don't.
    Mr. Costello. Mr. Boutris?
    Mr. Boutris. The only thing, as I stated earlier, sir, was 
that every time I went to my supervisor with non-compliance 
issues which were direct violations of the Federal regulations, 
I bring my manager in, Mr. Mills, and I will quote the 
regulation, I will present my findings, and my supervisor will 
state that my guidance was out of date. Well, we are talking 
about Federal regulations here, so he is telling me they were 
out of date. And he was talking to Mr. Ballough on a daily 
basis; we have him the ups and comings. So, to me, right there 
will say that he had communication with Mr. Ballough.
    Mr. Costello. The final question before I run out of time 
here, just so everyone understands the time line here,--we have 
the time line in front of us, but so everyone understands the 
time line--when did you, Mr. Boutris or Mr. Peters, first raise 
the issue, your concerns that Southwest was out of compliance 
with AD? When was the first time you raised the concern?
    Mr. Boutris. Are you talking about the flying aircraft or 
with out of compliance with having the required procedures in 
place to manage the AD compliance?
    Mr. Costello. Both.
    Mr. Boutris. I started the process that Southwest Airlines 
did not have the proper procedures in place and that were 
required back in 2003. They accepted my findings and it took 
them a year to bring the engine AD compliance records into 
compliance with 121.380 14 CFR. In 2006, when I changed 
positions and I had the airframes and systems for the 700 
aircraft, I found the same discrepancies, and that is when my 
supervisor did not want to send Southwest Airlines a letter. 
And after going to Mr. Mills and asking my supervisor we have 
to deal with it, he assigned me the inspection. That was the 
same inspection that Southwest Airlines requested my removal 
and that was the same inspection that Mr. Gawadzinski 
instructed me not to put the negative findings in the database.
    Mr. Costello. And can you explain for everyone the 
difference in the two letters, the letter that you wanted to 
write versus the letter you were directed to write?
    Mr. Boutris. Our guidance does not provide any information 
or does not really identify what the letter of concern is. This 
is something that some principals or supervisors or management 
come up with. You call it the letter of concern. Our guidance 
is crystal clear: according to Order 2150, we have to document 
the non-compliance--or even if it appears as non-compliance.
    So even if it appears as non-compliance, we have to send to 
the carrier a letter of investigation. That does not mean there 
is a violation. What it means is we think there is a violation. 
It appears there is a violation.
    You do the investigation. You can close it with no action. 
You can close with administrative actions. You can close it 
with civil penalty. But you have to document what you think 
might be wrong at the time that you looked at it, and this way 
you can go back if you have previous violations or future 
violations and compare your findings.
    Mr. Costello. You were told not to send a letter of 
investigation.
    Mr. Boutris. Yes, sir. That was also told in front of Mr. 
Mills, my manager, and that is when Mr. Mills.
    There is a memo and I have testimony. Starting 2005, I sent 
an e-mail to my supervisor, copied Mr. Mills on it: I will no 
longer send Southwest Airlines letters of concern because I 
have sent so many on the same previous issues and through my 
surveillance I was finding the same problems that were not 
fixed. In addition, I was finding new ones.
    That e-mail is part of my testimony.
    In addition, my supervisor, after I sent the e-mail out, he 
grounded me. He told me I cannot do any more surveillance. So I 
went to his office. I went to my manager's office, and I said: 
According to my PD, the position description, part of my job is 
to manage the program and also do surveillance inspections to 
ensure Southwest Airlines is following their procedures.
    His response to that was: I have other inspectors for that.
    I do have an e-mail from him, stating that my area of 
inspection is Dulles. Well, that is the only place that 
Southwest Airlines flies.
    Mr. Costello. I thank you, and I thank you, Mr. Chairman.
    Mr. Oberstar. A further way of answering your question is 
to say very simply that a letter of investigation has 
consequences that can result in fines. A letter of concern does 
not.
    Mr. Boutris. Yes, correct. Yes, sir, that is correct, but 
the letter of concern is nowhere identifying our guidance.
    Mr. Oberstar. That is right. That is correct.
    The Committee will stand in recess, pending the votes on 
the House floor, and we will resume 20 minutes after the last 
vote. The panel, since they are under oath, will be sequestered 
by the Committee staff.
    [Recess.]
    Mr. Oberstar. The Committee will resume its sitting.
    At the time that we broke for the votes, Mr. Costello had 
concluded his questioning, and now we turn to Mr. Hayes of 
North Carolina, a pilot, a diligent Member of this Committee.
    Mr. Hayes. Thank you, Mr. Chairman.
    This is a very important hearing. I think we have 
established several things. That is serious mistakes in 
oversight have occurred on the part of the FAA and on the part 
of Southwest Airlines, and I am confident that we will move 
aggressively on the part of everyone involved to correct the 
situations that have been pointed out in great detail.
    As others have said, thank you for the testimony from our 
first panel.
    I would like to pick up, if I may, on a question that Mr. 
Costello asked. I think it is very appropriate to make sure 
that we understand and have the right answer. His question, if 
I remember correctly, was: Do you think the problem that we 
have uncovered and discussed today is system-wide or restricted 
to the area that you all have been covering?
    There was yes and one acknowledgment, but I would like to 
ask the panel that across the board. Mr. Boutris, would you?
    Mr. Boutris. That was in regard to if this problem exists 
in other CMOs and other FAA offices here?
    Mr. Hayes. Correct. That is basically the question.
    Mr. Boutris. Basically, the only thing I can say is what I 
responded earlier, that the ATOS program can be manipulated and 
the person that looks at the dashboard.
    Mr. Hayes. Just a yes or no.
    Mr. Boutris. No.
    Mr. Hayes. Mr. Peters? Okay, no.
    Mr. Peters. I think potentially it could, however.
    Mr. Hayes. Well, obviously, it could, but do you think this 
is a system-wide problem of this extent?
    Mr. Peters. Maybe not to this extent.
    Mr. Hayes. Okay. And, Mr. Mills, you shook your head a 
minute ago as it is not a system-wide.
    Does anybody disagree? Let's not belabor it.
    All right. My point is we want to correct the problems that 
we have identified from this hearing, but we also want to make 
sure that the perception of the flying public is not mistakenly 
headed in the wrong direction because of the issues we talk 
about today.
    The facts are very clear that aviation in general, whether 
it is airline or general aviation, is in the safest period in 
its history and that is what we all strive for. The airlines 
have a similar record now of that type of safe operation. It is 
far safer than driving.
    So my point, again, is to make sure that people who are 
flying or thinking about flying know how much effort goes into 
keeping everything safe.
    I have been flying for 40 years. Those of you who are 
sitting behind the microphones there know that every time the 
pilot does a pre-flight, he is an inspector. Now he doesn't 
have everything dissected but, as someone said earlier, it is 
important to focus on the fact that there is a culture of 
safety that exists, that wraps around the entire issue. It 
doesn't necessarily start with anybody, but everybody has their 
part to play.
    So, as important as this hearing is, I hope, again, that 
the main end result is we take a situation that has been 
brought to light, correct it, correct the problems that may 
carry over. But there are people and there are machines and 
there are subjective issues and there are objective issues. So, 
again, the perspective is we can always be a little bit safer, 
but we are flying in the safest time in history.
    Mr. Mills, what is the main takeaway today for the FAA and 
for the airlines?
    What is the action plan? What is the first thing we do when 
we walk out that door?
    Mr. Mills. Well, I think the initiatives that I espoused in 
my testimony would be worthwhile, a rotation of senior managers 
to ensure that if something like this doesn't happen due to 
entrenchment.
    Mr. Hayes. Cordial but not cozy, is that what we are 
saying?
    Mr. Mills. Yes. I think it was my memo that coined the 
term, coziness.
    Mr. Hayes. Yes.
    Mr. Mills. It was pretty clear to me what was cozy and what 
wasn't.
    And, to answer your question earlier about whether this is 
pervasive, I don't really think it is. I think there may be 
some degrees of problems among other offices, but this is a 
unique situation where we had a rogue inspector who simply 
could not be corralled and made to go in the right direction 
and appeared to be protected at every turn.
    Mr. Hayes. Okay. Thank you. That is very important.
    I just had something I wanted to finish up with, but I 
can't remember what.
    Oh, in the letter that I submitted, Mr. Chairman, from the 
pilots, they pointed out a very important issue. They, as 
pilots, are obviously concerned as much, if not more so, than 
anybody because they are responsible for their own safety and 
the safety of their passengers. The pilots, in the case of 
Southwest and other airlines, are very, very diligent in doing 
their part.
    I don't know about you all as flyers, but as somebody 
flying an airplane I have a good relationship with the 
mechanics that are turning the wrenches. I think that is 
appropriate. There is a relationship, cordial, businesslike, 
not cozy.
    Mr. Chairman, thank you, and I can't yield back my time. I 
don't have any.
    Mr. Oberstar. I thank the gentleman for his observations. 
He is a pilot of long standing, and he has been diligent in 
participating in the work of the Aviation Subcommittee and the 
Full Committee.
    I do have to point out that my definition of safety is the 
relative absence of risk. It is not whether the whole system is 
working well, but is there risk, what is its relevance and how 
wide is that risk and how wide are we establishing the margin 
of safety.
    When you have an egregious breakdown as occurred in the 
instance that we have heard about this morning, in excruciating 
detail, then there is the possibility that it creeps to the 
rest of the system. The purpose of hearings of this nature and 
oversight of this kind is to ensure that it does not creep.
    We now go to Mr. DeFazio, former Ranking Member of the 
Aviation Subcommittee and one who has had a longstanding 
interest and participation in aviation issues.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, quite frankly, I am alarmed at what I have 
heard today, and I am just going to recount a little history 
because we have very short memories around here.
    When I first came to Congress, there was something that was 
referred to as the tombstone mentality at the FAA which is we 
went after problems, after a bunch of people had died.
    I got involved in the 737 rudder problem very early on 
before the second plane went down, when the FAA was still 
saying, oh, it was some weird rotor wind or the pilot had a 
heart attack or whatever. We found out we had a severe 
mechanical problem that was very occasional but, unfortunately, 
very fatal. That took quite some time.
    I fought for years to get over-wing access after the 
Manchester flight when it was demonstrated that if you don't 
have adequate access over the wings, people die piled up like 
cord wood. It took years.
    It took them six months in Britain. It took us years.
    Then the whole issue of since I have been here I have been 
trying to get OSHA coverage for flight attendants, which not 
inconsequentially would provide for a safer environment for the 
passengers, but the agency refuses.
    Now a lot of this is embedded in history, and the history 
was the agency was charged with promoting something it 
inherited from the CAB, promoting the industry and regulating 
safety. From the time I first came here, I said you can't do 
both those things. It doesn't work.
    I had administrators say, oh, no, no problem. No problem.
    Then finally after the Value Jet tragedy, it was recognized 
that that wasn't working, was it? And so, I got legislation 
that Mr. Costello, Mr. Lipinski and I had introduced with the 
support of Chairman Oberstar inserted into the FAA Bill that 
year that stripped away the dual mandate.
    Now I am going to get to a question, but this comes from 
Mr. Boutris' testimony because, as I was listening to him and 
reading this, I thought, have we rolled back the clock to the 
dual mandate era? Are we promoting? Is this a result of 
customer service initiative?
    When you said in here, what is alarming is the fact that 
even today we are still being reactive. This is proven by the 
notice that the FAA issued two weeks ago, ordering FAA 
inspections on the airlines in order to validate AD compliance 
because of this hearing.
    Then you ask about ATOS. I also had at least three meetings 
with Nick Sabatini, as Ranking Member, expressing the same 
concerns as the Chairman, saying, I don't get how this ATOS 
thing is going to work. I want people out there watching, on 
the ground, monitoring and doing real inspections.
    A computer system to monitor a computer system. As we heard 
from Mr. Boutris if you are told not to input something into 
that computer system, well, it just goes away, doesn't it, or 
maybe something worse happens.
    Then you said down at the bottom of that page, the majority 
of ADs are the result of catastrophic accidents and, as the 
industry saying goes, ADs are written in blood.
    So I guess my question would be to the panel: Did the FAA 
take seriously the change in the law that I made in 1996, 
stripping away the mandate to be a promoter and to be a 
regulator in the public interest for public safety? Were we 
making progress?
    I knew there was a long culture. I knew it would take time. 
Were we making progress up to 2003 or did nothing ever change 
or did 2003, with this customer service initiative which came 
from an Administration that hates government, is contemptuous 
of government and hates regulation even more?
    The customer service initiative, to me, is clearly intended 
to say, we are not going to regulate really. You are our 
customers, and we wouldn't want you to be upset with our 
scrutiny.
    If you read through the directive and Marion Blakey's 
speech and all that, it becomes apparent.
    So the question is, to anybody on the panel, did 1996 make 
a difference when we changed the law? Was there a cultural 
difference evolving?
    Were we becoming more a regulatory agency and less a 
promoter of the industry up to 2003, and did 2003 mark a sea 
change with the customer service initiative and the culture of 
the Bush Administration and all the political appointees 
pushing to be customer-friendly to those people we are supposed 
to be regulating?
    Mr. Boutris?
    Mr. Boutris. I will take that question, sir, and I think it 
is a very good question. What you are saying, I agree with you 
100 percent. I have been in the aviation industry for 30 years, 
20 outside the FAA and 10 with the FAA.
    What you eliminated, which was fostering promoting aviation 
and trying to regulate at the same time, was excellent. 
However, I think the facts are proving, but another thing came 
in, the customer service initiative which took its place. So, 
yes, we are promoting safety through customer service, and I 
believe we cannot do both.
    I believe that the airlines are our customer, and I will do 
anything in my power to help them out like I did with the 
engines when I found the problem. I worked with them for a 
year.
    However, we have forgotten the most important customer 
which is the taxpayers. We have taken an oath that we are going 
to ensure that the airlines provide safe public transportation.
    Are we doing that? Well, from what I gave you, on our side, 
I don't believe we are doing that.
    And I do, though, with all due respect to Mr. Hayes, I want 
to go back because he said the answer was no.
    Actually, my answer was not no. The answer was yes because 
if ATOS was working when the notice came out to do the 
compliance for the ADs, he shouldn't have any airplanes 
grounded, but he had hundreds of airplanes grounded. So this is 
not just Southwest.
    So, with all due respect, to Mr. Hayes, I just want to say 
my answer was yes. It was not no, and I know it was cut short.
    But if the system was working, a lot of these principal 
inspectors should have a lot of red lines on the dashboard, the 
ATOS dashboard having risk indicators. This way, they can do 
these inspections prior to you having this Committee hearing, 
and there was another knee-jerk reaction.
    Let's issue the notice and see how things are going out 
there. Let's take the polls. Well, the polls were not well. I 
want to tell you that the patient is not that well.
    Mr. DeFazio. Thank you.
    Anybody else want to reflect on whether the customer 
service initiative could be part of the root cause here and/or 
whether or not we ever saw a cultural changes resulting from 
the change?
    Were people aware of the change in the law? Was it made 
aware to people in the agency when I changed the law in 1996? 
Were people aware of that, that we had stripped away the 
promotional mandate?
    Anybody?
    Yes, you were. Okay.
    Does anybody think that things just never changed or we 
kind of got set back as Boutris thinks by the so-called 
customer service initiative, which again created this sort of 
conflict?
    Mr. Mills?
    Mr. Mills. Well, I think the, excuse me, the customer 
service initiative did set us back because I remember when we 
started promoting this. I was mandated to go to every single 
operator in the Dallas district office. It took me weeks to 
drive to all those places and hand them materials that made 
them understand how friendly we are now and how we want their 
concerns to be elevated through this mechanism.
    Mr. DeFazio. You had to hand deliver this package?
    Mr. Mills. Yes, sir.
    Mr. DeFazio. I want to hear this. Continue, but if you 
could also relate to me how often you were able to get around 
in an inspector's capacity to all of those same folks.
    Mr. Mills. I was not able to do that, sir. I was the 
manager at the time.
    Mr. DeFazio. But in this, were you ordered to go see them 
all?
    Mr. Mills. Yes.
    Mr. DeFazio. Okay. So you were not able to get there in a 
capacity of oversight and inspection because there were just 
too many of them.
    Mr. Mills. Right.
    Mr. DeFazio. But you were torn away from those other duties 
to hand deliver a package that could have been mailed or they 
could have gotten on the internet about the customer service 
initiative.
    Mr. Mills. That is correct. We had to visit them 
personally.
    Mr. DeFazio. Anybody else want to comment on this thing?
    Okay. Thank you, Mr. Chairman. I am over my time. I will 
have more questions later.
    Mr. Oberstar. Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. I think that I will 
hold my questions until later. I appreciate it.
    Mr. Oberstar. Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    I appreciate the testimony I heard earlier today, and I am 
glad to have the opportunity to ask a few questions.
    Let me initially direct my line of questioning to Mr. 
Mills. I am thinking about how we go forward from, this point 
in time, and you point out the value of the self-disclosure 
programs, but that it is highly dependent upon the integrity of 
those that are implementing that disclosure program. In your 
opinion, who is in the best position to exercise the oversight 
of the Voluntary Disclosure Reporting Program, at what level, 
what position?
    How do we prevent what you describe happening from 
happening again?
    Mr. Mills. I am not sure that at the journeyman inspector 
level is the place for it. Perhaps, those individuals could be 
participants, but I think there needs to be more review at an 
upper level of that. I am not sure what level.
    But it is, in this case, something that was terribly 
abused, and I would say I would start perhaps at the manager 
level, office manager level.
    Mr. Moran. Can you briefly describe for me the scenario?
    When you say it was seriously abused in this circumstance, 
describe for me, again, that scenario. Where was the failure?
    Mr. Mills. Well, the failure was on the part of the 
principal maintenance inspector who, because of his cozy 
relationship with Southwest, was not only accepting the self-
disclosures but encouraging the operator to file them so that 
they wouldn't have to, so that he wouldn't have to file 
enforcement actions against them. Of course, enforcement 
actions are a matter of record and self-disclosures are not.
    So that, I hope that answers your question.
    Mr. Moran. It does.
    The supervisory principal maintenance inspector that you 
just mentioned, his personality you talked about and his 
inference of his connections, rapport with those in more senior 
positions. Does that accurately describe what you testified to 
earlier?
    Mr. Mills. Yes, it was a very strange situation. I presumed 
that much of his hype, self-hype, was just that, self-hype, but 
there were certain instances that occurred during my 
relationship with him that led me to wonder if, in fact, some 
of his purported support might have some legs.
    For example, I do know that Mr. Gawadzinski and Mr. 
Ballough were engaged in some sort of assessment of the 
staffing of my office, and I found that out as the second hand, 
and I always wondered why Mr. Ballough didn't afford me the 
courtesy of letting me know that that was happening.
    On another instance, we were attending, excuse me, a 
conference at Southwest Airlines headquarters where Mr. 
Sabatini was speaking, and our management team from the office 
was invited, and we sat at separate tables. Mr. Sabatini and 
his entourage sat at one table, and we sat at another one. And, 
Mr. Gawadzinski abandoned our group and went over and sat with 
Mr. Sabatini and his entourage for the duration of the 
conference.
    And, of course, that was not lost on our management team or 
Southwest Airlines for that matter and probably gave him a good 
deal of imprimatur in terms of his success in thwarting what we 
were doing.
    Mr. Moran. The effect this appearance of this relationship 
had, what is the consequence of that appearance?
    People believed that there was a relationship that may 
affect their jobs if they crossed?
    Mr. Mills. Absolutely and, of course, for Southwest 
Airlines, that gave him a certain degree of appearance of 
influence that he might not ordinarily have had.
    For my office, the people in my office who reported to him, 
it certainly elevated his stature in their eyes and made life a 
lot more difficult for me.
    Mr. Moran. Did he do things that would merit his 
termination and, if so, why was he not terminated?
    Mr. Mills. On at least five occasions, I sent to the 
regional office, and I have records of it, instances of misdeed 
that he was doing that certainly warranted an investigation, 
and it was not until I reported the Southwest overflight of the 
AD, that investigation actually occurred to my knowledge.
    Mr. Moran. Mr. Mills, thank you very much.
    Mr. Chairman, thank you for allowing me the time.
    Mr. Oberstar. Mr. Carney, the gentleman from Pennsylvania.
    Mr. Carney. Thank you, Mr. Chairman.
    We just came off of our votes and I was down on the floor, 
speaking with a number my colleagues, and they really had 
question as to why all of a sudden American and Delta and 
United pulled significant chunks of their fleet down for 
inspections all at once. We hear about the creep in the system, 
and certainly I have to echo Mr. DeFazio's concerns about this.
    I would like your assessment on why this is going on now, 
suddenly, Mr. Peters.
    Mr. Peters. Like I spoke about earlier, ATOS is generic and 
it was designed to be generic for all 121 carriers. I believe 
the FAA ensured that all 121 carriers would fall under the ATOS 
oversight program sometime in 2007 or early 2008.
    In doing so, the baseline inspections that were required by 
ATOS in the early days, the baseline requirement for 
inspections was a little bit higher, and I don't know the 
numbers exactly. But if we are to base our oversight system on 
data alone and then we have reduced the requirement for the 
data, the data points being inspections, how can we say that we 
have raised the bar?
    I mean it seems like we are complacent with the fact that 
we are at the safest time ever. If we are not looking enough, 
which is evident by last week's groundings, how can we say we 
are safer or we have raised the bar?
    I mean it is pretty obvious to know that these generic 
requirements, they do apply to small carriers and they do apply 
to large carriers, and ATOS brings a lot of good questions and 
discoveries when doing these inspections. There really is. 
There are some really great tools.
    However, I don't believe it has been properly executed for 
carriers like the larger carriers where you have got several 
fleet types, engine types and several different types of 
operations. You can't look at that and use those baseline data 
points that you would for a smaller operation that might fly 
domestically.
    Our guidance is it is almost like an assumption that we 
should automatically increase our surveillance activity based 
on the number of aircraft that we have, and we do have risk 
indicators, but the risk indicators only raise it to a level of 
high which is still a baseline requirement of two inspections 
per year.
    Had we been doing more, I think we would have found the 
problems that we found last week throughout the past history 
and several years prior. But this basically happened all at 
once where we were going to look at them all, and I think it is 
evident that our oversight, at least of the AD management, 
which was the only one that we looked at last week, is 
inadequate.
    Mr. Carney. I am trying to get a sense then. Do you think 
that this is coincidental with the announcement of today's 
hearing or did today's hearing startle enough folks to say 
maybe we ought to take a look at our airplanes?
    Mr. Peters. I think we looked at it after the media 
coverage. The FAA decided to reassure the public that we didn't 
have a problem. Unfortunately, with all the groundings, it had 
a negative effect.
    Mr. Carney. Yes, it did, absolutely.
    This is for all of you. Do you believe that the regional 
management team was trying to play down the seriousness of any 
of these issues?
    Mr. Mills?
    Mr. Mills. Without question. The phone that I got just 
prior to my dismissal couldn't have been more cryptic. When the 
staffer says, under his breath almost, Mr. McGarry wants to 
keep this very quiet and very low key, what else could that 
mean? I was dismissed five days later.
    Mr. Naccache. I was his assistant, and I agree with that.
    Mr. Carney. Anyone else?
    Okay. Mr. Cotti, you state in your testimony that Mr. 
Gawadzinski ``often took positions and made decisions that 
defied FAA logic.'' Could you please elaborate?
    Mr. Cotti. Sure. For that entire two-year period, issues 
would pop up such as the application of our enforcement 
policies, things like how we managed our inspection oversight 
program, that he expressed positions or made decisions that 
just made no sense in the context of the issue or how it was 
governed by our guidance.
    Things like the aviation safety program information where 
mechanics can disclose to the agency that they have done 
something wrong and if it fits certain criteria, in the 
interest of safety, the FAA accepts that information.
    He took a position_where de-identified information, 
information where the mechanic's name had been removed and the 
core safety information remained_he took the position that that 
information went into a black hole where no one outside of this 
very small event review committee, which is made up of the 
airline management, the labor group and the FAA, that the 
information could not be shared in any way outside of that 
group.
    And when the manager, Mr. Mills, attempted to rectify that 
situation so that that data could be used for the purpose with 
which it was intended, he was very resistant to that.
    Mr. Carney. Did they defy the law, never mind FAA logic? I 
know you are not a lawyer, but I am asking.
    Mr. Cotti. Right. I don't know that it violates any sort of 
law. I mean each situation would be looked at differently, but 
certainly it was contrary to our policies and, as I expressed 
earlier, it just didn't make any sense. Why would you tightly 
guard and prevent that information from being disseminated to 
appropriate folks when that was the whole purpose of gathering 
that data?
    Mr. Carney. Thank you, Mr. Chair. I am a little over my 
time. Thank you.
    Mr. Oberstar. That is quite all right.
    Ms. Hirono.
    Well, first, Mrs. Capito, do you have any?
    All right. The gentlewoman from Hawaii, Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I think what really is described here is the too close 
relationship, of course, between the regulators and the 
regulated with people who come from the private sector, i.e., 
working for airlines, moving into the FAA as employees and 
vice-versa, not to say that that in and of itself is a problem.
    I realize that the Chair has said that maybe one of the 
ways that we can prevent too cozy a relationship is to rotate 
the assignments. Do any of the panelists have any other 
suggestions on how we can prevent the too cozy relationships 
from arising?
    Mr. Mills. I think perhaps Mr. Sabatini has a good idea in 
having some mechanism through which lower level managers can 
have a voice unfettered by a dysfunctional superior. I am not 
sure how that would work, but it seems to me that newspapers 
have ombudsmen. I can't say the word, ombudsmen.
    Ms. Hirono. Ombudsmen.
    Mr. Mills. And there are many entities out there where you 
have a no-fault avenue to take your concerns.
    In the case of the Southwest region, it was unwritten but 
understood policy that we would never go outside the chain of 
command without some serious repercussions. And, at the point 
where I was, I wasn't sure who was connected to what, 
concerning Mr. Gawadzinski. So I was very careful in whom I 
should speak to and fearful of the consequences that might 
occur if I did get out of that loop.
    Ms. Hirono. Any of the other panelists care to respond?
    I know, Mr. Boutris, in your testimony, you raised some 
concerns about that kind of a system when you, yourself, were 
so clear in what you were pointing out.
    I have another question especially to the first three 
panelists. As more and more of our aircraft maintenance is 
outsourced, do you have concerns that this makes it even harder 
for the FAA to maintain the kind of oversight over maintenance 
because so much of the maintenance is out of our Country?
    Mr. Boutris. I believe that we should be concerned about 
that. I hear statements and I read that the regulation applies 
the same way if you do maintenance in this Country or if you do 
maintenance in another country. Well, I can tell you the 
requirements are not the same.
    In this Country, the aircraft mechanics have to take a drug 
and alcohol test. In other countries, there is no requirement 
for that.
    Also, in our Country, the mechanics have a duty time where 
they have to take time off after so many days. There is no 
requirement in other countries to do that. So we do have 
differences.
    As for oversight, it is harder to go and perform 
surveillance, but on the same token I don't want this to sound 
like every country that offers aircraft maintenance is bad 
because a lot of countries out there that offer aircraft 
maintenance are a lot better than, sometimes, our own 
maintenance.
    But for surveillance, for me, I participated three times 
for oversight for different repair stations. I want to tell you 
that that was part of the work group when they came out to do 
these team inspections on the repair stations because, for 
example, I am on Southwest Airlines. If Southwest Airlines 
sends engines or their aircraft, for example--well, in Brazil, 
for example, Southwest Airlines has a contract with General 
Electric. The engines go to Brazil GE and that is where some of 
the engines get overhauled.
    Now if I went over there for Southwest Airlines, I did my 
inspection for Southwest Airlines, I came back, and I reported 
my findings based on the regulation and the Southwest Airlines 
procedures. Now if somebody worked for American Airlines, they 
go down there to do the same thing. If you work for 
Continental, you go down there to do the same thing.
    So they came up to do the team inspections. Instead of 
sending 100 people, you just send a team of people. And then 
you can take that report and, based on that, you can look at 
the findings.
    Well, my question to the work group was when they were in 
the process of coming up with this team inspection was when I 
go down there or any repair station outside the United States, 
one of the questions specifically states: Does the repair 
station follow the air carrier's procedures?
    As you know, the air carrier's procedures take precedence 
over the regulation because we approve some of them, and we 
make sure that they follow the regulation and they meet the 
regulation, and that is why the procedures are approved.
    So my question was, if I go to Brazil, for example, and 
look at GE engines that Southwest has in house for overhaul, I 
answer that question just specific for Southwest, that GE is 
following Southwest Airlines' procedures.
    Now how can you tell the inspector who works for 
Continental Airlines you have to accept that answer because I 
don't know what Continental's procedures are. I know what the 
regulations are, but each airline has above and beyond 
procedures in place for that.
    So the answer to that was from the group leader, that well, 
that is why they have CASS in place which is a Continuous 
Analysis and Surveillance System for an airline. So they are 
going back then to self-policing themselves. So if you are 
going to accept the answer from their program for the CASS 
program, why go and do the inspection at all? Just accept their 
whole inspection then.
    So you see there is disconnect there, and as of today that 
is what is happening. We are sending team inspectors out there 
to do team inspections, and then you look at their findings, 
and then you accept what they have found. However, you are not 
ensuring that your airline is really part of it.
    Ms. Hirono. Mr. Chairman, is my time up?
    Mr. Oberstar. Your time is expiring.
    Ms. Hirono. I saw a hand.
    Mr. Oberstar. If you have a follow-on comment, you may do 
it.
    Ms. Hirono. Well, I saw a hand going up, Mr. Peters, and 
really briefly if you care to comment.
    Mr. Peters. Well, it will be brief, and I would like to 
respond to that.
    If we are having trouble seeing the carriers in the 
Country, how can we effectively oversee carriers that are 
outsourcing their maintenance?
    The inspection team that would go and inspect this foreign 
repair station to the air carrier's standards would have to be 
very familiar with that particular air carrier, and in the ATOS 
world that is an air carrier specific briefing that is a 
requirement by each certificate office that oversees the 
carrier that they are assigned to.
    So, how can we say that it is an equivalent level of 
inspection when we have inspectors that do a great job in an 
international field office that might go in once a year for 
recertification of that repair station, not know American or 
Southwest or United or whatever the carrier's procedures are?
    It takes quite a bit of time and effort. These carriers are 
so complex and their maintenance program is embedded in several 
different areas throughout the carrier manual system. For us to 
go in there and give it a one shot quick inspection, calling it 
a recertification and not knowing how the system works for that 
particular carrier, I don't think we could honestly say to the 
Committee or to the flying public that it is an equivalent 
level of safety.
    Ms. Hirono. Thank you.
    Thank you, Mr. Chair.
    Mr. Oberstar. Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you again.
    I am sure, at least if the way things normally happen in 
Congress happen again in regard to this issue, we will have a 
discussion about resources to the FAA budget, money, 
allocations.
    Is what we are talking about here in this discussion today, 
is it related exclusively to management, to personnel, to 
management style, practice and operator's manuals and 
instructions? This is a management issue, not a funding issue, 
is that accurate?
    Mr. Peters. We are not. Down in the field level, we don't 
really know the particular budget issues, but I can tel you 
that for the fleet that I am responsible to manage, from the 
maintenance aspect, we are severely understaffed.
    Mr. Moran. As a result of that being severely understaffed, 
is the consequence the one that we are talking about today or 
this is a totally different topic?
    Mr. Peters. Well, I will be real honest with you. The 
notice that was put out last week, every issue that I had on my 
fleet, I had to put it to the back burner.
    Prior to that, the aircraft that I am responsible for was 
basically generating occurrences around the Country, and one of 
them is in the news today about the 757 windshield crack. All 
of those investigations, they take resources. I mean they 
require myself and possibly another inspector to go and 
investigate those occurrence or incidents that happen 
throughout the Country.
    We have got our surveillance, our regular surveillance 
duties that we are required to do along with managing the 
certificate. So if we are just reacting to the fires, we can't 
assure the air carrier or the flying public that--I don't want 
to say that they are safe because, of course, they have a 
process in place that is designed to keep them safe, and it is 
not getting the intention that we need due to the lack of 
resources that our surveillance and investigations require.
    Mr. Moran. So volume and staffing levels are an issue.
    Mr. Peters. I would say they are. I couldn't say truthfully 
that they are not.
    Mr. Moran. But the circumstances that we are exploring with 
you here today, they have occurred not as a result of lack of 
money but a lack of management. Is that fair?
    Mr. Peters. I think so.
    Mr. Moran. Anyone disagree with that?
    Okay. Thank you, Mr. Chairman.
    Mr. Oberstar. I would call it a failure of management, not 
a lack of management.
    Mr. Moran. You are a more precise wordsmith than I, and I 
agree with your choice of words.
    Mr. Oberstar. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    Forgive me, Mr. Naccache, if this is a repeat of a question 
you have already been asked, but can you describe the type and 
level of harassment that was inflicted on Mr. Boutris and Mr. 
Peters for reporting things they thought were problems that 
needed to be reported?
    Mr. Naccache. The description is it was very intense.
    Mr. Hall. I will just try to keep this brief and little 
more general. We hear testimony about national security issues 
relating to aviation, and it seems that the FAA is trying to 
encourage and we are all trying to encourage a culture or an 
atmosphere that would lead people to report problems that they 
see when it comes to national security, i.e., terrorism.
    I am just curious why we don't have the same emphasis 
regarding reports of safety problems like, for instance, skin 
fatigue and cracks that could have resulted in the sudden 
fracture and failure of the skin panels of the fuselage, 
consequently causing a rapid decompression which would have a 
catastrophic impact during flight. That is a physical threat to 
the physical security to the passengers and the crew.
    It seems to me that everyone, the FAA, certainly the 
airlines and the industry, ought to be at least as concerned 
about this as they are about on time arrivals or food service. 
What is more important to your image as a company and what is 
really more important to the agency, to the FAA, in terms of 
their charge?
    I am just curious what and maybe, Mr. Lambert, you would 
like to take a stab at this. Has this changed at all? What can 
we do to change it in terms of encouraging, not punishing, the 
reporting of problems that may actually be threats to safety of 
passengers and crew?
    Mr. Lambert. Well, I think we have systems in place for 
that, maybe not adequate, but the systems we have in place 
don't take into effect a manager or supervisor that totally 
decided not to comply with the rules the FAA has provided in 
the authority they are given. I don't know that we have 
anything that can fix that right now.
    Mr. Hall. Mr. Naccache, do you care to?
    Mr. Naccache. Yes, I do agree with him.
    And I remember concerning Mr. Boutris and Peters I sent an 
e-mail--let me see just a second here--on April 19 to all the 
supervisors. I was then Acting Manager. I sent an e-mail on 
April 19, directing them to do their part in reducing tension 
in any perceived adverse action concerning Mr. Boutris who was 
the subject of a recent anonymous letter.
    He could not have a private phone conversation without 
everything said being repeated around the office, and Mr. 
Boutris was to come to my office often and complaining. So I 
directed the supervisors that day the directive to make sure 
that they were sharing this information with their employees 
and to try to stop that.
    Then I had some other information that Doug Peters was to 
come and let me know that some of the inspectors always gave 
him dirty looks, rudeness towards them. They were also 
badmouthing them to the carrier.
    Mr. Boutris was also put as a persona non grata in all 
maintenance meetings, which I was kind of shocked, and I 
discussed it with Mr. Gawadzinski. Apparently, Mr. Boutris 
informed me that day that one of his peers, Mr. Crabtree, 
requested that he not be present at any of the maintenance 
personnel meetings since he was shown that he had this letter, 
anonymous letter against him. They didn't want him around to 
participate in any of the personnel meetings.
    Mr. Hall. Well, thank you, sir.
    My time has just expired, and I just wanted to comment that 
on the passenger side I have seen signs in airports telling the 
public if you see something, say something. I have seen the 
same signs in New York City subways, by the way. We are, on one 
hand, trying to tell the customers and the passengers to speak 
up if you see something wrong, but when our inspectors, when 
they try to do the same thing, they are harassed and, in 
effect, told to be quiet or removed from their positions.
    I, and I assume other Members of this Committee, will be 
working to make sure that the FAA helps guide the airlines and 
themselves in the direction of encouraging openness and honesty 
in the interest of safety and the security and airworthiness of 
the planes.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman.
    Chairman Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Chairman, I could ask a lot of questions. I think we 
could probably keep this panel here for another few hours. I am 
anxious to get to the next panel actually, but let me make a 
couple of comments.
    One is a follow-up to my friend from Kansas, Mr. Moran, who 
asked the question, is this a matter of funding or is it a 
management personnel issue.
    I would just like for the record for people to understand 
that numerous times when the Administration and 
representatives, both the Administrator and others representing 
the FAA have testified before the Aviation Subcommittee, we 
have asked that question: Do you have adequate numbers? Do you 
have adequate inspectors in order to do the job or do you need 
more?
    The answer has always been we could always use more, but we 
have adequate numbers.
    I have said, if you need more, tell us, and we will attempt 
to provide the funding so that you can hire more inspectors.
    They have never come back, to my knowledge, with a number, 
certainly not to me and certainly not to this Committee.
    So I want to make that very clear, that it is not a matter 
of the Administration or the FAA requesting additional 
inspectors. We have asked that question. They have said, we 
have adequate numbers.
    Number two is that I think it is worth noting that in the 
reauthorization bill that we passed on September 20th in the 
House, that we have historical levels in the reauthorization 
bill to accomplish a number of things including hiring 
additional inspectors because it is our belief and certainly my 
belief that we need to hire additional inspectors.
    I wanted to make both of those points on the record so that 
they were not missed.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Mr. DeFazio.
    Mr. DeFazio. Yes, Mr. Chairman, I don't want to keep the 
panel. I mean they have been very generous with their time, but 
I wanted to go back again to Mr. Boutris' testimony.
    I think the question is, at least among us--we may hear 
differently from some of the Administration witnesses--there is 
a larger problem than one rogue guy, and the question becomes 
how do we deal with this more systemically.
    I guess one of the proposals is to have a hot line, and I 
thought Mr. Boutris' criticism of that was pretty well taken. I 
would like him to comment, and others, where you say if 
management doesn't respond when I openly and on the record 
raise serious safety concerns, how is a hot line going to work?
    I guess the answer is they say, well, you go higher up in 
the agency. But then you go on to say, well, basically, I had a 
similar hot line system in place that inspectors do not trust 
because hot line complaints on safety issues end up on the FAA 
Administrator's desk.
    Then they are passed down to the local regional office. The 
local regional office assigns FAA security who doesn't have 
technical expertise, and then the technical portion is 
reassigned to regional people who might be part of the problem 
to report on. In the end, not much happens.
    Can anybody else? Mr. Boutris, do you want to expand on 
that at all and anybody else who wants to comment on problems 
with the existing hot line?
    Because if the idea, if the solution is to establish yet 
another hot line, it sounds like this is a problem that needs 
to be addressed and maybe it needs to be somewhere outside of 
political appointees like the Administrator and other folks. 
Maybe there needs to be a whole--I don't know. Could you 
address that?
    Mr. Boutris. Well, sir, I stand behind what I say there. If 
we already have one system and inspectors like myself don't 
trust it, why burden the taxpayers on another system, no matter 
what you call it?
    Like you stated, what I have in my testimony, I openly and 
on record, for years now, I have been raising safety concerns, 
and I got nobody's attention. How is the system gong to work? I 
do not know.
    But to me, what I want to state here is accountability and 
like I stated there, I will state it again, there is no 
accountability throughout the ranks in the FAA.
    Case in point, I have the new generation 737s. This fleet 
that was affected was not my fleet. The partial program manager 
that is the inspector for that fleet also was fully aware of 
the unsafe conditions seven days before I did, the same time 
that Mr. Gawadzinski was aware. So we cannot just hold Mr. 
Gawadzinski responsible.
    That inspector was in charge for that fleet, and he had 
knowledge at the same time that Mr. Gawadzinski had. He should 
have raised the flag, followed Title 49, followed our handbook 
on our responsibility which states: An inspector, who becomes 
aware of an unsafe condition on an aircraft that has been 
operating or about to be operated, must take immediate action.
    Did that inspector take that action? I don't think so.
    Why should that be seven days later?
    Mr. DeFazio. Where is that inspector now?
    Mr. Boutris. I am sorry, sir.
    Mr. DeFazio. That inspector?
    Mr. Boutris. That inspector is Mr. Collamore, and what 
really I don't understand was after they removed Mr. 
Gawadzinski, the new manager that took Mr. Mills' place 
promoted him in Acting Supervisor/Principal Maintenance 
Inspector.
    I wrote to Mr. Stuckey, e-mail after e-mail after e-mail. 
You are rewarding inspectors that look the other way, and I 
have a problem with that because the safety concerns I raised, 
they were seven days later. Had this inspector done what I did, 
the airplanes wouldn't be flying for seven days because Mr. 
Mills would have grounded them.
    So, to answer your concern, I think we need to start with 
accountability.
    Mr. DeFazio. Okay. Anybody?
    Yes, Mr. Peters.
    Mr. Peters. Mr. DeFazio, I know it might seem like harsh 
words when I said that the management personnel with the 
responsibility and authority have proved themselves unworthy to 
be custodians of the public trust. That is my, that is coming 
from my heart. I really don't.
    Mr. DeFazio. You can see you feel very deeply about this.
    Mr. Peters. Well, it is sad. It is sad that it has come to 
this, but it has, and we have to face reality. That is why Mr. 
Boutris and I were so persistent in getting the information 
forward to the Committee so that we can take appropriate 
action.
    If you are asking us what the appropriate action might be, 
I don't think the FAA can be trusted to police itself in 
regards to this matter that you spoke about, with a hot line, I 
don't see how that would help.
    An external organization, I don't know what you would call 
it. Maybe we have an organization in place that could do that. 
Maybe give them more authority to come in and inspect what do, 
where we would have to provide evidential proof this is how we 
determined and this is how we got to where we are at in our 
inspections.
    Mr. DeFazio. That is something to think about, Mr. 
Chairman. I liked your earlier idea on a legislative fix, but I 
think that is someone who would not be in that political chain 
of command and would be more responsive perhaps to these 
concerns.
    Mr. Oberstar. I think that is a very important line of 
consideration and one that we will have to explore. To address 
this issue takes more than one fix. It is going to take maybe a 
series of actions that will result in a change in the culture 
of the FAA.
    This lingering question about manpower, workforce and ATOS, 
I just go back to 1986, following the hearing our Subcommittee 
held on Galaxy Airlines. Here is this so-called airline. It had 
one flying Electra and two Hangar Queens from which parts were 
scavenged to supply the flying aircraft.
    When we uncovered all the wrongdoing behind the scenes of 
the management of that so-called airline, FAA rushed in half a 
dozen inspectors to oversee Galaxy, leaving a major air carrier 
in the Southwest FSDO with only a skeletal maintenance 
oversight crew of FAA inspectors.
    They were, in effect, making the FAA the maintenance 
provider for this scummy airline, and I say that with 
deliberate intention. I know, well, I won't go into the 
disreputable operation of that carrier.
    So I went then to my good friend, Mr. Mineta, who was Chair 
of the Aviation Authorizing Subcommittee and said, when the 
appropriation bill comes to the House floor, I want you to join 
with me in offering an amendment to increase funding for the 
inspector workforce of FAA. He did. We offered an amendment to 
provide an additional $10 million a year to hire at least an 
additional 1,000 inspectors.
    The amendment passed, survived the Senate and conference, 
signed by the President and the FAA began expanding its 
workforce. We need to do that again. We need to expand that 
workforce.
    But when I made that move, it was with full participation 
and compliance--I shouldn't say compliance--full partnership 
with the FAA top level management at the time. They said, you 
are right. We are understaffed. We need the help. Help us do 
this.
    We need that same attitude today instead of what Mr. 
Costello referred to a little bit ago.
    I want to come back to one of the fundamental issues here, 
and that is the voluntary self-disclosure. A non-compliance 
issue is eligible for self-disclosure without penalty if it is 
found by the airline first, correct? With no prior knowledge by 
the FAA, correct?
    That is a very fine line. If you have someone within the 
FAA who is tipping off the airline, then they can get to first 
base before the ball gets there. Is that right?
    Isn't that a little bit of what happened here?
    Aren't there some non-compliance issues that have been 
filed over the last couple of weeks that were previously 
allowed to be submitted as self-disclosure even though FAA knew 
about it? That then would have made them ineligible, isn't that 
correct?
    Don't nod because that can't be recorded in the testimony.
    Mr. Boutris. Yes, sir. It is correct. If the FAA finds out 
about non-compliance first, the airline cannot self-disclose 
the violation.
    Mr. Oberstar. All right. We are going to explore this 
voluntary self-disclosure in more detail at the next panel.
    I also want to come to the customer service initiative. 
After what we have heard today, my opinion is that it ought to 
be withdrawn, repudiated, torn up, thrown away, and we ought to 
start fresh. I wonder what you think about that.
    Mr. Cotti. Mr. Chairman, I would be careful on throwing out 
the baby with the bath water. I believe that program has some 
merit, and in those cases where it did not work as advertised I 
think it would be more appropriate to rectify those situations.
    Mr. Oberstar. You wouldn't throw it out. You would modify 
it.
    Mr. Cotti. Yes, sir. I would put tighter controls on how it 
is being used.
    Mr. Oberstar. All right.
    Mr. Lambert?
    Mr. Lambert. Yes, sir. The customer service initiative was 
initially put in place to where if there was a disagreement 
between an inspector and a carrier, that it could be elevated 
to get the right guidance approved or whatever they needed.
    It has become a complaint system. If an air carrier doesn't 
like a principal's decision, they do it in a CSI because they 
know it will eventually get to you guys and they will get a 
decision in their favor more than likely because it becomes 
political at that point.
    It needs to be modified and used as was intended to get the 
guidance, the proper guidance to resolve the issue at the 
lowest level.
    Mr. Oberstar. Thank you.
    Other comments from other panel members? Mr. Peters?
    Mr. Peters. Well, last week, when I was conducting the AD 
inspections for my carrier, when I returned, I read an e-mail 
that referred to my carrier as a client. It is a little 
troubling for me to understand where I stand as an inspector, 
as a regulator when I am dealing with my client which, to be 
honest with you, I have never been trained on anything to do 
with a client other than enforcing the regulations. So it is 
kind of a gray area for some.
    I think it does have some benefit, like Mr. Lambert said, 
where we do work with a carrier and, if they need for 
resolution, they certainly need to have the avenue to raise 
their level or to raise their concern to somebody within the 
agency if they are not getting the proper response.
    But the client and customer initiative, as it is being used 
today, I don't see the value.
    Mr. Oberstar. This is a multi-modal Committee. We have 
jurisdiction over all the modes of transportation except 
elevators. There was one year when there were more fatalities 
in elevators than there was in aviation. That was about 15, 20 
years ago.
    [Laughter.]
    Mr. Oberstar. In the rail safety arena, in 1994, 1995, 
1996, I found an astonishing practice between the freight 
railroads and the Federal Railroad Administration in which 
there were similar Railroad Safety Advisory Committees.
    The railroads sat down nicey-nicey, patty-patty with the 
Federal railroad inspectors while the members of the railroad 
brotherhoods--the signalmen, the maintenance workers, the 
conductors, the locomotive engineers--were saying there are 
serious safety problems on the railroads that are not being 
addressed because the Federal railroad inspectors are hand in 
hand, hand in glove with the railroads. I exposed that at a 
hearing and raised holy hell, put it this way, with the 
Administrator of FRA.
    The result was they changed that system. They didn't use 
the term, customer, but instead of treating the railroads as a 
partner, they changed their mind set to: We are here to oversee 
safety. Our responsibility is to assure that you are running 
your railroad in a safe manner for employees, for the cities 
through which you operate and for the freight that you are 
carrying.
    And we need that same change of attitude. I don't think 
that the role of the FAA is to consider the airlines as their 
customer. They are not a service organization to serve the 
airlines. Airlines are a service organization to their 
passengers. If there is a culture of customer, then it has to 
be by the FAA to the air traveling public.
    I think we need, yes, Mr. Cotti, I think some sort of 
cooperative arrangement where the airlines voluntarily bring 
information forward but one that is done within a regulatory 
framework.
    In the end, the airlines have the primary responsibility. 
There must be a culture of safety in the corporate board room. 
It must permeate the whole organization and so with the FAA. It 
has to start at the top.
    Every one of you witnesses here has shown that you have 
that culture of safety, that you have it in your soul and your 
heart and your spirit on every day and every piece of action 
that you take, and I want that demonstrated at the top in the 
FAA.
    As long as the FAA thinks of the airlines as their client, 
thinks of the airlines as their customer, that culture of 
safety is not going to take hold and not going to permeate the 
organization.
    Oh, Ms. Johnson has arrived, our Chair of the Water 
Resources Subcommittee. At this time, the Chair recognizes the 
gentlewoman from Texas.
    Ms. Johnson. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I ask unanimous consent to put my statement in the record.
    Mr. Oberstar. Without objection, so ordered.
    Ms. Johnson. I apologize for having to leave out earlier, 
but I just want to be very quick with this.
    As I see the problem, I put most of the blame on FAA 
because if FAA inspects and reports it to the right avenue, 
then I cannot understand why an airline would not take heed. So 
what I would like to hear from you is where is the kink? Is it 
the buddy system? What is it?
    Where does it fall off the line? Anybody or all?
    Mr. Cotti. Ms. Johnson, I would submit that it becomes an 
issue of integrity. I think a lot of the issues we were talking 
about today have had to do with the integrity of one or several 
individuals. Integrity is one of the core values of our 
organization.
    And, I think there is lots of ways to look at this, but 
this wasn't rocket science. This was there was an opportunity 
to make a decision, and the wrong decision was made, and I 
think it goes down to integrity with individuals
    Ms. Johnson. Do you think rotating employees?
    I know that it takes a certain amount of expertise for the 
inspectors, but it seems to me that when people stay in one 
place a long time they kind of get accustomed to letting things 
slide based upon the fact that they don't think it will be 
immediately that of a problem.
    I have been trying to think through where we start. Do we 
prohibit FAA employees from going to work for a private airline 
for at least two years after they leave FAA or what do you 
think?
    I know it has to start from the top, but it has not started 
from the top, it seems to me. So I am trying to deal with the 
problem.
    Mr. Mills. Well, I think that would certainly be a step in 
the right direction. In this particular case, the employee who 
left the FAA and went to work for Southwest Airlines certainly 
raised the question in my mind about propriety and, because of 
that, I asked for an investigation of that instance.
    So I think it would be very helpful to have a waiting 
period before an inspector leaves the FAA and goes to work for 
industry.
    Ms. Johnson. Anyone else? Do you concur?
    Mr. Peters. Yes, I do.
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Ms. Johnson.
    I don't want to leave an impression here about whether the 
situation under discussion today with Southwest and the FAA is 
limited only to this particular FSDO.
    Even if there were problems only with Southwest, it is 
clear that we have a structural problem at FAA. The problem at 
the operating level between the maintenance inspector and the 
air carrier is evident in the testimony, but the chain of 
command above the inspector level was at fault, and that 
suggests that it could well be at fault elsewhere in the FAA 
and other Flight Standards District Offices. Correcting the 
problem at the top has to be our primary concern.
    I want to thank this panel for their candor, their 
integrity, for putting public service ahead of private interest 
and personal interest, for risking yourselves for the safety of 
the flying public. You have done aviation and aviation safety 
an immense service. Thank you.
    The panel is dismissed.
    Mr. Boutris. Thank you, sir.
    Mr. Oberstar. Our next panel consists of the Honorable 
Calvin Scovel, Inspector General of DOT; Scott Bloch, Special 
Counsel, the U.S. Office of Special Counsel; Mr. Nicholas 
Sabatini, Associate Administrator for Aviation Safety at FAA; 
Mr. James Ballough, the Director of Flight Standards Service; 
Mr. Thomas Stuckey, Manager, Flight Standards Division, FAA 
Southwest Region.
    I ask you all to rise, raise your right hand. Do you 
solemnly swear that the testimony you will give before this 
Committee in the matters now under consideration will be the 
truth, the whole truth and nothing but the truth, so help you 
God?
    [Witnesses respond in the affirmative.]
    Mr. Oberstar. You are sworn in, and we thank you for your 
presence at the hearing.
    Mr. Scovel, we will begin with you.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; THE HONORABLE SCOTT 
J. BLOCH, SPECIAL COUNSEL, U.S. OFFICE OF THE SPECIAL COUNSEL; 
  NICHOLAS A. SABATINI, ASSOCIATE ADMINISTRATOR FOR AVIATION 
  SAFETY, FEDERAL AVIATION ADMINISTRATION; JAMES J. BALLOUGH, 
     DIRECTOR, FLIGHT STANDARDS SERVICE, FEDERAL AVIATION 
 ADMINISTRATION; AND THOMAS STUCKEY, MANAGER, FLIGHT STANDARDS 
  DIVISION, FEDERAL AVIATION ADMINISTRATION, SOUTHWEST REGION

    Mr. Scovel. Thank you, Mr. Chairman.
    I apologize, but if I may request what I hope will be a 
minor departure from protocol. I know the Committee's time is 
limited. I estimate, however, that I will need about eight 
minutes for my oral statement in order to inform the Committee 
of our findings, our conclusions regarding FAA's programs and 
our recommendations.
    Mr. Oberstar. We do not want to limit witnesses arbitrarily 
by time. I want you to give your testimony and what you think 
is necessary in your oral remarks. Your written testimony, of 
course, will be part of the record, and I have read all of that 
already anyway, but please proceed.
    Mr. Scovel. Thank you, Mr. Chairman, Ranking Member Petri, 
Members of the Committee.
    At the request of this Committee, we are reviewing FAA's 
handling of whistleblower concerns regarding Southwest 
Airlines' failure to follow a critical FAA airworthiness 
directive or AD. As you heard from the first panel, these are 
serious matters.
    Let me clear. The events at Southwest Airlines and the 
actions of an FAA inspector represent significant breakdowns in 
safety oversight that unnecessarily increased risk to the 
traveling public. We also have concerns about FAA handled the 
matter, and we are deeply troubled by the treatment of the 
whistleblowers. Corrective actions are urgently needed to 
strengthen FAA's oversight and prevent similar problems from 
recurring.
    Before I discuss these matters in detail, let me highlight 
some key facts. The AD in this case required Southwest to 
inspect the fuselages of its Boeing 737s for potential cracks. 
FAA issued this AD in response to the Aloha Airlines 737 
incident in 1988 where an aircraft lost a major portion of its 
fuselage in flight, resulting in one fatality and multiple 
injuries.
    According to FAA, when an air carrier determines that it 
has not implemented an AD, it is required to ground, 
immediately, all non-compliant aircraft. FAA inspectors share 
this responsibility by ensuring that this is done.
    We found, however, that Southwest did not have an effective 
system to ensure it completed these inspections. As a result, 
Southwest operated 46 aircraft in violation of the AD on over 
6,000 flights for up to 9 months, carrying an estimated 6 
million passenger. Southwest discovered it had violated this AD 
on March 14th of last year and notified an FAA principal 
maintenance inspector, a PMI, the following day.
    However, the PMI did not direct the airline to ground the 
affected planes as required and, Southwest continued to operate 
them for nine more days. The PMI permitted and encouraged 
Southwest to formally self-disclose the AD violation through 
FAA's voluntary disclosure problem which allowed the airline to 
avoid penalties.
    FAA accepted the self-disclosure, even though multiple 
disclosures on AD violations had already been accepted. This 
should have raised the question of whether underlying problems 
had been corrected. Once it self-disclosed violation, Southwest 
stated that it had inspected or grounded all affected aircraft.
    However, two FAA inspectors, whistleblowers, reported that 
the PMI knowingly permitted Southwest to continue flying the 
identified aircraft. Southwest officials confirmed this and 
stated that the PMI gave them verbal permission to continue 
flying the aircraft. When Southwest finally inspected them, it 
found fuselage cracks in five.
    While these critical safety lapses indicate problem with an 
airline's compliance, they are symptomatic of much deeper 
problems in several key areas of FAA oversight.
    First, problems with FAA's partnership programs. We found 
that FAA's Southwest inspection office developed an overly 
collaborative relationship with the air carrier which 
repeatedly self-disclosed AD violations without ensuring that a 
comprehensive solution was implemented. The balance has tipped 
too heavily in favor of collaboration at the expense of 
effective oversight and appropriate enforcement.
    Southwest violated four different ADs eight times since 
December, 2006 including five in 2008. Lack of FAA oversight in 
this area appears to allow rather than mitigate recurring 
safety violations.
    Partnership programs can help to identify and correct 
safety issues, using information that might not otherwise be 
available. However, FAA cannot rely too heavily on self-
disclosures at the expense of rigorous oversight and 
appropriate enforcement.
    Second, weaknesses in FAA's national oversight allowed the 
problems at Southwest to go undetected for several years. Red 
flags were flying and should have been warning signs to FAA.
    As early as 2003, one of the whistleblowers expressed 
concerns about Southwest's compliance with ADs. In 2006, he 
began urging FAA to conduct system-wide reviews, but FAA did 
not begin these reviews until after the details of the March, 
2007 disclosure became public.
    In fact, we found that FAA inspectors had not reviewed 
Southwest's system for compliance with ADs since 1999. At the 
time of the Southwest disclosure, 21 key inspections were 
overdue since more than 5 years had elapsed since the last 
inspection date.
    As of March 25th, 2008, FAA still had not completed at 
least five of these required inspections with eight years 
having elapsed since the last inspection date in some cases.
    We have identified problems with FAA's national program for 
risk-based oversight in the past. For example, in 2005, we 
found that inspectors did not complete 26 percent of planned 
inspections and half of these were in identified risk areas. We 
had recommended the need for greater national oversight in 2002 
and again in that 2005 report, and this is still needed today.
    Third, problems with FAA's process for conducting internal 
reviews and ensuring appropriate corrective actions. In the 
Southwest case, FAA's internal reviews found, as early as 
April, 2007, that the PMI was complicit in allowing Southwest 
to continue flying aircraft in violation of the AD.
    FAA did not attempt to determine the root cause of the 
safety issue or begin enforcement action against the carrier 
until November, 2007. Too much attention was focused on the 
messenger, not on fixing legitimate safety concerns. This also 
raises questions about FAA's ability to investigate safety 
allegations raised by inspectors.
    We are deeply troubled by the fact that FAA failed to 
protect the whistleblowers from retaliation. For example, after 
one whistleblower voiced his concerns to FAA, Southwest lodged 
an anonymous hot line complaint against him according to the 
PMI. The complaint was nonspecific and never substantiated, but 
the inspector was removed from oversight duties for five 
months.
    However, FAA did not suspend other inspectors who were 
subjects of similar complaints, including the PMI who admitted 
that he had allowed Southwest to continue flying in violation 
of the AD.
    Our work at Northwest Airlines found the same problem with 
FAA's handling of an inspector who reported legitimate safety 
concerns. As with the inspector in the Southwest case, FAA 
managers reassigned the experienced inspector to office duties 
and restricted him from performing oversight on the carrier's 
premises based on a complaint from the airline. The inspector's 
safety concerns were later validated.
    Mr. Oberstar. By complaint from the airline, you mean 
Northwest?
    Mr. Scovel. Northwest, yes, sir.
    Mr. Oberstar. Yes. Okay.
    Mr. Scovel. Both the Southwest and Northwest cases 
demonstrate that FAA must take steps to improve how it 
investigates safety issues and protects employees who bring 
important safety issues to light.
    Finally, I would like to turn to the actions needed to 
prevent these events from occurring again. As the Committee is 
well aware, FAA has taken actions but only after events became 
public last month and this Committee's investigation was well 
underway.
    FAA has proposed to fine Southwest over $10 million and 
initiate a review of AD compliance at Southwest and other air 
carriers. These actions are necessary but long overdue, given 
the overflight was discovered a year ago. FAA must take actions 
to improve oversight of all air carriers, strengthen the use of 
partnership programs and restore confidence in the agency's 
ability to conduct oversight.
    In addition to steps underway, we recommend that FAA 
establish an independent body to investigate inspector 
concerns, periodically transfer supervisory inspectors to 
ensure reliable and objective air carrier oversight, revise 
guidance to ensure that air carriers take corrective actions to 
address violations identified through self-disclosure, 
implement a process for second level review of self-disclosures 
before accepting and closing them, implement a process to track 
field office inspections and alert local, regional and 
headquarters offices to overdue inspections, and revise post-
employment guidance to require an appropriate cooling off 
period for inspectors.
    My office will continue to examine FAA's oversight approach 
from a national perspective as requested by the Chairman. We 
must ensure that these problems are not repeated and that 
corrective actions are properly implemented. We will report to 
you on our progress as well as other steps that can be taken to 
enhance safety.
    That concludes my statement, Mr. Chairman. I welcome 
questions.
    Mr. Oberstar. Thank you very much for a very strong, hard-
hitting, straightforward statement.
    Mr. Bloch.
    Mr. Bloch. Thank you, Mr. Chairman, Ranking Member Mr. 
Petri, Members of the Committee, thank you for this opportunity 
to discuss the work of the U.S. Office of Special Counsel 
regarding today's important hearing.
    OSC exists as the chief protector of whistleblowers and the 
enforcer of the Whistleblower Protection Act.
    The French have a saying: La plus ca change, la plus c'est 
la meme chose, which translates the more things change, the 
more they stay the same.
    Things have changed in air travel but too much has stayed 
the same like safety, compliance and oversight. Management at 
FAA has fostered a culture of convenience and complacency which 
compromises safety.
    In this case, thousands of real passengers were put at real 
risk because of FAA's breach of duty. The work of my office 
over the last four years shows this is not merely an isolated 
instance of one manager's cozy relationship with the airlines. 
It shows FAA has a preference for reprisal against courageous 
whistleblowers who point out breaches by management.
    Through the efforts of this Committee, my office and the 
U.S. Department of Transportation's Inspector General, it is my 
hope real change will result in better compliance, greater 
transparency and more effective FAA oversight.
    In recent years, whistleblowers have made disclosures to my 
office of wrongful conduct by officials and employees of the 
FAA, conduct that endangers public safety.
    Last July, I found there was a substantial likelihood that 
Anne Whiteman and other air traffic controller whistleblowers 
at Dallas-Fort Worth were correct in the disclosure that FAA 
managers at DFW were systematically covering up operational 
errors made by air traffic controllers. No one would listen to 
her concerns until she made her disclosures to us.
    Similar disclosures by Ms. Whiteman in 2004 were 
investigated by the DOT Inspector General after OSC 
substantiated them. The IG report noted a seven-year management 
practice of under-reporting operational errors, but two years 
later Ms. Whiteman alleged that nothing had changed. The IG had 
been conducting a thorough investigation and we expect a report 
soon.
    OSC has received disclosures from a former Flight District 
Standards Office manager, Gabriel Bruno, alleging that 
unqualified mechanics remain in the aviation industry because 
they have not been reexamined adequately. He and another 
whistleblower made closely related disclosures to us in 2003.
    We referred these to the DOT, and the IG investigated, 
recommending that FAA reexamine mechanics certified by St. 
George Aviation and reporting that the FAA was taking steps to 
do so.
    Mr. Bruno now alleges that despite FAA assurances, the 
public remains at risk. I, again, referred this matter to the 
U.S. DOT for investigation. It seems nothing has changed.
    In December, I found a substantial likelihood that FAA 
aviation inspectors, Bobby Boutris and Douglas Peters, had 
disclosed wrongful conduct involving FAA's oversight of 
Southwest Airlines and several years of coverup by FAA of 
airline non-compliance. I ordered DOT to do a thorough 
investigation.
    They disclosed, the whistleblowers disclosed that the FAA 
principal maintenance inspector for Southwest Airlines 
knowingly permitted aircraft to operate in an unsafe condition.
    Higher management knew about what was going on and tried to 
keep Mr. Boutris from requiring Southwest's compliance with 
airworthiness directives. Southwest Airlines had self-reported 
it had not completed with an FAA airworthiness directive on 
fuselage crack inspection only after it became obvious that the 
whistleblower was going to catch them in the violation.
    With the knowledge and approval of FAA officials, these 
aircraft remained in operation until overdue inspections could 
be accomplished. These inspections revealed fuselage cracks in 
the critical areas of the airworthiness directive.
    Southwest flew 1,400 flights, approximately, with those 
fuselage cracks. So passengers were put at real risk for the 
convenience of the FAA and Southwest Airlines.
    When we receive the reports on these investigations, we 
will transmit our findings and recommendations to the President 
and Congress. Still, to ensure the flying public is not at 
risk, we must determine if there are system-wide problems at 
the FAA. So I have three recommendations.
    First, an expert commission should be established to 
investigate how the FAA could allow coverups that potentially 
endanger the flying public, investigate the complicity of the 
airline industry and recommend comprehensive reforms of 
oversight and airline safety.
    Second, more audits and no-notice inspections should be 
done by a better financed and staffed U.S. DOT Inspector 
General. The IG has the independence and knowledge to ensure 
better oversight and compliance but needs more resources.
    Third, wrongdoers and those who retaliate against them, 
against whistleblowers should receive real discipline to punish 
behavior, set the example and reassure the public that they are 
protected by effective oversight.
    These proposals are justified and safety demands them. 
Otherwise, we may think we have caused things to change while 
they have, in fact, stayed the same or become worse.
    Thank you.
    Mr. Oberstar. Thank you very much, Mr. Bloch.
    And now Mr. Sabatini.
    Mr. Sabatini. Mr. Chairman.
    Mr. Oberstar. Turn the microphone on. We want to hear every 
word.
    Mr. Sabatini. Sorry about that. I have been here enough 
times. I should know about that button.
    Mr. Chairman, Chairman Oberstar, Congressman Petri and 
Members of the Committee, I appreciate the opportunity to 
appear before you once again.
    With me today is Jim Ballough, Director of the Flight 
Standards Service and Tom Stuckey, Manager of the Flight 
Standards Division in the Southwest region.
    Today, I would like to put into context the truly 
disturbing incident that occurred last year when Southwest 
Airlines knowingly continued to fly passengers after they 
learned that they had over-flown an airworthiness directive 
that required an inspection for cracks in the aircraft 
fuselage.
    That an airline of Southwest's reputation would ever think 
that flying passengers in non-compliant aircraft was 
appropriate is astounding to me. Even more alarming and 
upsetting to me is that this was done with the implicit consent 
of one of my aviation safety inspectors.
    I want to state at the outset and in the most unequivocal 
terms that it is never permissible for any airline to continue 
to operate commercial flights that are in non-compliance with 
an AD, and no one in the FAA, not the Acting Administrator, not 
me, not Jim, not Tom, has the authority to allow such 
operations. And, frankly, even if we did, none of us would 
allow it. It flies in the face of everything we stand for.
    This is such a fundamental tenet of aviation safety that it 
is not surprising that the events of last year are receiving 
the amount of attention that they are today. I will not condone 
or defend anyone who was responsible for or complicit in the 
events surrounding the decisions made to operate those flights.
    Following our investigation, FAA issued a $10.2 million 
proposed civil penalty to Southwest Airlines for their actions 
in this matter. The amount of the civil penalty reflects the 
fact that the airline knew they were in non-compliance and 
deliberately continued to fly the aircraft in commercial 
operations rather than grounding them as was required.
    We know this because the airline voluntarily reported its 
non-compliance to an FAA principal maintenance inspector, the 
PMI, who failed to ensure that the affected aircraft were 
grounded. The inspector is the subject of an ongoing personnel 
action and has been removed from aviation safety inspector 
duties.
    We also know this because one of the inspectors working in 
that office expressed repeated concerns about the PMI and 
ultimately reported the Southwest Airlines incident to the 
Administrator's hot line.
    So where do we go from here? As an agency, we must accept 
responsibility for our mistakes, understand why they were made 
and implement safeguards to prevent them from happening again. 
That is why Acting Administrator Sturgell and I announced 
yesterday a five-point plan that addresses the issues of 
responsibility, accountability, communication and ethics. I 
believe these initiatives will help ensure that our rules are 
being followed.
    First, in order to assure our employees that they are 
encouraged to raise their concerns without fear of reprisal, we 
are going to develop and implement a safety issues reporting 
system by the end of the month. SIRS, its acronym, provides a 
totally new avenue for employees to raise their issues, to get 
attention and results.
    Second, we are initiating a rulemaking to address post-
employment ethics concerns. We want to consider a cooling off 
period to ensure that there is greater objectivity when 
overseeing or working with a previous employer.
    Third, we are gong to work with the manufacturers and 
carriers to help clarify the rules themselves to improve 
effective implementation.
    Fourth, we will amend the voluntary disclosure program to 
require that senior airline officials sign off on the reports 
to ensure that there is awareness at the highest levels of the 
airline of what types of deviations are occurring within their 
system.
    And, finally, we are accelerating the expansion of our 
aviation safety information and analysis program. Now that we 
have all 117 carriers participating in ATOS, we are blending 
this oversight data with our other data sources to enhance our 
ability to protect nationwide trends and provide a better 
perspective on the health and safety of the system.
    In addition to this plan and to ensure that what happened 
with Southwest Airlines was an isolated problem and not a 
systemic one, I ordered a special emphasis surveillance, the 
first phase of which has just been completed while a second, 
more comprehensive phase is ongoing.
    Our initial findings validate that our systems safety 
approach of oversight is working as intended. Over 99 percent 
of the ADs checked are being complied with by U.S. commercial 
carriers.
    Most importantly, if there was a question about the 
technical compliance with an AD, the carriers grounded the 
affected aircraft rather than take a chance that they were in 
non-compliance. This is certainly the right response to a 
potential safety risk.
    While it is certainly not my intention to underplay the 
severity and egregious nature of what happened at Southwest 
Airlines, the initial findings of the special emphasis 
surveillance support what we all know to be true. By any 
standard, this is the safest period in the history of aviation. 
I say this every time I appear before you because I am 
extremely and extraordinarily proud of the hard work and 
dedication it took by the thousands of safety aviation 
professionals in both industry and the FAA to get us to this 
point.
    It is not a miracle, it is not a coincidence, and it is not 
good luck. It is finding a way to identify and focus on risk in 
order to effectively address it before it can result in an 
accident. Clearly, the accident rate reflects that this is 
working.
    One of the reasons we have been able to do what we have 
done so effectively is because of the important information we 
receive from the airlines, their employees and even their 
aircraft through voluntary reporting programs. Without these 
programs, we had access to such limited information, less than 
5 percent of what we are receiving now. Identifying and 
responding to risk often involved using information we learned 
about as a result of an accident.
    Because of these programs, we now have access to a great 
deal of information that we can analyze and evaluate to assist 
in identifying trends that point to the risk we need to stay 
ahead of. Again, the accident rate supports that using the 
information obtained through these programs is effective.
    It is entirely appropriate for us to discuss how these 
programs are implemented and where the line should be drawn 
between getting the information and taking enforcement action. 
I am happy to talk about this today and at any time in the 
future, but it is my hope that as we assess what happened at 
Southwest Airlines or the value of reporting programs or the 
relationship between FAA and industry, we do not lose sight of 
the fact that the system is safe, and I will continue to work 
as hard as I can to keep it safe.
    Mr. Chairman, I will be happy to answer your questions at 
this time.
    Mr. Oberstar. Thank you very much.
    Mr. Ballough.
    Mr. Ballough. Mr. Chairman, the FAA had one opening 
statement, and we stand ready to answer your questions.
    Mr. Oberstar. Okay, neither you nor Mr. Stuckey has a 
comment. Thank you very much.
    Well, very powerful testimony, Mr. Scovel, Mr. Bloch and a 
very interesting rebuttal, in a sense, response from Mr. 
Sabatini.
    Mr. Scovel, you say corrective action is urgently needed, 
and then you set forth several specifics: an independent body 
to investigate inspector concerns; transfer supervisory 
inspectors, that is move them around within the system, so they 
don't get too comfortable.
    The State Department does that with our overseas personnel. 
They get three years at one station. They are moved to another. 
The military does that. The Corps of Engineers does it with 
district engineers, division engineers. It seems a pretty good 
practice, so people don't get too cozy and comfortable with 
those they are overseeing.
    Revise the guidance. Now, what guidance are you referring 
to there? Is that the voluntary?
    You address self-disclosure the next recommendation. Do you 
include that in your proposal to revise guidance?
    Mr. Scovel. Your question doesn't refer to post-employment 
guidance, Mr. Chairman. You are talking about self-disclosure 
programs?
    Mr. Oberstar. Revise guidance, this is your third 
recommendation.
    Mr. Scovel. Yes.
    Mr. Oberstar. Ensure that air carriers take corrective 
actions to address violations identified through self-
disclosure.
    Mr. Scovel. Right. Our understanding of the voluntary 
disclosure reporting program now is that it envisions the 
inspector or the PMI, who receives the self-disclosure, 
reviewing it, making sure that it contains the required 
elements first of all, that if there has been an overflight, 
that the offending action has ceased immediately.
    Second, that there be a comprehensive corrective plan laid 
out, that there be an implementation timeline and that there be 
a follow-on audit planned.
    At least in this case, in the Southwest case, it is clear 
that the PMI basically simply rubber-stamped what Southwest had 
submitted.
    We would like to make clear by this recommendation that the 
PMI, the inspector and, if our other recommendation were to be 
accepted, for the second level approval authority, that they 
ensure that the air carriers take the corrective actions 
identified in that comprehensive corrective plan so that the 
basic underlying violations can be corrected.
    Mr. Oberstar. That is a very helpful clarification.
    Then track field office inspections and alert local 
regional headquarters office to overdue inspections. How would 
you envision setting up such a tracking system?
    Mr. Scovel. Let me begin to answer your question, sir, by 
noting what we found in the Southwest case.
    Our written statement makes clear that as of the date of 
this oversight, this overflight that we are examining here 
today, March of 2007, there were 21 key ATOS inspections that 
were overdue. These were ATOS inspections that should have been 
completed by the Southwest CMO that had not been done. And, in 
fact, at the top of that list and most egregious is the fact 
that the AD compliance program for Southwest had not been 
inspected by FAA's CMO since 1999.
    Now you well know that ATOS was first implemented in 1998. 
Southwest was one of the first 10 or so carriers initiated into 
ATOS. The following year, 1999, the CMO did review the 
carrier's AD compliance program, but it had not been reviewed 
since then.
    It should have been reviewed at least a five-year interval, 
making 2004 the drop-dead date. Yet, here we are sitting last 
year, March, 2007, AD compliance program not done.
    Our question was why didn't higher authorities in FAA know 
that?
    The data is sitting right there. We found it within the 
last month or two, yet it was clear to us that no one was 
beating on the door of the CMO, asking why have you not done 
these 21 key inspections and particularly the AD compliance 
program inspection.
    We think there has to be a way in this program to track, in 
the ATOS program, to track the progress of key inspections. 
When are they completed? Are they in danger of becoming 
overdue?
    And when they do become overdue or even in a short period 
of time before that, put up a yellow flag, notify the CMO that 
they are in danger of crossing the trip wire. Then people, 
higher headquarters in FAA needs to get on the CMO's back and 
make sure that they follow through.
    Mr. Oberstar. Now that makes very good sense, but I want to 
come back. Ten years ago, ATOS was initiated. I thought of it 
then as an adjunct, a supplement. It has become a replacement 
for the historic inspection procedure and process and has led 
to an over-reliance on an automated system with very little 
personnel input and hands-on management of the system. I think 
that has led to this easy, cozy relationship.
    Mr. Scovel. Well, perhaps, Mr. Chairman. I can't speak to 
how ATOS was originally envisioned or I hesitate to use the 
word, sold, in 1998, but how it was explained to you and others 
who are interested.
    But what has clearly happened with ATOS over the years is 
that it has evolved into a system for FAA, ideally in their 
view, to better target or better channel their limited 
inspector resources to areas of greatest risk. And that is we 
have identified that, as you well know, in our past work as an 
advantage we see to ATOS.
    Given the fact that we do have limited inspector resources, 
how can they be best used? Well, we think they ought to be 
targeted on the highest risk areas.
    How do I identify those risk areas? Through data, and that 
data is supposed to be collected through the ATOS program.
    Mr. Oberstar. If the right data isn't put into the system, 
then it is not very useful.
    Mr. Sabatini, you mentioned, without naming him, Mr. 
Gawadzinski was removed from his position. What you didn't say 
is he has been moved to another CMO at American, where he is 
doing paperwork at full salary. Is that an appropriate thing 
for him to do?
    Mr. Sabatini. Well, sir, as you know.
    Mr. Oberstar. I know he has employee rights, and I know he 
there is an entire procedure, but is this an appropriate place 
to put him after hearing what we heard this morning?
    Mr. Sabatini. Well, Mr. Chairman, what we have done is put 
him in a position where he has absolutely no responsibility for 
safety decisions, and the investigation is not complete. We are 
waiting for the other agencies to complete their component.
    And, I can assure you, Mr. Chairman, I consider what has 
happened here, egregious, and we will apply the full measure of 
the law when we have all the information that we need to take 
whatever action the law will allow. In the meantime, yes, sir, 
he is still in the Dallas area, but he is not performing any 
function related to safety.
    Mr. Oberstar. That is encouraging, but I think he ought to 
be taken out of a CMO and put some place else.
    We heard from the whistleblowers this morning about your 
proposal to establish a hot line. They said, what good is a hot 
line going to do when we stood up, we put our names on or, in 
the case of Mr. Boutris, he put his name on reports time and 
time again, and nothing happened, and it went up the chain.
    What good is going to be accomplished by another hot line?
    Mr. Sabatini. This is more than just another hot line, Mr. 
Chairman, while it has certainly that as part of its component. 
What is absolutely essential is a clear communication I have 
already made with our management.
    Number one, I will not tolerate a management or any manager 
who does not develop and encourage an atmosphere of a safety 
culture, and that is the ability to report concerns that one 
may have to his or her supervisor.
    Secondly, if there is a professional difference, and this 
process does not exist today, there will be a rigorous and 
disciplined process subject to scrutiny by myself, personally, 
as well as my other leadership people in the management chain. 
It will require that if there is a professional difference, 
that that professional difference be documented and a control 
number assigned to it and, if it is not resolved at that level, 
it will move to the next level.
    It will have total transparency, and I will expect my 
service directors, as well as division managers and 
headquarters people, as well as regional people and field 
office management level people to review on a periodic basis 
the results of these controlled items.
    And, if someone still feels that there is reason to not use 
that system, then I don't want them to just use the regular 
safety administrator's hot line but one that clearly comes to 
my attention, and I will pay attention. I can assure you, Mr. 
Chairman, that it will be subject to my review.
    And I want to know if someone still feels that they cannot 
report to their supervisor. It will speak volumes if they have 
to choose to go around it.
    Mr. Oberstar. That is very strong talk, and I appreciate 
hearing it. I want to propose to you, not propose but to tell 
you that I will institute a periodic review, say every six 
weeks, with Mr. Petri, Mr. Costello, Mr. Mica and myself and 
have you come in and your staff and review with us what you 
have done.
    Secondly, I want to point out a shortcoming of these 
hotlines. You may recall the hard landing several years ago of 
an air carrier flying from Tulsa to Kansas City and landed in a 
rainstorm, landed at Tulsa, a hard landing in a rainstorm.
    A ramp check was undertaken. They found no problems, but 
the ramp check was done by a maintenance crew not of the 
airline that had the hard landing and they were inspecting by a 
different standard.
    The aircraft went on to Kansas City. A flight attendant on 
board that aircraft knew that this aircraft was damaged. It was 
vibrating in a way that she knew there was something serious 
wrong.
    She called the FAA in Chicago which was their next stop. 
When that aircraft landed in Chicago, an inspector jumped on 
the aircraft, looked at it and found a six-foot crack and 
grounded the aircraft.
    The next day that flight attendant was removed from duty by 
the airline. They knew who did it.
    Don't let something like that happen to your hotline.
    Now you say the low accident rate reflects success of our 
work, but how can the program be called a success when 1,400 
flights occurred with cracks in the hull of those aircraft? 
That is reducing the margin of safety.
    If you are looking at safety as a system, the system itself 
has cracks and they need to be fixed. I believe you have the 
public spirit to do that, but you are going to have to stand up 
to superiors as well just as those whistleblowers did this 
morning, stood up to their superiors at great risk, being 
removed from position, shifted out of duty, subjected to 
harassment.
    We can't have a situation in which the customer calls the 
FAA, complaining about their service person, Mr. Boutris, to 
get him removed. That is intolerable, and I charge you with the 
responsibility to make sure that never happens again.
    Mr. Sabatini. I accept that responsibility, Mr. Chairman, 
and I can assure you that I welcome review by this Committee 
any time--three weeks, six weeks, any time. I will deliver to 
you changes that will be made as a result of what we have 
learned as a result of this.
    And let me for a moment address what I believe happened. 
What we have in place, because one of the witnesses said that I 
referred to a human risk that we identified. I would like to 
explain. We have processes in place to address how airlines are 
operated. We have a mirror image template so that inspectors 
can use it for the oversight. Those are processes.
    What I feel is one of the risks that have been identified 
is a failure on the part of the human in terms of integrity. 
Humans are very much a part of everything we do, and we are 
putting in place a process that assures that if someone fails 
that integrity test I will find out about it and I will take 
swift and summary action, I can assure you, Mr. Chairman.
    Mr. Oberstar. Thank you. We will hold you to that.
    Mr. Petri?
    Mr. Petri. Thank you very much, Mr. Chairman. I would like 
to begin by asking Inspector General Scovel if he has any 
reactions or comments on the catalog of initiatives that Mr. 
Sabatini has mentioned in his testimony here today as a result 
of reviewing this whole situation.
    Mr. Scovel. Thank you, Mr. Petri. Yes, I would, and I would 
like to address primarily what may be called the newest hot 
line or the newest communication channel. I don't want to 
denigrate it. I don't believe it would be prudent for me to 
preliminarily at this point, without data, cast doubt on any 
new communication channel. To the extent that it may help, even 
if only marginally, as Inspector General I would favor it; 
however, it begs the question, How will complaints similar to 
those raised by the panel this morning be investigated.
    Mr. Sabatini has cast the SURS process as one where 
philosophical differences between inspectors and supervisors or 
different camps within a CMO might raise the question and have 
it resolved, yet I see all kinds of situations, like those that 
our panelists this morning addressed, that will perhaps come to 
Mr. Sabatini and others through the new process. Unless they 
are satisfactorily investigated, we are going to be back in the 
same situation we are today, with an insufficient investigation 
conducted on a catch as catch can basis within the aviation 
safety chain of command, and perhaps therefore suspect from the 
beginning as not being objective.
    What our statement has proposed as an alternative is the 
creation of an independent investigative body still within FAA 
but certainly out of the aviation safety chain of command, so 
it would be removed from under Mr. Sabatini and Mr. Ballough.
    We would suggest that FAA and the Congress consider 
marrying that up with the AOV system, which was created to 
handle safety complaints handled by air traffic controls. That 
was removed from the air traffic control organization and 
placed perhaps ironically under Mr. Sabatini. But in our 
experience with the investigative capabilities of that 
organization, we have been favorably impressed. However, if we 
were to marry the two of these up, we would suggest that it 
report directly at a much higher level than Mr. Sabatini or the 
air traffic organization.
    There was talk earlier today of taking it out from under 
the control of a political appointee, and that would certainly 
be a point to merit consideration, as well.
    Mr. Petri. One practical thing with these hot line or other 
whistleblower, all these procedures, is that they can be 
abused. I mean, they can correct abuses, but they can also be 
used for all kinds of other hidden agendas or because of other 
disputes. So how do you separate the sheep from the goats? It 
seems to me there needs to be some willingness on someone when 
they use that mechanism that they are willing to stand behind. 
I mean, it should be secret. There shouldn't be retaliation. 
But on the other hand, they should be accountable for raising 
this and putting the systems through all this. Otherwise, 
someone like Mr. Sabatini has 101 things he has to rely on his 
team, and the next thing you know they are saying, well, this 
was looked into. So how do you make this work in practice?
    Mr. Scovel. At times it can be very difficult, Mr. Petri. 
As an Inspector General, we have our own hot line, as well, and 
we run into that.
    We have several categories of complaints. We have 
complainants who identify themselves by name and contact 
information, and that is always most helpful because we can get 
back to them and seek to substantiate the basis of the 
complaint. We have other complainants who may identify 
themselves but ask to remain confidential. And, finally, we 
have complaints that are submitted anonymously, and oftentimes 
those are the most problematic. They may lack detail and, 
because we don't even have a name or any way to contact the 
submitter, we are often at a loss.
    In fact, the situation that you identified happened in this 
very case with regard to Mr. Boutris. You will remember from 
this morning that it was the PMI who identified to Mr. Mills 
that an anonymous complaint from Southwest had been submitted 
against Mr. Boutris, and in partial response to that Mr. 
Boutris was removed from his inspector duties for a period of 
five months.
    We have examined that particular complaint, and in my 
opinion as a former prosecutor and judge, and in the opinion of 
our investigators on my staff, we consider it baseless. There 
would have been good reason for FAA at the time not to have 
removed Mr. Boutris from his duties. The complaint was 
anonymous, it was non-specific, it related to supposed actions 
that had no connection to Mr. Boutris' performance of duties. I 
don't think any reasonable person after performing that kind of 
scratch and sniff test would have questioned FAA if they had 
decided to leave a competent, dedicated inspector like Mr. 
Boutris on the job. Instead, they took him off.
    It is very much a problem. What do you do? How do you sort 
it out? All I can say is we apply common sense, good 
investigative expertise, and take it case-by-case.
    Mr. Costello. [Presiding]. The Chair thanks the gentleman.
    Mr. Sabatini, tell us the current employment status of Mr. 
Gawadzinski, just very briefly. I have several questions that I 
want to ask, so be as brief as possible.
    Mr. Sabatini. Mr. Gawadzinski is currently still employed. 
He has been removed from his duties as a supervisory principal 
maintenance inspector and has been placed in another office, 
still in the Dallas area, where he has been relieved of any 
responsibilities related to safety inspector duties.
    Mr. Costello. Under the rules of the Department, could you 
have suspended him with or without pay and relieved him of his 
duties under suspension?
    Mr. Sabatini. As you know, Mr. Chairman, there are definite 
rules on what we need to do to put this case together.
    Mr. Costello. That is my question. My question is, Could 
you have suspended him with or without pay?
    Mr. Sabatini. Not at this point in time, sir. This 
investigation is still open, and we want to gather all the 
evidence. The Office of the Inspector General is still 
conducting its investigation, and when that is complete I will 
have all the information I need to apply the full measure of 
the law.
    Mr. Costello. Is he the only employee at the FAA that 
disciplinary action was taken against thus far?
    Mr. Sabatini. Thus far. That is correct, sir.
    Mr. Costello. And you heard the testimony of the 
whistleblowers. You heard the testimony of the IG, the Special 
Counsel. Surely you do not believe at this point that all of 
this falls on one employee at the FAA, do you?
    Mr. Sabatini. No, sir, I do not believe that it is just one 
employee.
    Mr. Costello. I would like you to elaborate on that.
    Mr. Sabatini. Well, I believe that there was a failure on 
the part of the leadership in the southwest region.
    Mr. Costello. In the southwest region?
    Mr. Sabatini. Yes, sir.
    Mr. Costello. Let's get to the point. We know that back in 
2003 through 2005 Mr. Boutris complained and said, Look, we 
know that there is compliance issues, and he raised those 
issues back as far as 2003. When did these issues reach your 
office headquarters in Washington, D.C.? When did you, not 
personally, but your office, become aware that issues have been 
raised concerning the CMO with Southwest?
    Mr. Sabatini. May of 2007.
    Mr. Costello. May, 2007?
    Mr. Sabatini. Yes.
    Mr. Costello. And when did you personally become aware of 
the issues, the safety issues that were raised by both Mr. 
Boutris and others?
    Mr. Sabatini. Several months thereafter. I don't have an 
exact date, sir.
    Mr. Costello. So May of 2007 is when your office became 
aware of it, and you became aware of it several months 
thereafter? Why did it take so long for the FAA to take action 
either against one of your employees or assess the fine against 
Southwest? And it has been noted by the Chairman and others 
that the action was taken after this Committee started its 
investigation. So the question is, If you were aware of these 
issues back in your office in May of 2007, why did it take this 
Committee to get involved to begin an investigation for your 
agency to act against the airline and your employee S?
    Mr. Sabatini. Well, Mr. Chairman, as I have looked at the 
data and what I have come to understand about this, for about 
two-and-a-half years before the disclosure there were many 
activities that were undertaken by the leadership in the FAA's 
southwest region.
    Now, I can tell you, Mr. Chairman, I have been a division 
manager. This is not theory to me. I practiced for ten years as 
a division manager. In looking at what happened, the division 
manager in the flight standards division in the southwest 
region, elected to give the information he received in his 
office, and some time in early April, the investigation was 
turned over to the security division, which is separate and 
apart from my organization. It would result, in essence, in 
being a third-party review.
    What I would have done differently was to not hand over the 
enforcement aspect of that investigation. What they had asked 
security to look at was the investigation of the impropriety of 
the individual supervisory principal maintenance inspector. I 
would have separated that out. We have the sole responsibility 
for the enforcement action and that should have been started 
immediately.
    However, there were several months where the security 
division conducted its investigation, and it was during that 
period of time that both the results of the impropriety on 
behalf of an employee was investigated, as well as a slow 
review_I don't think it was intentionally slow_review of the 
enforcement process.
    Mr. Costello. You heard the testimony of, again, the 
whistleblowers. You heard the testimony of the IG and the 
special counsel regarding this CMT and the concern, Is this a 
systematic problem or is it isolated? I want you to comment on 
that.
    Mr. Sabatini. Mr. Chairman, while evidence has not been 
given to me, although I asked for it, I have been told evidence 
doesn't exist to document the fact that this is systemic. What 
I have been told is that it could potentially be systemic, and 
I take that very seriously.
    So, while the evidence exists for the southwest region, I 
take that as a lesson learned and put in place what I have 
begun to describe in terms of the safety information recording 
system to assure that this doesn't happen anywhere else.
    Mr. Costello. I will have other questions after other 
Members have an opportunity to ask.
    The Chairman now recognizes the gentlemen from Oregon, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Let's go back to what I think is partially the root of this 
whole problem, which is the erosion of the mandate which we 
reset in 1996 to exclusively focus on safety to this customer 
service initiative, where regulated airlines became clients, 
which obviously is causing tremendous confusion among people 
who are supposed to be inspecting and regulating them.
    Who initiated the customer service initiative? Where did 
that come from? Mr. Ballough, you are a political appointee. 
The first time I heard about it was a Secretary at a speech, 
but where did this come from? Who wrote it?
    Mr. Ballough. The customer service initiative, sir, was an 
AVS effort with all of the lines of business, all directors, 
from the respect of services in the AVS organization.
    Mr. DeFazio. Well, you are using the language in all the 
lines of business.
    Mr. Ballough. Excuse me, sir. Let me clarify.
    Mr. DeFazio. You are a Government agency.
    Mr. Ballough. Yes.
    Mr. DeFazio. And you are supposed to be regulating in the 
public interest for public safety, and the law very clear in 
1996.
    Mr. Ballough. Yes.
    Mr. DeFazio. So could we address it as a Government agency, 
please.
    Mr. Ballough. Yes. The Agency took this initiative to 
address concerns and articulate rights for the industry, 
whoever they may be. It was intended to elevate a question, to 
get a right to an answer to a question that they would pose to 
us.
    Mr. DeFazio. So the industry complained to whom? Was this 
initiated at the Secretary's level? At the White House level? 
Or did professional employees other than politicals come and 
say, We need this customer service initiative? Are you telling 
me it was professional employees?
    Mr. Ballough. This was in our safety organization, sir.
    Mr. DeFazio. So the safety organization, line employees, at 
what level? Since you are saying it was within the organization 
and it was professionally generated, do you want to tell me 
about this, Mr. Sabatini? Where did this come from?
    Mr. Sabatini. Well, Mr. DeFazio, first let me say Jim 
Ballough is not a political appointee, he is a career service 
employee.
    Mr. DeFazio. I am sorry. I forgot. I thought he was 
political.
    Mr. Sabatini. Sir, I would like----
    Mr. DeFazio. He came from here working for Republican 
staff, so I thought he was political. I am sorry.
    Mr. Sabatini. So let's go back to the early 1990s, where 
industry came in and complained to Congress that there was a 
lack of responsiveness on the part of the FAA, who was heavy 
handed in how they were treating the air carrier industry. As a 
result of that, there was legislation creating_and it exists 
today_a Management Advisory Council, which is the MAC, and it 
is part of the mechanism that was put in place to improve the 
FAA and force us to listen to the concerns that business people 
have at that high level so that we can be responsive.
    The customer service initiative has been taken totally out 
of what it was intended to be. The customer service initiative, 
sir, is to treat anyone, whether it is a student pilot or a 
private pilot or an applicant for any one of our certificates, 
in a respectful, professional, courteous manner.
    Mr. DeFazio. Right. I can understand that, but the question 
is it seems like this leans very far in the direction of where 
the airlines, companies worth tens of billions of dollars with 
tens of thousands of employees, become clients of individual 
inspectors. Clients?
    Mr. Sabatini. Mr. DeFazio, let me say----
    Mr. DeFazio. I mean, we seem to have a little confusion 
here. You heard from these people earlier. I do apologize, I 
was confusing Mr. Ballough with Mr. Ballough, who is a 
political appointee. Sorry. I apologize for that. It is spelled 
differently, too.
    Mr. Sabatini. The customer service initiative was never 
intended for anyone in our organization, in our safety 
organization, to ever start referring to people as clients. I 
heard that for the first time today, sir. That is unacceptable.
    What I am hearing is that we are going to re-calibrate and 
make certain that we are, in fact, not abandoning enforcement, 
that enforcement is part of our tools. That is part of how we 
gain compliance.
    What you said earlier this morning, Mr. Chairman, it is not 
just compliance with the rules. That is an absolute. It is also 
operating at the highest levels of safety day in and day out. 
That is what we strive for.
    Mr. DeFazio. But, as you can understand, Mr. Sabatini, 
given the peculiar bent of this Administration to being, you 
know, rabidly anti-regulatory, it seems that somehow at some 
point to line employees the airlines became clients. I just 
wonder where that came from.
    Mr. Sabatini. Sir, I am the career senior safety officer in 
the FAA. I can tell you this: no one ever instructed me to 
treat entities differently than what they are in the 
regulations, and that is they are applicants. They are air 
carriers with the responsibility to comply with the rules. I 
was never challenged on safety decisions. So I take that 
responsibility and I also take the responsibility that we are 
going to re-calibrate this misunderstanding, because clearly 
there was a misunderstanding from what I heard today from the 
witnesses. And let me add I consider Mr. Boutris a hero and I 
commend him for coming forward, for having the integrity to 
come forward and the courage to do that.
    Mr. DeFazio. Because a lot of the emphasis in this and 
materials provided, particularly the flow chart for how one 
would file a complaint and where it would go, it really seems 
to me that we sent out the wrong message here. I am just trying 
to get at whether this is totally inadvertent or whether we 
have political pressure applied here, as everywhere else in the 
Bush Administration where they are saying we don't regulate, 
markets will regulate. God, no one would fly an airplane that 
was unsafe, because that would be bad for business when it 
crashes. Markets can regulate themselves, just like Wall Street 
just did.
    I am feeling like we are coming in sort of a situation here 
that is similar. Somehow this thing became perverted at the 
application level, at least in one region, and I fear in many 
more. And we are hearing from the IG he thinks the same thing.
    Mr. Sabatini. Well, sir, I believe that it is inadvertent.
    Mr. DeFazio. You believe it is inadvertent. I am glad to 
hear that, but I still will have questions.
    Mr. Chairman, I am over my time. I will have more questions 
in another round.
    Mr. Costello. Ms. Johnson?
    Ms. Johnson. Thank you, Mr. Chairman.
    I would like to pose this question to whomever, I guess the 
chief safety person. At what point was Southwest Airlines 
notified of the discrepancies in safety?
    Mr. Sabatini. They are the ones who discovered it.
    Ms. Johnson. But I hear you talking about a $10 million 
fine. What is your justification?
    Mr. Sabatini. Well, prior to their time where they 
disclosed a possible noncompliance with the airworthiness 
directive, they had flown those airplanes for an extended 
period of time on thousands and thousands of flights.
    Ms. Johnson. With no paper trail of you telling them that 
that is not safe enough?
    Mr. Sabatini. Well, it is the responsibility of the air 
carrier for them to comply with the rules. The FAA----
    Ms. Johnson. I understand that, but you have inspectors to 
notify them when they are not in compliance, don't you?
    Mr. Sabatini. Well, when we discover noncompliance we do 
that.
    Ms. Johnson. But you had to wait for them to tell you about 
the problems they were having?
    Mr. Sabatini. Well, I would characterize it as we were 
informed, and when we were the people responsible in the FAA 
for taking swift and summary action and putting those aircraft 
on the ground failed to do that. During that period of time 
between notifying the FAA until the time that they did get 
those airplanes into compliance, they operated roughly 1,400 
flights. The penalty is based on a calculation that is a 
formula that is in our Compliance and Enforcement Handbook. It 
is not an arbitrary or capricious figure. It is set in 
guidance.
    Ms. Johnson. Okay. I am still having difficulty 
understanding that they are the ones who notified you. Where 
was your responsibility?
    Mr. Sabatini. Our responsibility_and it should have been 
discharged by the supervisory principal maintenance inspector 
was to say you cannot continue to operate those airplanes in 
noncompliance.
    Ms. Johnson. And did that happen?
    Mr. Sabatini. No, it did not, ma'am.
    Ms. Johnson. What happened to that person?
    Mr. Sabatini. Well, that person has now been removed from 
that position--is still employed by the FAA. The investigation 
continues--and has been removed from any safety inspector 
duties.
    Ms. Johnson. No fine?
    Mr. Sabatini. Well, we are continuing the investigation, 
and I can assure you, Ms. Johnson, that I will take the full 
measure of the law and apply it.
    Ms. Johnson. Okay. Thank you very much.
    Mr. Costello. I wonder if the gentlelady will yield?
    Ms. Johnson. I will yield.
    Mr. Costello. I thank the gentlelady.
    Mr. Sabatini, let me follow up on that question and a 
question I asked about the disciplinary action that was taken. 
You said that you removed the employee and assigned him to 
other responsibilities that are not related to safety; is that 
correct?
    Mr. Sabatini. That is true, sir.
    Mr. Costello. I am told that he is now auditing the office 
at Dallas Fort Worth and he is participating or supervising an 
AFS pre-audit. Is that correct? As we speak, that is exactly 
what he is doing?
    Mr. Sabatini. That should not be what is happening. If I 
may, I would like to ask Mr. Stuckey to address that.
    Mr. Stuckey. Mr. Costello, when he was removed from the 
Southwest CMO he was placed in a position where he had no 
inspector duties, and his duties for the last year have been 
preparing an office for an external flight standards audit. He 
is looking at office files. He is reviewing manuals within the 
office. He is checking compliance within the office of their 
processes and procedures, but no inspector duties. And he has 
not done any inspector duties since he was moved.
    Mr. Costello. But he is participating in this pre-audit; is 
that correct?
    Mr. Stuckey. He is helping to rewrite manuals and check 
files and do administrative work.
    Mr. Costello. And under the current rules within the FAA, 
Mr. Sabatini, how long will it take to go through due process 
so that the Agency can reach a conclusion as to his future?
    Mr. Sabatini. The Office of the Inspector General is going 
to conclude its investigation, and when that is done we will 
put that entire package together and we will----
    Ms. Johnson. Reclaiming my time for one second, is he being 
paid?
    Mr. Sabatini. Yes, ma'am.
    Mr. Costello. What do you have to do to get fired there?
    Mr. Sabatini. Ma'am, you know we are so lucky to live in 
these United States. Every single person has rights, no matter 
what the charge may be, and this County affords that right to 
whoever that person may be.
    Ms. Johnson. Yes, but it seems to me that if this person 
was responsible for allowing the condition to go on without 
taking a positive step to do anything about it, and that was 
his responsibility, in any other job there would be some kind 
of disciplinary action. If it was somebody in my office, they 
would be fired. So that is my point. I don't understand why he 
is okay and the airline is being fined.
    Mr. Sabatini. Well, the results of the investigation may 
support that he is other than okay.
    Mr. Scovel. Ms. Johnson, if I may?
    Ms. Johnson. Yes.
    Mr. Scovel. Let me shed a little bit of light. Mr. Sabatini 
has referred to the OIG's report, which will help FAA make up 
its mind in this particular case regarding the PMI. Three weeks 
ago FAA contacted my office and indicated that they were 
contemplating a personnel action against the PMI, which 
consisted of a reduction of two pay grades and a reassignment. 
I spoke with Mr. Sabatini on the telephone and advised him, of 
course, that whatever personnel actions would ultimately be 
taken were within FAA's purview. They are not the IG's. We are 
not judge, jury, and executioner.
    Ms. Johnson. Sure.
    Mr. Scovel. But before the Agency took an action that some 
might view as premature and overly lenient, that it would 
certainly be helpful to the Agency to have all the facts.
    It is my understanding, based on that, that FAA has, 
indeed, held up. At that time we were working on information 
concerning the PMI's approval of voluntary self-disclosure 
submitted by Southwest in other instances than the one we are 
talking about here today. That would certainly be information 
perhaps that the Agency would want to consider in this case 
where dereliction of duty would be the primary charge.
    Another concern that I expressed to Mr. Sabatini at the 
time was that the PMI be taken completely out of the safety 
decision-making loop. As Mr. Sabatini has reported today, that 
certainly has happened. We want to commend the Agency for that.
    This week we have had further contact with FAA, and my 
staff has informed FAA that, of course, at any time if they 
believe they have sufficient evidence to fire him they can do 
that. Of course, what they want to do was make it stick. I 
thank them for their confidence in the IG's report. If they 
believe that that is what will be necessary in order to make 
the personnel action stick, then we will get it done as soon as 
we can and turn it over to them so they can take their action.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I would observe that, while the question the 
gentlewoman from Texas, our Chair of the Water Resource 
Subcommittee, may have sounded harsh, it comes from a woman who 
in the private sector owned and managed six businesses. I think 
she brings a very different judgment and perspective to bear.
    I wanted to return just a moment, Mr. Sabatini, to Mr. 
Gawadzinski. Can you state unequivocally that Mr. Gawadzinski 
is not in a position to undertake inspections, to do oversight 
of carrier maintenance; that he is not engaged in any such 
action?
    Mr. Sabatini. I have been assured that that is the case, 
sir. I would ask Jim and Tom to confirm that for me.
    Mr. Ballough. Mr. Chairman, it is certainly my 
understanding, being the Director of the Flight Standards 
Service, that he is not doing inspector duties at this time.
    Mr. Oberstar. I have information to the contrary, and I 
think you had better take a closer look.
    Mr. Cummings, the Chair of the Coast Guard Subcommittee?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Sabatini, I am sitting here and I have been listening 
to you and I have been watching you. I have got to say, when 
Ms. Johnson asked the question about the firing of this 
particular person, your reaction seemed like, just watching 
you, how can we do that, this person has rights.
    Let me tell you something: the flying public has rights, 
too. The flying public has rights, and you have used some 
wonderful words here. You know, they have been very nice. You 
want to operate under a culture of safety. We want to do 
everything in our power to make sure that we have the highest 
level of safety day in and day out, but, you know, let me tell 
you what, I guess as a lawyer and one who has tried a lot of 
cases: something doesn't smell right here. I am just telling 
you, it sounds like we are trying to boil down this thing to 
maybe one person. I know the investigation continues, but it 
seems like there are some other people that are probably 
responsible. I don't know how high up it goes, but I will tell 
you one thing: if I were in charge of a department and I had a 
situation where these flights went out and the flying public 
had established a trust--there is a book written by Covey that 
is entitled, The Speed of Trust. The public, when we get on 
this airplanes, all those people out here, I bet you every one 
of them have flown on an airplane within the last month. But 
when we get on an airplane, but when we get on an airplane we 
trust that the people that we pay with our tax dollars are 
doing what they say they are going to do.
    We don't expect, for example, a doctor, if he is going to 
operate on our heart, to party all night and then at 5:00 come 
home and then do the operation at 6:00. There is a certain 
level of trust.
    I am just trying to figure out, does the buck stop with 
you? Do you take responsibility for this, since you are the top 
safety guy?
    Mr. Sabatini. Absolutely, Mr. Cummings. I take complete 
responsibility for this, and I am going to take action to 
address what we learned here.
    Mr. Cummings. Now, you said today that you have learned 
some things just today that you didn't know; is that right?
    Mr. Sabatini. Yes.
    Mr. Cummings. You have said that several times. What is the 
most significant thing that you learned today that you did not 
know before today?
    Mr. Sabatini. If I may, I would like to put it in context.
    Mr. Cummings. That is fine, but, you know, the Chairman 
just said something. Apparently you didn't know that. He said 
that he had some information that somebody, this particular 
person, is still doing certain types of duties. You and Mr. 
Stuckey--is the immediate supervisor the person that Mr. 
Oberstar was talking about? You are in charge of that region, 
right?
    Mr. Stuckey. Yes, sir, I am the regional manager, but not 
Doug Gawadzinski's supervisor.
    Mr. Cummings. Okay. Well, I guess what I am getting at, I 
want to make sure that the information is flowing, because 
apparently something is missing here.
    Anyway, Mr. Sabatini, I would love to hear what you have to 
say.
    Mr. Sabatini. My entire life has been in public service. I 
have been a police officer in the city of New York for 20 
years. I know police work and I know law enforcement. I learned 
aviation and I have spent four decades in aviation safety. I am 
absolutely committed to aviation safety. I am second to none 
when it comes to aviation safety, I can assure you, sir. And I 
take responsibility for what happened in my organization, and I 
will take what I have learned and correct that.
    A couple of things have been learned. One, as an inspector 
it was absolute, Safety 101, you do not allow noncompliance. 
You will enforce the law. Obviously, there are some who thought 
otherwise. I am going to deal with those people, but I must do 
it--as a lawyer you know, Mr. Cummings, I must operate within 
the law.
    Mr. Cummings. I do, but I want to make sure you get 
everybody up the line or down the line. Everybody.
    Mr. Sabatini. Up and down.
    Mr. Cummings. La-de-da and everybody who may be 
responsible.
    Mr. Sabatini. I will address that, Mr. Cummings, 
absolutely.
    Mr. Cummings. My time is running out, but I want to ask you 
another question. Mr. Scovel talked about this whistleblower 
hot line, for lack of a better term. He seems to think that his 
recommendation is a better one than what is going on here. Can 
you just react to what he said about whistleblowers, because he 
makes a very good point. If somebody is calling and it is not 
being reacted to properly, what difference does it make? As a 
matter of fact, it is probably worse, because then the person 
is subject to all kinds of repercussions.
    I just wanted you to comment on what he said, because that 
sounds like it makes sense. Since you said what you just said--
you are very concerned about safety--and I believe you, I 
really do--I want to make sure we have the best system possible 
so that whistleblowers can come forward.
    Mr. Sabatini. Well, I believe that the process that we are 
putting in place will allow everyone the opportunity to bring 
forward their concerns. I also welcome the involvement of the 
Office of the Inspector General. They are welcome to review 
what I do as we speak today. But I would encourage even more 
scrutiny on this particular subject.
    I will be happy to work with this Committee, your staff, 
and with the Inspector General.
    Mr. Cummings. He has already said your system is not going 
to be the most effective and efficient system. He has already 
said that.
    Am I right, Mr. Scovel?
    Mr. Scovel. That is correct, sir, without a proper 
investigative body.
    Mr. Cummings. So all I am saying to you is why not, since 
you are concerned, as you are, about everything operating 
properly, and you just gave a wonderful statement about your 20 
years, and here is this man who says your system is not going 
to be the most effective and efficient one, and since all of 
this goes to safety, why not say let's go with you, Mr. Scovel?
    Mr. Sabatini. Well, I think maybe I didn't make myself 
clear.
    Mr. Cummings. No, you didn't.
    Mr. Sabatini. I am willing to work with the Inspector 
General and take in whatever his recommendation may mean, and 
how do we----
    Mr. Cummings. And put it in place?
    Mr. Sabatini. Absolutely.
    Mr. Cummings. All right. Thank you.
    Mr. Oberstar. I thank the gentlemen.
    Mr. Carney?
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Scovel, Mr. Sabatini, I will come back to the question 
I asked in the earlier panel. We have seen the grounding of a 
lot of aircraft lately. Why do you think that is, in the last 
few days? What do you attribute that to? Mr. Scovel?
    Mr. Scovel. Let me take a stab. I think carriers are gun-
shy right now. I think they see FAA waking up after this 
incident last year. There has been a lot of publicity. The 
Committee has certain made known its intent to hold this 
hearing. FAA properly recognizes that AD compliance is a 
vulnerability.
    We have identified that with Southwest the key ATOS 
inspection of its AD compliance system hadn't taken place since 
1999. Southwest was certainly vulnerable. They got burned last 
year. Other carriers now have seen what has happened. They are 
feeling some of the heat. They are seeing the sunshine that is 
coming in to this and they are taking all steps that they 
possibly can to comply, even down to the letter. There have 
been media reports of carriers with their MD-80s, MD-88s 
measuring the spacing of their wiring bundles down to a quarter 
of an inch. Great, because if that is what the AD requires, 
that is what the carriers ought to be doing and that is what 
the inspectors ought to be checking.
    The Chairman earlier ran down a partial list. Probably it 
was the whole list. I have only got a partial list of the 
groundings lately. Starting with Southwest on March 13th and up 
through United yesterday with its Boeing 777s, my count stands 
at 565 aircraft. I didn't bother to count up the number of 
flights and the number of passengers affected. Tens of 
thousands. It is a serious matter.
    Mr. Carney. Were reports suppressed? Did management 
suppress some of these reports or have the airlines quietly 
sort of self disclosed things, too?
    Mr. Scovel. Well, they certainly did at Southwest. We 
absolutely have evidence of that. I hoped during the break 
before my panel came forward that you all received a copy of an 
extract from our written statement. It is a timeline showing 
Southwest's aging aircraft AD violations. It is the one 
attached to that. That is the timeline of the March 2007 
incident. It is the one right behind it.
    You can see from December 2006, where we had earliest 
access to the data, up through March 2007 and even continuing 
into this year, Southwest has had problems with these 
violations.
    We don't know what may be happening at other carriers. I 
would expect and welcome and invite this Committee's request to 
my office to continue on these lines and find out what has been 
happening in the voluntary disclosure reporting program 
industry-wide. We already have an audit underway to investigate 
the ASAP program, which is another partnership program of FAA.
    Mr. Carney. I certainly think everybody on this Committee 
would welcome that information.
    Mr. Sabatini, can you answer that?
    Mr. Scovel. That request will be forthcoming.
    Mr. Sabatini. What we discovered is that an airworthiness 
directive is a very complex instruction, and, again, a lesson 
learned here is that in the future, when we issue airworthiness 
directives, we are going to make certain, by working with the 
manufacturers and the operators, to make sure that the language 
is clear and understandable and essentially in plain language, 
plain English, so that it can be executed without difficulty.
    I must tell you, sir, that of the almost 2,400 inspections 
that we have done, we found that 99 percent of the system was 
in compliance, full compliance. That 1 percent represents 
events like there was one carrier, because they had a low 
utilization of an aircraft, the airworthiness directive was not 
yet due, not due until 2028, yet they were in technical 
noncompliance with the AD because they had not submitted their 
plan on how they were going to implement the AD.
    There were others. You heard about American Airlines and 
Delta and the MD-80. Again, the AD requires precision and the 
accuracy in order to be complied with. In this case, what we 
were finding is that wire bundles that ran along a particular 
part we will call the wheel well, where the landing gear 
retracts, that this wire bundle was not fastened against the 
bulkhead every one inch as specified by the airworthiness 
directive. So they took the most prudent action. They put the 
aircraft on the ground. Other cases were very similar to that.
    Mr. Carney. Mr. Scovel, are you concerned that the FAA does 
not have appropriate quality control mechanisms to maintain its 
oversight for reasons of the CMO?
    Mr. Scovel. We are concerned. In fact, I am not sure 
whether it was the Chairman or Mr. Costello or perhaps Mr. 
DeFazio who was asking if all of this was happening at the 
Southwest CMO, who else knew about it or who else should have 
known about it. Those kind of quality control mechanisms, 
knowledge up the chain of command, should be in place.
    When we are talking specifically about voluntary disclosure 
programs, for instance, it is our understanding that there is 
no reporting requirement up the chain to gain some insight into 
how a particular CMO may be carrying out its duties on the 
voluntary disclosure reporting program.
    We do know for a fact that the data that is supposedly 
being collected through the ASAP, which is another partnership 
program, self-disclosure program, that FAA and other aviation 
safety experts don't always have access to that data.
    So while the intent of the program is to obtain information 
that may not otherwise be available, it is useless unless the 
data is collected and made available and subsequently analyzed.
    Mr. Carney. Are we going to fix that?
    Mr. Sabatini. Yes, sir. Absolutely. As a matter of fact, I 
will ask Jim Ballough to tell you what it is that we have 
underway as we speak.
    Mr. Ballough. In terms of the data analysis, we recently 
released a new version of our ATOS--Air Transportation 
Oversight System--and it was called version 1.2. A part of that 
is the national role of ATOS inspections so that we can give 
ourselves that red, green, yellow light look at how many 
completions we have in terms of surveillance and oversight of 
our programs. That is one aspect of it.
    In terms of the voluntary programs, voluntary disclosure, 
ASAP programs, we have had, as you heard in the earlier panel 
today, we have the national info share programs that brings the 
member organizations that participate in those programs 
together and shares information from a safety perspective.
    What we haven't done a good job at, and what we are in the 
process of modifying, is the notion of making that data 
available to those who actually need it to make safety 
decisions. That is a piece of it that we have yet to work on 
and finish. It will migrate, as Nick said earlier, into the 
data analysis program in the future. But we have some interim 
steps that we can take.
    In terms of integrity of the voluntary disclosure program, 
you know, the IG made some very good recommendations to us and 
we thank him for that, and we will review those recommendations 
and we will put them in place.
    What we learned from this Southwest incident or enforcement 
is this: number one, we feel that senior leadership at the 
airline must know that a disclosure has been filed and they 
should be aware of it. That will be implemented in our guidance 
material.
    The additional piece of that, back in the paper system 
before we went to a web-based voluntary disclosure program, the 
office manager had to sign off on every file. You heard that 
earlier today, a recommendation. That will be put back in place 
as well, sir.
    And then ultimately an analysis of the voluntary disclosure 
program so that everybody can learn, one airline to another can 
learn what we are learning out of this system.
    We think that these initiatives to strengthen the voluntary 
disclosure program will go a long way to put measures in place 
so that we don't have a recurrence of this.
    Mr. Carney. Well, hopefully from one airline to another and 
one region to another, and I hope the ATOS 1.21 has flashlights 
and screwdrivers involved with it, where they are actually 
crawling through the aircraft.
    Mr. Ballough. Mr. Carney, I can assure you we do a number 
of on-aircraft inspections, as well.
    Mr. Carney. Very good.
    I have grossly violated my time. You are very generous, Mr. 
Chairman. Thank you.
    Mr. Oberstar. Ms. Richardson?
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    First of all I have one question and four comments. The 
question is to Mr. Stuckey.
    We have seen documents that were sent to you alleging 
repeatedly that your SPMI was frequently reducing letters of 
investigation to simple letters of correction. Didn't that 
cause some alarm bells to go off in your mind? We haven't seen 
any evidence to indicate that it did. What were you doing?
    Mr. Stuckey. Ms. Richardson, that is correct. We had 
received a report in the fall of 2005 that Doug Gawadzinski was 
issuing letters of concern instead of letters of investigation. 
As was pointed out by the panel this morning, letters of 
concern don't really have any application in our compliance and 
enforcement program.
    The importance of using letters of investigation is that 
they get into our system and we can track them. That was 
brought to the region's attention in, I believe, September or 
November of 2005. We asked for an independent review of that, 
and we took two assistant managers from another office assigned 
to Continental Airlines who basically validated that yes, out 
of, I think, twenty-nine letters of concern, at least I think 
four or five of those should have been letters of 
investigation.
    At that time it was communicated to Mike Mills, office 
manager, and then later to the supervisory principal 
maintenance inspector that he should stop that practice. That 
is not appropriate. The practice is not consistent with Agency 
policy.
    Ms. Richardson. Well, now I will get into my comments, and 
I will direct them to Mr. Sabatini.
    A couple of things. First of all, it disturbs me to hear 
you kind of off-the-cuff refer to low accident rates, 1 
percent. In five minutes I am going to be leaving here to get 
on a plane, and I am not very thrilled at this moment. I think 
if the American public really all understood clearly what we 
were discussing here today, I think a lot of people would not 
be.
    In the business of public safety, as you said you are an 
expert of, we are not held to the same standards of people who 
manufacture pencils. We have people's lives in our hands and we 
are expected to perform at 100 percent rate, not at 99. The 99 
is not acceptable, because our failure to perform may cost 
major life, which is not acceptable for us to think 99 percent 
is okay.
    I will tell you my background. I worked in corporate 
America for 14 years. I have a master's in business. I would 
strongly recommend--you talked a lot about your public safety 
background. I would recommend going back and doing a little 
business work. Let me tell you what I mean by that. And I mean 
no disrespect, but I think we have to speak frankly here.
    In the world of business school, this is a clear failure, 
as has been said, of quality control. Clear failure. There must 
be ongoing sampling, as there is in any industry. This should 
not be viewed as bureaucratic Government, anything like that. 
When you were talking about maintenance, sampling must occur on 
an ongoing basis at every single level. When you have a lack of 
independent review and you are not properly monitoring and 
validating, you are going to have problems like this.
    I don't understand, for the years that this has been done, 
why this has not been caught.
    Let me leave with my last point. I am really frustrated, 
because you mentioned this was a failure of humans. I disagree 
with you, with a business background. This was not a failure of 
humans. A failure of humans is one individual who fails to 
complete a report appropriately in 2005, who makes a mess up 
and is addressed. What we see here, a pattern of several years 
of lack of proper monitoring, validating, and really correction 
I don't think is a problem of humans; I call it a problem of 
process and management, which all of you here are responsible 
for.
    This is not just limited, as has been said by many of my 
colleagues, of the one person back there. To me the problem is 
right here, because it is ultimately your responsibility.
    When I hear Congressman Cummings ask you do you know if 
this person is still working, and you say it has been said to 
me, you know, in the business world what we do, it was your 
responsibility to go physically and to ensure. I don't care how 
busy you are; you are not so busy that when we have planes 
flying around with inches thick of leaks and all these other 
things going on, it is your responsibility to get out of the 
office and to get on the ground. That is my expectation, and I 
think the public's expectation that you would do immediately.
    So as I would close I will say to you that this has really 
risen to the threshold that I think it is beyond the reports 
and the headlines that we will see tomorrow. I think you owe 
the public an acknowledgment of exactly what happened and 
exactly what you intend to do.
    We can talk all day long about the programs and processes 
that you are going to put in place, but I will kind of break it 
down really simple now, since we have talked about the business 
side. You are lacking some hall monitors. You need people in 
the halls making sure that people and the things that are 
supposed to happen, of all these great things that you said 
that they are going to do, all that is is another report this 
thick for someone to read once a year. We need action. We need 
people on the ground. And we need true monitoring and 
validation. Anything less than that is unacceptable to the 
American people.
    Now I am going to put my life in your hands, unfortunately, 
and say a prayer as I hop on this flight. We are, 
unfortunately, working the angels overtime, and I hope that you 
would do a better job of protecting all of us.
    Thank you.
    Mr. Oberstar. I thank the gentlewoman.
    Mr. Petri?
    Mr. Petri. Just to put things in context, I would rather 
put it a little more positively. We want you to keep on batting 
1000. We have gone four years. I think it was pointed out at 
the beginning that 200,000 people have died on the highway and 
zero have died during that same period of time in airline 
crashes and airplanes. So if you are worried about going home, 
fly. But that is not saying it is perfect and it is not saying 
that things couldn't be a lot better.
    You have done so well, and the last thing we want to do is 
to start slipping down on the job or getting cozy arrangements 
that then end up with loss of life, and so we want to celebrate 
success. It is fantastic. It is unprecedented in world history, 
I think. But we at the same time don't want to rest on our 
laurels. We want to continue to keep on doing even better.
    One other quick question. I will submit other questions for 
the record. I am sure there is an explanation for it. I don't 
know that it has been made part of the record. We have this 
organization chart of your Agency from Mr. Sabatini all the way 
down, and the aviation safety inspectors, supervisor. Principal 
Maintenance Inspector Douglas Gawadzinski has been mentioned 
often. He has not been here. I think there should be some 
reason why.
    And then the other issues I would like to ask Mr. Scovel if 
there have been comments that Mr. Gawadzinski was talking to 
people at headquarters or this or that. Did you uncover or did 
you discover any of that, or was he basically speaking without 
authority, so to speak?
    Mr. Scovel. Mr. Petri, it is our understanding that, in 
fact, he did know officials at FAA headquarters. To the extent 
he is embellishing his relationship with them so he could puff 
himself up in the eyes of colleagues down in the Southwest CMO, 
that appears certainly to have been happening, as well.
    Mr. Petri. Any of you like to respond? Mr. Sabatini? I 
think both of your names have been mentioned. Mr. Stuckey?
    Mr. Ballough. Yes, Mr. Petri, thank you very much for the 
opportunity. Yes, it is true. I know Doug Gawadzinski, just 
like I know a lot of my workforce. I spend a lot of time on the 
road to interact with those folks. Mr. Gawadzinski came to New 
York when Nick and I were in New York together and spent 90 
days on a detail. He then went back to the southwest region. 
Since 2001, when I became the Director of Flight Standards 
Service, I have talked to him or seen him a very limited number 
of times. Certainly the portrayal today of daily conversations 
with Mr. Gawadzinski or the inference by the management in the 
Southwest CMO that I somehow had some kind of relationship with 
Mr. Gawadzinski is just not factual, sir.
    I state for the record that I have been absolutely 
consistent, from the day I became the Director of this 
organization and went out and talked to the field. I attend 
every management team meeting at the regions and speak to the 
supervisory ranks as well as at offices. I have been absolutely 
consistent for the last seven years that I expect, number one, 
standardization; number two, that following national policy is 
paramount for me. It always has been. So this notion that he 
had somehow had some dispensation from following national 
policy is a fabrication.
    Mr. Petri. Thank you, sir.
    Mr. Oberstar. Now, Mr. Sabatini, you knew on July 12, 2007, 
of the incidents at Southwest. A report was completed, correct?
    Mr. Sabatini. I am not sure of the exact date, sir, but 
certainly----
    Mr. Oberstar. In July?
    Mr. Sabatini. In that time frame. That would be correct.
    Mr. Oberstar. But that is the date given to the document of 
completion of the inquiry. Why did you wait until March of this 
year to audit other airlines?
    Mr. Sabatini. We didn't know the gravity at that time of 
what was going on at the Southwest CMO.
    Mr. Oberstar. Shouldn't something have gone off and said 
maybe we ought to take a look at the system? Since we are 
operating on a system_ATOS_maybe something else amiss?
    What I am getting at is that there is an over-reliance on 
ATOS, and that if it is so successful, why is it that old-
fashioned inspector feet on the ground, on shop floors, and 
engine rooms, are finding airworthiness directive compliance 
issues affected hundreds of aircraft? In other words, you need 
more people, you need more inspectors, need more hands-on work, 
and I want you to think hard about this, notwithstanding 
directives from Office of Management and Budget--we have gone 
through this with other FAA leadership in years past and other 
Administrations--work with us to develop an inspector workforce 
need list that we can realistically deliver on. Will you do 
that?
    Mr. Sabatini. You have my commitment, Mr. Chairman.
    Mr. Oberstar. Thank you.
    Now, the customer service initiative, what do you think 
about, what was your reaction? What was your gut reaction when 
you heard the statement in the earlier testimony from the 
whistleblower panel, the customer, Southwest, called the FAA 
and complained about the service they were getting from Mr. 
Boutris to get him removed? What was your reaction to that?
    Mr. Sabatini. Unacceptable. That is simply an abuse of what 
our customer service initiative was intended to be. It was a 
mechanism to allow citizens of the United States who contact 
the FAA to express whatever concerns they may have, not to be 
used as a vehicle to accommodate a like or dislike about a 
particular inspector.
    I will say time and time again, we are responsible for 
enforcement. Voluntary programs do not mean that we have 
abandoned enforcement. We will continue to enforce the 
regulations. Our mission is to gain full compliance and to 
operate at the highest levels of safety. You have my 
commitment, Mr. Chairman.
    Mr. Oberstar. Then I hope I have your commitment also to 
revisit this customer service initiative and re-aim it and 
redirect it, and thereby redirect back to its original purpose 
the mission, the safety mission of FAA.
    Mr. Sabatini. You have my commitment, Mr. Chairman. I am 
planning to do that.
    Mr. Oberstar. Thank you. That may be the most significant 
thing accomplished today.
    Are there others who have questions? Mr. Costello?
    Mr. Costello. Mr. Chairman, I really do not have any other 
questions, but I would like to make a comment and express a 
concern, and that is Mr. Sabatini has been before our 
Subcommittee many times, and we have talked about safety and 
other issues. You know, frankly, my concern is this: that you 
have pointed out, and rightly so, that 99 percent of the planes 
that have been recently inspected are in full compliance. 
Frankly, I think that the Agency continues to rely on the fact 
that we have the safest system, aviation system, in the world. 
I know you are proud of the fact that 99 percent are in full 
compliance, but again I go back to my comments in my opening 
statement, and that is--and I don't think that you would 
disagree with me, and if you do I want to hear it, but there is 
no question when it came to runway safety that the FAA took 
their eye off the ball. At one time in 2000, 2001, very serious 
about it, brought together all the stakeholders, and then when 
the numbers started going down the FAA went and directed their 
attention to other things.
    The same thing with the hazardous conditions in the powers 
and facilities. Nothing was done until the Subcommittee took 
action. Even though employees were reporting mold and other 
hazardous conditions in these facilities to the FAA, there was 
no action taken until the Subcommittee scheduled a hearing, and 
then we started getting calls that said hey, finally the FAA is 
reacting, and it is because you are holding a hearing on this 
matter.
    The list goes on and on with congestion and delays. I went 
through the whole list earlier.
    So my concern, frankly, Mr. Sabatini, is that 99 percent 
compliance, what are people concerned about. We are concerned 
about the one that is not in compliance, and we have a 
responsibility and you have a responsibility to make certain 
that we get as close to 100 percent compliance as we can.
    The FAA here--and you have acknowledged it--has failed, and 
we hope that you will produce a plan that will prevent from 
this ever happening again.
    With that, Mr. Chairman, I yield back.
    Mr. Oberstar. Thank you.
    Mr. Sabatini, do you wish to respond?
    Mr. Sabatini. I want to assure everyone here that the only 
reason why I mentioned 99 percent is to just demonstrate what 
we found in both cases. But I can tell you this: what I am 
paranoid about is the 1 percent, and we do not rest on our 
laurels. We strive every day to look at what is that remaining 
risk, and that is the challenge of the future.
    We no longer see common cause accidents. That is because of 
the hard work that has been done over the years by many, many 
safety professionals in FAA and in the industry across the 
board. The challenge is: what are those risks out there and how 
do we learn about those risks? That is what we work hard every 
day to understand, and that is why it is so critically 
important to have a professional working relationship with 
industry so that together we can identify and resolve the 
remaining risk.
    Mr. Oberstar. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Sabatini, I would like to know, you mentioned this 
process is for citizens, the customer service initiative. What 
are the aggregate numbers? Who has used the system and who are 
they? Do you have those numbers, like how many are airlines, 
operators, how many are repair stations, how many are 
individual airmen? Do you have those numbers?
    Mr. Sabatini. I can get you those numbers.
    Mr. DeFazio. But has this process been used a lot? Have a 
lot of resources been devoted to resolving problems through 
this customer service initiative?
    Mr. Sabatini. I would say it certainly requires resources, 
but it is not a drain on the system.
    Mr. DeFazio. Okay. Well, I would like to see the numbers of 
who has accessed it, what the categories were, etc. I am sure 
the Committee would be interested.
    And then how about when you heard from Mr. Mills, Mr. 
Sabatini? Was that an Agency-wide directive that everybody 
should drop everything they are doing? They haven't been out to 
that particular repair station for the last eight years, but 
they should go out to that repair station, not in an inspector 
capability, but to hand-deliver the packet of the customer 
service initiative that could have been mailed or e-mailed to 
those people? Are you aware how widespread that practice was 
that we diverted resources to hand-delivery of these packets? 
Was that a unique thing?
    Mr. Sabatini. I was surprised to hear Mr. Mills say that he 
had to or had been instructed to hand deliver that. That 
certainly is not in the guidance.
    Mr. DeFazio. Okay, Mr. Ballough, are you aware of how 
prevalent this practice was?
    Mr. Ballough. Mr. DeFazio, from what I know, it was 
supposed to have been delivered through routine carrier visits 
and repair station visits.
    Mr. DeFazio. But that would have meant that people wouldn't 
see it for seven years, because a lot of times we only get 
around to these repair stations once in a great while.
    Mr. Ballough. At least once a year, sir.
    Mr. DeFazio. Well----
    Mr. Ballough. I was surprised.
    Mr. DeFazio. How about you, Mr. Stuckey, since you are in 
that region? Was this widespread in your region that people 
were diverted to hand-delivering these packets?
    Mr. Stuckey. Mr. DeFazio, as I recall, initially--and it 
has been a few years ago--we had, like, three years to get out 
to your major operators, your air carriers, your major repair 
facilities, your taxi operators, and that is something that an 
office manager would normally do. Mr. Mills at the Southwest 
CMO had one operator. At the Dallas FSDO we probably had maybe 
100 operators of that category.
    Mr. DeFazio. Right.
    Mr. Stuckey. So it depends on the particular office, but it 
is important to get out and visit those operators.
    Mr. DeFazio. Right, but he was not sent to visit. He wasn't 
sent to do oversight. He wasn't sent to do safety inspections 
to places he might not have been for quite some time; he was 
sent to hand deliver something that you could have sent out in 
e-mail, you could have faxed. I mean, you certainly had to know 
how to contact these people. You could have mailed it to them. 
I mean, this was widespread then? A lot of people were 
delivered to hand deliver this thing?
    Mr. Stuckey. I wouldn't say it was widespread. Again, I 
think it was----
    Mr. DeFazio. So you are not disturbed that one individual 
spent three months hand delivering this?
    Mr. Stuckey. That would not have been my expectation.
    Mr. DeFazio. Okay. I find it very disturbing.
    Now, you have talked about Mr. Gawadzinski and his current 
duties. You are telling us he is in an office somewhere and all 
he is doing is reviewing manuals. Do those manuals have a 
purpose? I mean, do they somehow dictate Agency actions that 
relate to the real world, like safety?
    Mr. Stuckey. We have a national flight standards evaluation 
officer in headquarters, an SF-40, that reports to Jim. They 
get around and do technical reviews, I think every three years, 
and the office that Doug is assigned to now is going to get one 
later this summer, so his duties would involve making sure we 
have all the office files in order, do we have all the 
documents that we should have in an airline----
    Mr. DeFazio. So he is not editing? I mean, he is just like 
a clerk level? At $100,000 a year he is just making sure the 
files are complete?
    Mr. Stuckey. More or less, and I have been----
    Mr. DeFazio. That is an expensive clerk.
    Mr. Stuckey. He has been assigned----
    Mr. DeFazio. I tell you what I would do with this guy. If 
you can't fire him, I would do what they have done here in the 
past. You put his cube in the hall. He doesn't have a phone. He 
is not allowed to read anything, and he just sits there.
    Now let me ask you this: has he done enroutes in the last 
year?
    Mr. Stuckey. I think he has last year.
    Mr. DeFazio. Within the last year has he done enroutes?
    Mr. Stuckey. My information is he did three round trips, 
one to training and I think he had two enroutes to do, I think, 
job interviews within the FAA.
    Mr. DeFazio. Mr. Sabatini, does that raise any concern with 
you?
    Mr. Sabatini. Yes, it does, because my expectation is that 
this person be in the office essentially counting paper clips.
    Mr. DeFazio. Okay.
    Mr. Sabatini. I need to complete my understanding. If he, 
in fact, conducted enroute inspections after he was moved to 
this other position. I don't have that information. I intend to 
get that information.
    Mr. DeFazio. Thank you. I appreciate that.
    Now one last thing, Mr. Chairman. Thank you for the 
generous grant of time, but I feel so strongly about this 
issue.
    I really think that--and I guess we had testimony in the 
previous panel--we shouldn't throw out the whole customer 
service initiative. But when I read through the rather lengthy 
documents and the way they are worded, I can see where this 
devolved from customer to client and the whole thing is set up 
for talking about all the levels of appeal and the flow charts 
and all those sorts of things.
    I just really think, again, this is my supposition, but 
Nick, did this advisory group of yours really initiate this 
idea and write this and then you just handed it to the 
administrator, who then went and gave the Aero Club speech? 
This wasn't something she initiated or something she wanted to 
do or something that came from some other political person or 
political level? This really perked up from the professionals, 
we want to start talking about our airlines, its customers, we 
want to have all these multiple levels of review, we want all 
these forums and all? That really came from your professionals?
    Mr. Sabatini. Sir, what we know about our organization 
across the board is that we do not behave in a consistent and 
standardized manner. This was one mechanism put in place.
    Mr. DeFazio. But it has a particular lilt to it, this whole 
airlines are now customers and there are all these complaints. 
There are other ways to deal with service quality, I think, 
maybe the inspector general or others might address that, I 
think, than this. I really think it deserves major overhaul.
    And then finally, just one thing. I have heard a lot about 
how great things are and how no one has died, and people have 
qualified that by saying major or big or whatever, or 135s 
versus 121s. We have had two deadly crashes in the last four 
years. One was due to a maintenance issue, which was 21 people 
at Charlotte. The other I think is still under investigation at 
Lexington, which has been attributed to pilot error or under-
staffing of the air traffic control tower or other issues. I 
don't think there has been a final disposition on that one yet.
    But people have died. That was 49. So yes, the system is 
doing pretty darned good. Can it do better? Yes. Are we 
concerned about the number of AD deviations, we find out there 
were deviations? Yes. And I understand there may yet be some 
others out there. There are three airlines that have some AD 
problems. Why aren't they named?
    Mr. Sabatini. I would be happy to submit their names.
    Mr. DeFazio. Well, why don't we just have them right now?
    Mr. Sabatini. It is an open investigation, sir.
    Mr. DeFazio. Thank you.
    Mr. Oberstar. I don't want to stimulate the gentleman 
further----
    [Laughter.]
    Mr. Oberstar. This customer initiative sounds very 
strangely like public-private partnership. The gentleman will 
desist.
    [Laughter.]
    Mr. Oberstar. Mr. Carney and then Mr. Cummings.
    Mr. Carney. Thank you, sir.
    This is for the whole panel. Well, probably not Mr. Scovel. 
I was thinking about Mr. Gawadzinski, who is still employed, 
and Mr. Mills. Mr. Mills was not under investigation for 
anything, he apparently did nothing wrong. Why was he removed?
    Mr. Stuckey. Mr. Carney, initially, when we got the report 
of the AD overflight, we also, that same month, had already 
scheduled two office evaluations. As a result of all three 
things that were going on in the month of April, it is standard 
practice to remove someone from their position when you find 
some serious issues involved. Mr. Mills was initially detailed 
at his same grade, same pay, to an office in the DFW area until 
an investigation was completed.
    In Mr. Mills' case, it was decided that he was going to be 
permanently transferred to that same office as an assistant 
manager, same pay, same grade. Primarily because his supervisor 
back in 2005 had given him instructions to follow national 
policy, you have some issues here, letters of investigation, 
letters of correction. There were several issues there 
pertaining to relationships in the office that were causing 
disharmony, including what you heard from the first panel this 
morning. You really had two groups in the office, those that 
supported Doug and those that supported Mike.
    For those reasons, he was administratively transferred to 
another office. That was made permanent I think in August of 
last year.
    Mr. Carney. Given all we have heard today, that sounds a 
little suspicious, I have to tell you. That doesn't sit well. 
That doesn't seem quite just, actually, from where I sit, at 
least.
    I have no further questions, Mr. Chair.
    Mr. Oberstar. Doesn't sit well with me, either.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Sabatini, one of the most, as far as I am concerned, 
one of the most significant questions that has been asked today 
is the one that the Chairman of our Aviation Subcommittee asked 
you a few moments ago. He talked about, if you will recall, how 
it seems like certain things have to come to the Congress 
before certain actions are taken by your agency. That is very, 
very significant.
    Let me put that over here, and then I am going to take you 
to another place. That is that you, when the Chairman asked you 
a question about why didn't you at within a certain period of 
time, you said, I think, and I am not trying to put words in 
your mouth, that you did not realize, or you all didn't realize 
the gravity of the situation. Is that right?
    Mr. Sabatini. That is correct.
    Mr. Cummings. All right. Now, to me, the one thing the 
flying public wants, as I said a little bit earlier, is they 
want to be able to trust. They want to know that when they get 
on that plane, the plane has a pretty good chance of getting to 
its destination. And I guess what I am concerned about and I am 
wondering about is, are mechanisms now in place, and Mr. 
Scovel, you may want to comment on this, too, so that one can 
appreciate the gravity of the problem?
    Because I would think that we could put all the mechanisms 
in place of communicating a problem. But if there is no one on 
the other end of the line who can appreciate the significance 
of the problem, and the problem still takes, in other words, 
for example, airlines are still flying that aren't supposed to 
be flying, then it seems like it smacks in the face of what we 
are about here, and that is trying to make sure we do what you 
said, that is, have the highest degree of safety that we can 
and to worry about the 1 percent that you and Mr. Costello 
talked about.
    So I am wondering what is in place now or what will be in 
place to help you or whoever, your committee or whoever makes 
these decisions, as to when we act, how we at, to what degree 
we act, what is in place now that will help you to have a 
better grasp of how significant a problem is? You can't get too 
much more significant than this.
    Mr. Sabatini. I believe there are a number of things 
already in place, and I keep coming back to at the Southwest 
region, that issue was mishandled for two and a half years. And 
that was not evidenced at my level. Once the AD non-compliance 
became apparent, then around the July time frame is when we 
realized the severity of what we had in terms of the failures 
that had occurred in the Southwest region.
    Now, I am concerned about the 1 percent. I want to assure 
you of that. And the system is a sound system. But it is not 
perfect. And we strive to make it better. The recommendations 
that have been made by the inspector general we take very 
seriously, all of them. And we will be working with the office 
of the inspector general to do what is being recommended.
    Mr. Cummings. I want to come back to you, but my time is 
running out, I want to make sure Mr. Scovel has a chance to 
comment on that. I am hoping that we walk out of this hearing, 
Mr. Scovel, with the public having a higher degree of trust 
that may have been at least slightly eroded after reading about 
the things that they read about. But not only do I want them to 
have the trust, I want the trust to be deserved. I want it to 
be reality. Because having the trust is one thing. If it is not 
deserved, that is another thing.
    So I am just wondering, are things happening now, and if 
they are not happening now, are there things that we can do 
immediately to make sure we have that? Do you follow me?
    Mr. Scovel. I think I do, Mr. Cummings. One reassurance 
then an observation or two, perhaps. We have talked extensively 
about the problems at Southwest. We have seen threads of a 
couple of aspects of the Southwest problem at other carriers 
and CMOs. But it is not nationwide. I hope that the American 
public and the Congress doesn't take that message away from my 
testimony, at least, because that is not what I intended to 
convey.
    I think we are in a similar situation where we were last 
August or September when the Minnesota bridge fell, and I know 
Chairman Oberstar well remembers that. The natural question is, 
what about all the other Nation's bridges, and national bridge 
inspection program. Well, it needs to be looked at. And that is 
where we are today with Southwest problems. Are they at other 
carriers? Well, we will have to take a look at that. So that is 
a reassurance.
    An observation, however, of FAA's, some would call it 
culture, some would call it its organizational model, there is 
a disconnect between FAA headquarters here in Washington and 
what happens out in the field. We saw it at Southwest. There 
was a CMO in turmoil. There was a bitter struggle being waged 
for the heart and soul of that organization. Aspects of that 
were communicated to the region and then bounced right back 
down. Not much if anything was coming up here to headquarters.
    There has been a consistent lack of ownership, desire to 
exercise ownership from the national level over some of these 
problems that pop up at CMOs and elsewhere. We see it when we 
have inspectors like Mr. Boutris or the Northwest Airlines 
inspector who are put in the corner on the basis of an 
airline's request or complaint. Mr. Boutris called it cherry-
picking. It evokes a dismissive attitude on the part of a 
carrier, and it signals a regulator who has failed to command 
the respect of the regulated entity. That should cause everyone 
at FAA problems.
    My office has made recommendations dating back to 2002 for 
FAA to exercise greater ownership over the ATOS system. Those 
recommendations have not yet been implemented. We have seen 
problems with the voluntary disclosure reporting program and 
the Chairman indicates that he will request my office to look 
into that. Again, that was a problem that was happening at the 
CMO, invisible to FAA headquarters. That needs to be fixed.
    Mr. Cummings. Thank you.
    Mr. Oberstar. I thank the Chairman for those inquiries. I 
must also observe at this time my great appreciate for all but 
one of our Subcommittee Chairs participating at this late hour 
in this hearing.
    The gentlewoman from Florida, Chair of the Rail 
Subcommittee, is here, Ms. Brown.
    Ms. Brown of Florida. Thank you, Mr. Chairman, and I just 
want you to know, I thank you very much for holding this 
hearing. Now that everything has been televised, you can watch 
every aspect of it on television, even if you are not here the 
whole time. So thank you again for having this hearing.
    I guess I will start with Mr. Scovel. Does the FAA place 
too much emphasis on the electronic surveillance of carriers 
instead of the on-the-ground review and inspection?
    Mr. Scovel. Ms. Brown, I don't think FAA has found the 
right mix yet. If you are referring to the use of ATOS versus 
inspectors on the ground and on the shop floor, as the Chairman 
has referred to, ATOS is an imperfect system. That has been 
made clear today. FAA headquarters needs to exercise greater 
national program oversight over that. When we have an AD 
compliance program at Southwest that has been left uninspected 
since 1999, that is unsatisfactory.
    Properly used, ATOS has potential, in order to target 
inspectors to the areas of greatest need and then to put them 
on the shop floor and on the airplane, crawling through all the 
nooks and crannies and doing what they do best. But we are not 
there yet.
    Ms. Brown of Florida. How long do you think this breakdown 
with FAA has been going on, this culture that we have been 
talking about all day?
    Mr. Scovel. Well, in this instance, we can date back, well, 
my predecessors would probably harken back to instances from 
their day that would highlight the same organizational culture. 
I am relatively new in the position and I can testify on the 
basis of my 15 or 16 months in office.
    Regarding this problem specifically, I can say that since 
2002, when my office submitted its first report on the ATOS 
system, for instance, that the recommendation that we made to 
FAA for national program oversight was not implemented 
effectively.
    Ms. Brown of Florida. Mr. Sabatini, I recently had the 
opportunity to go back and look at the FAA vision statement. 
Under mission, it listed the following one-sentence statement, 
our vision is to improve the safety and efficiency of aviation 
while being responsive to our customers and accountable to the 
public. Do you think it is appropriate to view the airline as 
an FAA customer?
    Mr. Sabatini. Ms. Brown, I can tell you that what we have 
learned here is that we have drifted away from what was 
intended when we first used the term customer. Certainly they 
are the people who are regulated and are subject to 
enforcement.
    Ms. Brown of Florida. Stakeholders, partners, yes. But not 
customer.
    Mr. Sabatini. I would agree with that. We are going to 
recalibrate that.
    Ms. Brown of Florida. Can you describe your customer 
service initiative program?
    Mr. Sabatini. It is designed to allow anyone who has come 
to the FAA, either for a pilot's certificate or an applicant 
for any one of the authorizations that are issued, once someone 
demonstrates competence and qualifications. And if during the 
course of that interaction one believes that the rules were not 
followed, then there is a process to bring that to the 
attention of the next level of management. What we require is 
that when that documentation of that interaction clearly 
applies the rule, the guidance, whatever that may be, so that 
there is consistency in the organization. It was designed 
around the issue of assuring consistency with whoever we might 
be dealing with. To assure that we treat whoever comes in, 
whoever we come in contact with, with the respect and the 
courtesy and the professionalism and timeliness that you would 
expect of a Federal agency.
    Ms. Brown of Florida. Would you explain a little bit more 
about the self-reporting?
    Mr. Sabatini. Yes. That is the voluntary self-disclosure. 
And that is a situation where anyone who finds that they have 
made a mistake or are in non-compliance, if they are the ones 
who come forward and tell us about it, then we will consider 
that in the mitigation of whatever that penalty or action might 
be. If we are the ones who first find that non-compliance, then 
there is no self-disclosure. And there are various things that 
can be done if it is brought to our attention.
    The idea is to encourage people to tell us about mistakes, 
so that we can address those mistakes.
    Mr. Oberstar. Would the gentlewoman yield?
    Ms. Brown of Florida. Yes, sir, Mr. Chairman.
    Mr. Oberstar. The question you raise is a very important 
one and the answer is interesting. But we discussed it earlier 
in this hearing. This voluntary disclosure system sets up a 
race to the answer. If the airline knows that they have done 
something, they can voluntarily disclose. If the FAA knows it 
ahead of time, they can't voluntarily disclose, they, the 
airline, can't voluntarily disclose.
    That sets up a risky environment, especially when you have 
someone within the FAA who is willing to pass information to 
the airline, say, you are about to be inspected, you had better 
get on the stick and self-disclose. That is where this 
voluntary self-disclosure process has vulnerability. That is 
the point that needs to be corrected.
    Mr. Sabatini. And we are, Mr. Chairman.
    Mr. Oberstar. You are going to find a way to correct it.
    Thank you. The gentlewoman may proceed.
    Ms. Brown of Florida. I yield back the balance of my time, 
Mr. Chairman.
    Mr. Oberstar. Thank you.
    Mr. Sabatini, I have had time to reflect a little on the 
question I asked you earlier: why did you wait until March 13th 
of 2008 to audit the other airlines. And your answer was that 
you really didn't know the extent of problems. I find that 
unacceptable. That is, you are a safety professional, committed 
your whole career to aviation safety, starting even before you 
came to the FAA in the police department of New York City. That 
is something you have to have your hands on. That is your 
responsibility.
    Those incidents at the lower level should not have escaped 
your attention. Let's go back to 1985. In the Miami FSDO, the 
general counsel issued a ruling on safety to the inspector 
corps in that FSDO. It didn't get around the rest of the 
Country. And other FSDOs were doing things, taking actions that 
were exactly the opposite. The administrator didn't know about 
it. The head of the Aviation Safety Office didn't know about 
it.
    At the time, there were the nine fiefdoms, as they were 
roundly called, the nine regional administrators. And they held 
information, didn't share it with the rest of the FAA. 
Centralization of FAA resulted in a very significant 
improvement in safety, because information now was flowing 
freely, flowing around the agency. And that centered 
responsibility on the head of the Office of Safety. That was 
your responsibility to know this stuff. I want you to think 
about how you are going to do a better job of having hands-on 
at the operational level within the agency.
    Now, Mr. Scovel and Mr. Bloch, well, before I come to that, 
I asked Mr. Stuckey, Mr. Lambert a question about a directive 
he received to shred information that he submitted up the chain 
of command. He was under oath when he answered. Are you aware, 
were you aware, did you know about the directive to shred 
records that Mr. Lambert referred to pursuant to my question?
    Mr. Stuckey. No, sir. That is the first I had heard that 
today.
    Mr. Oberstar. I want you to think about that.
    An ethics question, Mr. Bloch, and--Mr. Sabatini?
    Mr. Sabatini. Mr. Chairman, I am sorry to interrupt your 
chain of thought.
    Mr. Oberstar. Not at all.
    If you have a response----
    Mr. Sabatini. Not a response, I need a personal break.
    Mr. Oberstar. I understand that. You may be excused.
    Mr. Sabatini. Thank you.
    Mr. Oberstar. Yes, please. I admire your holding ability.
    [Laughter.]
    Mr. Oberstar. Mine is not as good.
    I have a question. Mr. Petri, do you have something?
    Mr. Petri. Nothing urgent. I was going to ask something if 
you were going to pause.
    Mr. Oberstar. I want to pursue this. No, I think I will let 
you go ahead, because I think Mr. Sabatini needs to be 
responsive. So please, go ahead.
    Mr. Petri. I just was curious, we didn't get a particular 
response to this chart question about why Mr. Gawadzinski was 
either not subpoenaed or given an opportunity to appear. Is 
there any reason for the record?
    Mr. Oberstar. The reason he was not called, we considered 
that. He was under disciplinary order by the FAA, as we 
understood it at the outset of this hearing. It now appears 
that he is not under very sufficient disciplinary order. In 
fact, he is probably in an operating position that is 
inappropriate, given what came out at this hearing. And 
secondly, his actions were the subject of the testimony by the 
other witnesses. I thought that that would, with those two 
factors together, that he would not be in a position to 
respond, since he was under disciplinary action by the FAA.
    Mr. Petri. People are obviously under oath, whether they 
are sworn or not, and he is a central figure in all of this, 
not only on the organization chart, but in the concern about 
the operation of the relationship with Southwest Airlines and 
that office and how the inspectors were treated and so on. It 
would probably at some point be worthwhile, if it seems 
appropriate.
    Mr. Oberstar. We certainly can revisit the issue of his 
role and bring him to the Committee.
    Mr. Petri. Very good.
    Mr. Oberstar. Mr. Scovel, the Southwest region, and Mr. 
Bloch, of FAA has approved a memorandum of understanding to 
provide type ratings to FAA inspectors at Southwest Airlines' 
expense. The policy of the FAA stipulates that such MOUs should 
be approved only when necessary for the FAA to issue a type 
rating to air carrier pilots. Since Southwest hires pilots who 
are already type rated and only such pilots, what is the 
justification or need for this program at Southwest, that is to 
have inspectors type rated at Southwest's expense when they are 
also charged with the inspection and investigation of that 
carrier?
    I have made some inquiries about what that service might 
cost, and it is in the range of $20,000 to $25,000 per type 
rating. This exchange has somewhat the feel of a way of 
acquiring influence at the FAA. And I understand that this 
practice was approved by Mr. Stuckey. What is your reaction? I 
know you don't have much advance warning of it, but just on the 
basis of what I have described.
    Mr. Scovel. I have had very little advance warning, Mr. 
Chairman. I was informed within the last week of such an 
arrangement. And I should caveat what I am about to say by 
indicating that this is a matter that we would like very much 
to inquire into in the course of our audit and investigative 
activities surrounding the whole Southwest CMO incident.
    It is a troubling process, if only for the perception that 
Southwest is acquiring influence through FAA. On the face of 
it, it certainly feeds our conclusion that there is an overly 
collaborative and close relationship between the Southwest CMO 
an the carrier. Very troubling. I can't speak for the CMO 
except simply to speculate, and I know I am on very thin ice 
here as an IG, and never speculate, you always go with the 
data.
    But I would suspect that the region would attempt to 
justify it by saying that they gained expertise and insight if 
their inspectors or their managers are able to know what key 
figures in the carrier are doing and what they are experiencing 
and what their particular maintenance concerns might be on a 
day to day basis, as an operator as opposed to an inspector or 
from a management level with the carrier.
    But I see Mr. Stuckey is back, and I will defer to him.
    Mr. Oberstar. Mr. Bloch, did you have a comment?
    Mr. Bloch. Thank you, Mr. Chairman. I don't know the 
details of this. It raises in my mind questions about 
Government ethics rules. We have laws under the Ethics in 
Government Act that prevent us from investigating someone or 
having business before our agency where we have a substantial 
interest in the outcome of the matter or our independence and 
objectivity could reasonably be questioned by a third party due 
to entanglements, such as financial or other entanglements.
    So certainly from an ethics standpoint, such an arrangement 
does raise serious questions. By analogy, if I am investigating 
someone in the Government and they offer to pay for my child's 
college education, I think a third party could reasonably 
question my objectivity. So I think I would have to leave it at 
that. I don't know what the details of this program are.
    Mr. Oberstar. Mr. Stuckey, you came in just as I was 
pursuing this matter. Let me restate it. The Southwest region 
of FAA has approved a memorandum to provide type ratings to FAA 
inspectors at Southwest Airlines' expense. The policy of FAA 
provides that such MOUs should be approved only when necessary 
for the FAA to issue type ratings to carrier pilots.
    Since Southwest hires only pilots who already are type 
rated, what is the justification or need for such a program at 
Southwest?
    Mr. Stuckey. Mr. Chairman, first of all, thank you for the 
break.
    The APM, APD program goes back to the 1980s. It is a 
national program and it was initially set up to make sure that 
we could leverage our resources between the FAA and the airline 
to where we would have inspectors. Back when I was an air 
carrier inspector, we did all the check rides. We just don't 
have the resources to do that. So they developed a program 
where the air carrier check airman, highly qualified people 
could do the check ride for the FAA, and that set up the 
program back in the 1980s.
    This program was reviewed back in the mid-1990s by the 
inspector general's office and the FAA at that time I forget 
the administrator, but he wrote a letter back to the IG and I 
think that is a matter of public record, where they reviewed 
that relationship. I think the problem here is that the policy 
says that it would be to APMs, assistant APMs and FAA 
inspectors to do certification check rides.
    The issue that was raised to me was, why would the 
principal operations inspector, the supervisory principal 
operations inspector get that same training. That is not 
consistent with FAA policy. So when that was raised as an issue 
recently, we looked at it in the region and decided that would 
be changed. It should only be for FAA inspectors that do 
certification activities.
    Mr. Oberstar. Well, and managers as well. I don't 
understand. It just seems to me that on the face of it, 
conflict of interest questions arise. And as Inspector General 
Scovel said, it raises the appearance of impropriety, that 
there ought to be firewalls around these activities. They 
should not be receiving any benefit of that type from the 
carrier that they are inspecting.
    Mr. Stuckey. Mr. Chairman, I wouldn't disagree with that. 
The main purpose as a regional manager or years ago, as an air 
carrier inspector, we need our inspectors trained, just like 
the air carrier inspectors are trained, in the same equipment, 
same training programs. Because we do sample some of that work. 
And if there is some way to provide that training by another 
means, I certainly would support that.
    Mr. Oberstar. And the training is very important. I concur. 
But there has to be a way, and I will ask Inspector General 
Scovel and Mr. Bloch to think this matter through, come back to 
the Committee and back to the FAA, review with you means of 
achieving that training without the appearance or the reality 
of impropriety.
    If there are no further questions of this panel, we thank 
you for your time, for your answers, for your candor, for the 
testimony. Mr. Sabatini, you have committed to a number of very 
significant actions. I will look forward to following up 
vigorously with you and with the FAA and with the IG's office 
and Mr. Bloch as well. Thank you.
    Our next panel includes Mr. Herb Kelleher, the face of 
Southwest Airlines, the presence of Southwest Airlines, the man 
who personifies Southwest Airlines. They sent their best and 
the brightest, the most engaging, the most sweet-talking.
    [Laughter.]
    Mr. Oberstar. The softest hand-holding.
    [Laughter]
    Mr. Oberstar. Mr. Gary Kelly, who is Chief Executive 
Officer of Southwest; Mr. Vincent Collamore, Aviation Safety 
Inspector at Southwest; Mr. John Bassler, Principal Avionics 
Inspector, Dallas Fort Worth Flight Standards District Office.
    Gentlemen, please stand, raise your right hand. Do you 
solemnly swear that the testimony you will give before the 
Committee in the matters now under consideration will be the 
truth, the whole truth and nothing but the truth, so help you, 
God?
    [Witnesses respond in the affirmative.]
    Mr. Oberstar. You may proceed.
    We will begin with Mr. Kelleher. Turn your microphone on, 
we want to hear every word.

   TESTIMONY OF HERB KELLEHER, EXECUTIVE CHAIRMAN, SOUTHWEST 
    AIRLINES COMPANY; GARY KELLY, CHIEF EXECUTIVE OFFICER, 
 SOUTHWEST AIRLINES COMPANY; VINCENT LARRY COLLAMORE, AVIATION 
    SAFETY INSPECTOR, SOUTHWEST AIRLINES CMO; JOHN BASSLER, 
    PRINCIPAL AVIONICS INSPECTOR, DALLAS FORT WORTH FLIGHT 
                   STANDARDS DISTRICT OFFICE

    Mr. Kelleher. I wish I were a prettier face, Mr. Chairman.
    [Laughter.]
    Mr. Oberstar. Oh, yours has been the face of Southwest for 
so long, it is unmistakable.
    Mr. Kelleher. Mr. Chairman, Mr. Petri and distinguished 
Members of the Transportation and Infrastructure Committee, my 
name is Herb Kelleher. I helped to start Southwest Airlines, 
have been working on the Southwest business venture since the 
fall of 1966, have been on the board of directors for 41 years, 
have been the executive chairman of our board for 30 years, and 
was the CEO of Southwest from 1981 through 2001. I guess I 
could fairly be called the Methuselah of Southwest Airlines.
    A friend, now a former friend, recently said to me, I hear 
you have a connection with the Air and Space Museum. I said, 
yes, I do. He said, are you on the board or are you an exhibit? 
That is why I describe him as a former friend of mine.
    From first-hand knowledge, not hearsay, I can tell you that 
Southwest Airlines was founded upon the principle of providing 
more value for less fare, not less value for less fare. 
Professor Mike Levine was CEO of New York Air, and he 
encapsulated this concept very adeptly. Mike stated at an 
airline investor's conference that it is very easy to be 
expensive and good, and very easy to be inexpensive and bad. 
But that Southwest did a beautiful job of simultaneously being 
both inexpensive in its fares and very good in its operations 
and the service that it provided to customers.
    Southwest Airlines, through the dedication, through the 
energy and through the warm hearts of its much beloved and 
truly cherished employees, has faithfully delivered on its 
original promise of more value for less fare for 37 years.
    In 1966, when I started work on bringing Southwest Airlines 
into being, we said we were going to free the American people 
to fly. And we did. At that time, something like only 15 to 20 
percent of adults in the United States had ever flown on a 
single commercial airline flight. Today, that number stands at 
85 percent.
    The DOT calls this phenomenon the Southwest Effect, the 
Southwest Effect, which, based on Southwest's model, has 
subsequently been emulated across our globe. Southwest Airlines 
said, we are going to get you there on time. And we did. 
Southwest has the best cumulative on-time performance record of 
any major airline in existence at the inception of those on-
time statistics in 1987, 21 years ago.
    Southwest Airlines said, our wonderful people are going to 
provide the best customer service in the industry. And they 
did. Among major airlines in existence in 1987, Southwest has 
the best cumulative customer satisfaction record, the fewest 
complaints per 100,000 passengers carried since the inception 
of such customer satisfaction statistics in 1987, 21 years ago.
    Southwest Airlines for many decades was the most heavily 
unionized of the major airlines, and our unions are here today 
in support of our company, such as Tom McDaniel and Mike 
Massoni, officers of TW 556, people from our TW 555, the 
Southwest Airlines Pilots Association, AMFA that represents our 
mechanics. And I was going to introduce them individually, with 
the Chairman's permission, but in light of the hour, I decided 
that I would refrain from doing that.
    But we said we are going to take good care of our splendid 
people. And we did. Southwest instituted the first employee 
profit-sharing plan in the American airline industry and no 
Southwest Airlines employee ever, not one, has sustained an 
involuntary furlough. And this perfect job security transpired 
during a 37-year period when probably a million or more airline 
employees experienced furloughs throughout the global industry.
    And finally, we said, we are going to operate the safest 
airline in the world. And we have. Conde Nast Traveler magazine 
pointed out some years ago that Southwest Airlines had operated 
more flights and Southwest Airlines had carried more passengers 
without a single, not one, passenger accident fatality than any 
other airline in the world. After 16 million flights carrying 
1.2 billion passengers, without a single, not one, passenger 
accident fatality, Southwest Airlines' record as number one in 
safety, is intact today, the best airline passenger safety 
record in the world. Although sadly and very tragically, we did 
cause a non-passenger fatality with a runway over-run during a 
snowstorm.
    We have always, and we have constantly, jawboned our people 
to the effect that flight safety is Southwest Airlines' number 
one objective. And I submit to this Committee that our 
superlative 37-year passenger safety record sustains the thrust 
of my comments in this respect. An exhibit illustrating 
multiple aspects of our leadership, and I do mean leadership, 
in safety and also our devotion with respect to safety, is 
attached to Gary Kelly's and my joint written testimony.
    One of the things that has concerned me today is that this 
Committee has an enormous reputation for what it has 
accomplished in the field of safety and in the field of 
transportation, and I am very familiar with that record when it 
used to be the Public Works Committee, before it became 
Transportation and Infrastructure. I know all the programs 
which the Chairman mentioned earlier that you have initiated 
and you have served in order to make transportation more safe.
    And I didn't want anyone on this Committee to get the 
impression that Southwest was just rumbling around the skies in 
a contumacious manner, not having inspected cracks on its 
airplanes. Mr. Oberstar earlier mentioned the leadership that 
this Committee had taken subsequent to the Aloha accident with 
respect to aging aircraft. My recollection is that he was the 
keynote speaker at the international conference of airlines 
throughout the world and regulatory bodies throughout the world 
to decide what should be done about that situation.
    What may not be so well known is that following the 
leadership of the Chairman and this Committee, Southwest 
Airlines is the one that originated, Southwest Airlines, 
itself, originated the plan for inspecting for cracks in the 
737 classics and for repairing those cracks. That led to the 
Boeing service bulletin in 2002 as I remember or thereabouts 
that really incorporated the Southwest Airlines plan for 
dealing with this crack problem, and later led to the very AD 
that has been in question and the subject of today's hearing. 
That really originated in Southwest Airlines' work.
    Now, if I may say this, Mr. Chairman, these ADs are not 
like Dick and Jane's first grade reader, you know, this is a 
ball, this is Spot, the dog. On this very subject, cracks, 
there are six ADs encompassing 1,100 pages. And they are 
interrelated, some of them, and overlapping.
    What Southwest Airlines did, again, leaping ahead, in terms 
of safety, was to develop a modification for our airplanes that 
replaced the need to inspect and repair cracks. That was 
launched with the Boeing Company and the FAA's approval.
    So how did we get to the point where we screwed up by not 
putting our planes on the ground when an AD had been violated? 
Well, actually, what happened was because of the plane 
modifications that we had made under another AD, we were 
relieved of a lot of our inspection requirements. If you 
replace the panels, you no longer need to inspect them.
    Our engineering department in the midst of this welter of 
ADs and this 1,100 pages issued a document, our engineering 
department, which missed the fact that there was a small part 
of the airplane, about maybe two inches high and about this 
long, that still needed to be inspected despite all the 
modifications that we had made. Now, that was our mistake. But 
nobody realized it for quite some time. We weren't just 
rumbling around saying, oh, gee, we failed to inspect this part 
of the airplane. As Gary Kelly will explain more fully, we were 
inspecting these airplanes interminably in regular inspections, 
many, many times per year. And he can fill you in on that.
    But all of a sudden we discovered, Southwest Airlines 
discovered that we should have been inspecting that tiny part 
of the airplane in a special inspection under the ADs, that the 
engineering order, in other words, was erroneous.
    So what did we do? We reported it to the FAA. We told them 
what was going on. Here is where the big mistake came. The FAA, 
at the principal maintenance inspector level, said we could 
continue to fly the planes while we inspected that small 
portion of the fuselage. And we did. And we should not have, 
and we have learned our lesson. When another ambiguity came up, 
and you have seen newspaper articles about this, at least, when 
another ambiguity arose as to how to apply a Boeing inspection 
requirement to our airplanes, we simply put the planes down 
until it was resolved. Totally different behavior within a very 
short period of time.
    I apologize to this Committee. We realize those planes 
should not have flown during that period while the inspections 
were made of the window belts. But at the same time, I have to 
say that maybe our people made some engineering judgments, 
which they weren't entitled to make. Those airplanes should 
have been all on the ground.
    But at the same time, there was not even the remotest 
chance of a repetition of the Aloha Airlines roof peel 
incident, which some coverage has mentioned. The Aloha Airlines 
737 was a 1969 89,000 cycle, non-advanced 737-200, embodying a 
1960s lap joint adhesive process that was abandoned by the 
Boeing Company in the 1970s. Southwest Airlines has not flown a 
non-advanced 737-200 like the Aloha airplane since 1978, 30 
years ago, and presently has no 737-200s of any kind in its 
fleet.
    And as Gary Kelly will more fully explain, Boeing has 
carefully manufactured the fail-safe 737 models, which 
constitute all of Southwest's present 737 fleet, so that small 
cracks will not propagate into the 18-foot long roof tear 
involved in the Aloha roof tear incident.
    Now, is that any excuse for not putting those planes down? 
I tell the Members of this Committee it is not. And we 
recognize what the Chairman described earlier and some other 
Members have spoken about, the creep, the creep issue. So I 
apologize for not fulfilling our duty in that respect. But 
again, some of these accounts have referred to these airplanes, 
I am talking about media accounts, as uninspected. That is 
false. Nothing could be further from the truth. And Gary Kelly 
will explain why that is the case. They were inspected over and 
over and over and over again.
    So thank you very much for the opportunity to be with you. 
Thank you for the opportunity to address some of the 
allegations that have been made about Southwest Airlines' 
behavior.
    And if I may, there is one other thing that I apologize to 
you for, and it has been a little bit of a burden today. I 
think it is unfortunate that the name of the airline is 
Southwest and the name of the region of the FAA is Southwest. I 
think at some point, maybe when people are talking about 
Southwest, some of the people in the audience were saying, 
which one, the CMO or the airline.
    Mr. Kelly is widely esteemed, very, very bright. Intensely 
conscientious and intensely safety-conscious.
    Mr. Oberstar. I assure you, Mr. Kelleher, that the Chair 
knows the distinction between the Southwest region and 
Southwest Airlines.
    Mr. Kelleher. Thank you, sir. You noticed that I said, the 
audience.
    Mr. Oberstar. Mr. Kelly.
    Mr. Kelleher. I didn't want to accuse any Member of the 
Committee of committing that mistake.
    Mr. Kelly. Thank you, Mr. Chairman.
    Chairman Oberstar and Mr. Petri, Members of the Committee, 
thank you for the opportunity to be here today. My name is Gary 
Kelly and I am CEO of Southwest Airlines since July of 2004 and 
a Southwest Airlines officer since 1986.
    As Mr. Kelleher has so eloquently stated, Southwest 
Airlines has been a great success for a great many years. We 
believe our people are the best in the aviation industry and 
that they have enormous devotion to our company and tremendous 
pride in its results. But above all, the safety of our people 
and our customers and our own families is my top priority, and 
it is Southwest Airlines' top priority. And on this, you have 
my personal commitment on behalf of our 34,000 Southwest family 
members. The need to be safe is a part of our history, it is a 
part of our culture and certainly it is a part of our DNA.
    On March 6th of 2008, Southwest received a letter of civil 
penalty from the FAA related to a March 2007 matter of 
regulatory non-compliance. I first learned of that matter in 
February of 2008, and that this Committee was conducting an 
investigation. So we then launched our own internal 
investigation conducted through our general counsel.
    On March 10th, I received the preliminary results. Two 
issues had to be addressed immediately. The first was that 
better judgment should have been exercised than to allow these 
aircraft to continue to fly after there was a potential non-
compliance discovered. The second was that senior management 
should have been consulted on such a significant issue, but was 
not. So based on our March 10th preliminary briefing, we took 
immediate action. I requested, and Southwest was granted, a 
face to face meeting with top FAA officials in Washington on 
March 12th.
    We placed on leave the employees from our regulatory 
compliance group that were involved in the March 2007 event. We 
confirmed with our reorganized regulatory compliance group that 
senior management will be involved in all decisions of that 
magnitude, and then of course, we reaffirmed to all of our 
maintenance and engineering leadership that we will not operate 
an aircraft is there is any credible evidence of an AD non-
compliance.
    Now, we also initiated a number of additional efforts to 
strengthen our maintenance and engineering regulatory 
compliance and our AD compliance functions, including the 
following. We have done an audit of all open FAA airworthiness 
directives, we have a review underway by outside independent 
experts, we have a reorganization of our AD and regulatory 
compliance function with enhanced management reporting. We have 
a restructure of our continuing analysis and surveillance 
system, otherwise known as the CASS system. We have an increase 
in the number and the scope and the frequency of audits, and 
also a segregation of the audit function from regulatory 
compliance. And we have more stringent documentation of our AD 
and maintenance plan changes.
    So when Southwest, the FAA and independent consultants will 
complete their reviews, we will act quickly to evaluate all the 
findings and the recommendations and of course will make all 
the necessary changes.
    While there was clearly a mistake with our regulatory 
compliance, we wanted to assure ourselves that safety of flight 
was not an issue. And we have done that. That has been 
confirmed by two outside experts. First of all, the Boeing 737 
is the most popular commercial aircraft in the world, with over 
5,000 produced. Southwest operates the 737 exclusively and has 
the largest 737 fleet in the world. So in short, the experience 
with this aircraft is extensive around the globe and at 
Southwest Airlines.
    The Boeing 737 classic was designed with a fail-safe 
structure, and that affords a supreme margin of safety. The 
fuselage design is fail-safe because there are three 
independent structure elements: the external skin, the internal 
bonded doubler and also the aircraft frames and stringers. This 
design allows skin cracks and other skin damage to occur 
without compromising structural integrity.
    Next, the FAA-approved Southwest maintenance program 
provides for frequent, scheduled, repetitive, overlapping and 
comprehensive inspections and repairs with another supreme 
margin of safety. Stated more plainly, our aircraft are 
inspected far more often than is absolutely necessary. Routine 
inspections of varying degrees occur daily, weekly, every 50 
days, every 100 days, then we have intermediate half C 
inspections every 250 days and then heavy wide checks are 
performed every two years.
    In addition to these regularly scheduled, baseline 
maintenance skin inspections, there are also skin inspections 
required by the six different ADs that Herb mentioned. The 
combination of these inspections makes our 737 aircraft one of 
the most carefully inspected aircraft fleets in the world. So 
indeed, it is false to say that these aircraft were not 
inspected. They were. And in fact, the error in the AD in 
question was discovered through an inspection and a crack 
repair in the very area that is in question.
    So from a safety perspective, we found the non-compliance, 
we voluntarily reported it, and we fixed it.
    Now, our airplanes are designed to be safe and our 
maintenance program is designed to keep them safe and we have a 
culture of safety excellence. We have safely operated more than 
16 million flights over 37 years serving more than 1.2 billion 
customers. I think that easily makes us the safest airline in 
the world, and a record that anyone would justifiably be proud. 
I believe deeply that we have the best maintenance and 
engineering employees in the airline industry.
    But I do want to assure this Committee and the American 
people that we will not rest on our safety record, no matter 
how good it may be. And I do commit to you that we will 
constructively and aggressively address the issues raised by 
the FAA and this Committee. Because we want to enable our 
proud, safe airline to continue as the safest in the world.
    Our record makes credible this aspiration, our Southwest 
people will accept nothing less and our customers deserve 
nothing less.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you.
    Do your colleagues have statements as well? I am sorry, you 
are the FAA inspectors. I am sorry. I was distracted for a 
moment. Mr. Bassler?
    Mr. Bassler. Yes, sir, I do have a statement here I would 
like to give to the panel.
    Mr. Oberstar. Pardon me?
    Mr. Bassler. I do have some testimony I would give.
    Mr. Oberstar. Yes, you are next.
    Mr. Bassler. My name is John Bassler. I came to Southwest 
CMO from the Continental CMO, which I spent eight and a half 
years down there, back in June of 2005, as the assistant 
principal avionics inspector, under the supervisory principal 
avionics inspector, Mr. Colin, up until December 2007, when I 
requested to be moved to a different office.
    When I arrived at the Southwest Airlines CMO in 2005, one 
of the first things I noticed was how fractured the 
Airworthiness group was. I came from the Continental CMO in 
Houston where that Airworthiness unit had scheduled meetings, 
including both specialties, avionics and maintenance, on a 
regular basis. The Southwest Airlines CMO did not, and as a 
matter of fact, it did not start having meetings of this nature 
until the latter part of 2007. I found the Airworthiness unit, 
in my opinion, to be dysfunctional.
    I had not been in the office for very long when I witnessed 
my immediate supervisor, the principal avionics inspector, 
giving the middle finger gesture to the principal maintenance 
inspector when his back was turned. I thought that very 
unprofessional and I voiced my objections to my supervisor and 
I told him that I did not appreciate that in my presence.
    Things progressively got worse in the office. Most of the 
friction was within the management ranks. During this time it 
must be noted that the inspectors continued to operate at an 
exceptional level, even without management support.
    Around early March 2007, rumors began to fly that inspector 
Mr. Boutris had a couple of hot line complaints filed on him 
from outside the agency. This is when things really started to 
become hostile in the office. Mr. Boutris began to spend a lot 
of time conversing directly to Mr. Robert Naccache, the 
assistant manager, and Mr. Michael Mills, the office manager, 
behind closed doors, several times a day. Mr. Boutris also 
began spending a lot of time with the data evaluation program 
manager, Mr. Doug Peters.
    I started to recognize what appeared to me to be the 
obvious dislike Mr. Peters, Mr. Boutris, Mr. Mills and Mr. 
Naccache had toward the PMI. This dislike, in my opinion, 
seemed to be of a very personal nature toward this man. One day 
Mr. Peters was overheard by several inspectors, including 
myself, making a comment from Boutris' cubicle, the gloves are 
coming off.
    Mr. Boutris was removed from his duties and work program, 
to my understanding, pending the outcome of the investigation 
and the complaints made against him. He was to have no contact 
in any capacity with the air carrier or its programs. This is 
evidently right around the time frame with Southwest Airlines 
contacted the PMI disclosing the possible over-fly of an 
Airworthiness directive of some of their aircraft. Being of 
avionic specialty, I was not privy to this information and 
therefore had no knowledge of the details or specifics of this 
disclosure.
    Around the April 2007 time frame, the PMI was looking for 
volunteers to help complete the job assignments that were 
assigned to Mr. Boutris but that were not completed. Mr. 
Gawadzinski was having difficulty getting anyone to volunteer. 
He approached me and asked if I would be willing to work the 
SAI on ADs 1.3.6, on the airworthiness directives. And I told 
him I would be willing to do the assignment.
    Had I known at the time Mr. Boutris' intentions, I would 
have never volunteered myself for this assignment. It wasn't a 
couple of days later I witnessed Mr. Boutris entering my 
cubicle and removing data from the SAI folder I had just 
acquired from him. Mr. Boutris never started the SAI. He had a 
couple of notes on a decision collection tool, but that was it. 
I had to start the inspection completely from scratch.
    I began to become aware of the militant attitudes that were 
developing in the office from the individuals I have identified 
in the aforementioned paragraph. I became concerned that I was 
going to be targeted by these inspectors due to my agreeing to 
perform the SAI. I sent an e-mail to my supervisor, requesting 
that I be removed from the SAI because of the hostile 
environment developing in the office. My supervisor refused to 
remove me from the SAI. I then requested to at least add some 
inspectors to the inspection so that it would be a team event 
and I would not be individually targeted. My supervisor agreed 
and added one inspector, Mr. Collamore.
    During this inspection, Mr. Boutris felt it important 
enough to approach Mr. Collamore and notify him that the SAI 
was being watched very closely. Mr. Collamore stated to me that 
he felt very threatened by Boutris' comment. I also learned of 
events that had transpired between Mr. Boutris and certain 
Southwest Airlines employees, which I was told was almost 
developed into a fistfight.
    Mr. Collamore and I finished the inspection during this 
month of June 2007. There was a lengthy delay in completing the 
SAI due to Mr. Kervanik, who manages the Airworthiness 
Directives portion of Southwest Airlines' maintenance program, 
being on leave due to a medical situation within his immediate 
family. The final product was sent to the DEPM, Mr. Peters, for 
review. It was returned with numerous, two full pages of 
comments. This upset me because in my ten years at the time 
experience with ATOS, I had never seen so many comments from a 
DEPM. I had performed inspections in the past and never had 
anything like this returned from the DEPM in this fashion 
before these events. This upset me deeply and I brought my 
concerns to my supervisor. I explained that I felt, again, I 
was being targeted and that the DEPM was using his position to 
personally attack my credibility.
    Nothing was done about my concerns. I made a couple of 
spelling corrections to the verbiage and again forwarded it to 
the DEPM for review. This time, it was satisfactorily entered 
into the ATOS master record repository.
    Several days later, the PAI wanted changes made again to 
the SAI, no comments, and had me request it being sent back 
from the repository. This is very unusual. Once an inspection 
has been saved to the data base, it never gets returned unless 
it is unusual circumstances. I have never witnessed it in my 
ten years of working in the ATOS. Phone calls are made and the 
SAI is returned. At this particular time, management personnel 
are attending a seminar out of State. So the only permanent 
management official still in the office was the assistant 
manager, Mr. Naccache.
    The SAI sits in the DEPM's possession for approximately 15 
days. When management finally returns to the office, I send an 
e-mail to the office manager, who now is Mr. Hedlund, and I ask 
him the status of the SAI. He responds to me to let me know the 
DEPM is waiting for PMI feedback. As a note, this is the third 
PMI, second actor so far. I thought this peculiar, since this 
individual had no information and was not present during the 
time the SAI was being performed.
    A meeting is held at the request of the DEPM to discuss his 
concerns with the SAI with the PMI and the PAI. I was not 
invited to the meeting, nor was Larry. I was the team 
coordinator for this SAI. This upset me, because I was the team 
coordinator. I felt my knowledge was instrumental in this 
conversation. I voiced this concern to my supervisor. Nothing 
was done about my concerns.
    After the meeting, the PAI sent an e-mail to the SAI team 
member, Larry Collamore, requesting the ``yes'' comments in the 
control section of the SAI. At this time, ATOS 1.1 was the 
national policy, and it did not require ``yes'' comments. Mr. 
Collamore responded to the e-mail by respectfully refusing to 
add the ``yes'' comments. His response also identified the 
inappropriate behavior being displayed by certain inspectors in 
the office.
    Management meets in the manager's office to discuss the 
SAI. The next morning, the SAI work instructions are changed to 
require ``yes'' comments. This action was contrary to ATOS and 
AFS 900 policy. A meeting is held to discuss the SAI. The 
meeting included the PAI, Mr. Colin, the temporary PMI, Mr. 
Hoover, the temporary POI, Mr. Nelson, the manager, Bobby 
Hedlund, the DEPM, Mr. Peters, myself and Larry.
    Larry and I voiced our frustration with the entire process 
and the way this inspection is being handled. Both Larry and I 
felt we were being targeted and that we were not getting fair 
and equitable treatment. Our concerns went unaddressed again. 
By the time the SAI was saved to the ATOS repository, it sat in 
the DEPM's review for 20 days. This again is contrary to ATOS 
data quality guidelines and the required disciplinary action on 
the DEPM was not taken.
    At this point, I was fed up with the office environment and 
how I was being unfairly treated by management and certain 
inspectors. I requested to be transferred to another office in 
the local area. I was finally told by the manager, Mr. Hedlund, 
that I received a transfer to the DFW FSDO. This meeting took 
place in my cubicle. During the conversation, my supervisor 
walked up, walked by and made some comments, then flipped me 
off with both fingers from both his hands, in front of the 
manager.
    I sent a grievance to the region and I requested immediate 
removal from the office. The SAI letter addressing the findings 
during the SAI 1.3.6 still had not left the office. I do not 
know what the final letter looked like, since I was no longer 
employed in the office. I also cannot take ownership of the 
final SAI, since I believe the data has been manipulated since 
my departure.
    I made every attempt to complete this assignment in the 
most professional manner humanly possible. I followed national 
policies and guidance through the entire process. I pride 
myself as a public servant to make every attempt to make the 
safest transportation system in the world. I swore an oath to 
do just that.
    Mr. Oberstar. Thank you, Mr. Bassler.
    Mr. Collamore, do you have a separate statement?
    Mr. Collamore. No, sir, I don't.
    Mr. Oberstar. Okay, thank you. Thank you very much for your 
testimony. I appreciate your candor and your forthrightness.
    Mr. Kelleher and Mr. Kelly, Southwest Airlines is not on 
trial here. I want you to understand that. Your customer 
satisfaction rating is not on trial or in question. What is at 
stake in this hearing is the role of the FAA and the compliance 
with the Airworthiness Directives.
    At the very outset of all this disclosure, there was a 
statement, initial public statement from Southwest Airlines, 
implying that it had received concurrence from Boeing that it 
was acceptable to continue flying the aircraft. Those were 
statements from Southwest reported in the news media, copies of 
which we have received. Is it Boeing's responsibility to give 
approval on Airworthiness Directive matters, or is that the 
FAA's responsibility?
    Mr. Kelleher. Mr. Chairman, I think there has been a 
mistake there with respect to what you read. We never asked the 
Boeing Company to deal with the subject of regulatory 
compliance. We simply asked the Boeing Company whether or not 
there were any safety of flight issues involved in flying those 
airplanes for the eight days that it took to re-inspect them. 
The Boeing statement itself specifically says, we are not 
addressing the issue of regulatory compliance.
    Mr. Oberstar. Did they put that in writing to Southwest?
    Mr. Kelleher. I believe it is.
    Mr. Oberstar. Would you submit that for the record, so we 
can have the record correct on that matter?
    Mr. Kelleher. Yes, sir, absolutely.
    Mr. Oberstar. It certainly gave a very inappropriate 
impression to my investigative mind and my experience.
    Mr. Kelleher. Yes, I understand that. But they didn't opine 
on the regulatory aspect of it. They just said that they didn't 
think there was any threat to the safety of flight during those 
eight days, Mr. Chairman.
    Mr. Oberstar. I appreciate your refreshing candor in 
saying, we should not have flown when we found those cracks.
    Mr. Kelleher. Thank you, sir. We respect this Committee and 
will always be candid with it.
    Mr. Oberstar. And I also appreciate your reciting, which I 
did earlier in the hearing, the events that led up to the aging 
aircraft legislation, the meeting out here at Crystal City with 
over 400 aviation safety professionals from around the world 
that eventually resulted in the legislation and the 
Airworthiness Directive that took FAA an inordinately long time 
to publish.
    Now, I don't want to be nit-picking, but it bothers me to 
hear someone of your caliber to say it was a tiny part of the 
aircraft. It was a tiny part of that Aloha 737 that began to 
unravel. It always starts with a tiny part. That is why 
Airworthiness Directives are issued and that is why there is a 
requirement for rigorous inspection. I stipulated at the outset 
that this Aloha aircraft was one that had 89,000 cycles.
    I should have gone further, which I do in other contexts, 
and point out that that aircraft had flown over the continental 
United States for most of its lifetime. Then it was, for a few 
years, put in service with Aloha over salt air in a salt air 
environment. As we know, those of us who follow these matters, 
when an aircraft is pressurized, the skin expands 
microscopically. Moisture is taken out of the interior of the 
aircraft and condenses around the hull and drains around the 
sides. With the 727, by the time it reaches altitude, it has 
drained 120 gallons of moisture out of the interior of the 
aircraft. And it drains out of weepholes, but not all of it 
drains out. When it lands and is decompressed, some of that 
moisture remains.
    In the case of the Aloha, some of that moisture, some of 
that water had an electrolytic reaction with the aluminum-
copper skin of the aircraft that proved to be fatal. It is 
secondly true that Boeing abandoned the cold bond method of 
manufacturing aircraft hull for much more stable and reliable 
method.
    But the point was that what should not have happened, what 
was designed not to happen, what had never happened before, did 
happen. The same with the PCU, the power control unit and the 
rudder. It should not have happened. Boeing came into my office 
in the aftermath about Aliquippa and said, we have flown 93 
million hours of 737s and this has never happened before.
    But it had. The NTSB, God bless them, went back after 
Aliquippa to look at previous incidents, uncommanded rudder 
movement incident for which they had not found a probable 
cause, and attributed to the failure of the PCU that caused an 
uncommanded rudder movement. That corresponded with other 
similar incidents reported by pilots enroute that raised 
concerns about the PCU and Boeing then went back and re-
engineered, did an enormous amount of work and Southwest, I 
know, was engaged in that practice.
    I go to this extent to say, these Airworthiness Directives 
have very significant weight. And that it is not acceptable, it 
is not acceptable within FAA regulatory proceeding to fly 
beyond the airworthiness directive mandatory inspection time.
    Mr. Kelleher. It is certainly not, Mr. Chairman. Everything 
that you have said is 100 percent right, and I don't disagree 
with anything you have stated. Your knowledge is really all-
encompassing regarding this matter.
    When I said a tiny part, I didn't mean to demean the 
significance of it. That comment was made in the context of 
1,100 pages covering 6 ADs and the failure of the engineering 
order to cover that tiny part of the airplane. What I was 
saying was, not that it was, not that any airplane part is 
insignificant. I didn't mean to convey that. But what I meant 
was, out of the whole airplane, with 1,100 pages and 6 ADs, the 
engineer missed a small part.
    Mr. Oberstar. Yes, I understand that. And there is some 
traffic on the websites of various skeptics saying, oh, there 
are way too many Airworthiness Directives, they are way too 
complex, way too many pages for us. Well, if there are, then 
you'd better find something else to do. Because at 35,000 feet 
in the air, there is no curb to pull over, look under the hood 
and find out what is wrong. You have to do it right. That is 
why there is redundancy built into aviation. You understand it. 
You have a safety mind set, I appreciate that.
    Mr. Kelleher. Yes, sir. And what I was suggesting, again, 
that is not an excuse.
    Mr. Oberstar. Good.
    Mr. Kelleher. That is not an excuse. I was just saying, I 
can understand how an engineer would miss a tiny part of the 
airplane in the midst of all this hullabaloo. If you will, if 
my recollection is correct, Mr. Chairman, yesterday, 
Administrator Sturgell said himself during his press conference 
that some of these ADs maybe need to be simplified, so that 
they are crisper and easier to understand.
    Again, that is not an excuse. But it would, making them 
plainer and simpler and unified would facilitate, I think, 
understanding them.
    Mr. Oberstar. I would be very, look with a very skeptical 
eye on any simplification they would do.
    But what is the status of the Southwest employees you 
announced had been placed on administrative leave? Mr. Kelly?
    Mr. Kelly. They are at home. They are on leave, they are 
being paid pending our investigation.
    Mr. Oberstar. They are not at work, they are not at a desk?
    Mr. Kelly. They are not. And of course, our investigation 
is weeks old at this point, so we are not complete yet. But 
yes, they are on leave.
    Mr. Oberstar. Thank you.
    Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I thank you, 
the witnesses, for putting in a long day here at the Capitol. 
Just trying to shift the focus a little bit to kind of looking 
forward, because what we want to do is certainly learn from the 
past and do better in the future, and in that regard, I would 
really be interested in hearing your discussion of how you 
build safety into an organization and how you work with the 
people who have responsibility for oversight, the FAA safety 
inspectors in this case, to achieve what should be a common 
goal. I can't imagine anybody is looking to have accidents and 
all that.
    There are different psychologies and some say, you know, 
you can do the stick and keep beating them and that way, and 
others say no, you kind of try to build a team. I learned a lot 
from a fellow named Burt Rutan. I represent the EEA in Oshkosh. 
And I sat in a lunch with him. He has built cutting-edge 
airplanes for a generation. I think he has never had a loss of 
life. And he didn't want one of those planes certified as an 
airplane because he would have to defend the design. He wanted 
to keep it as a spaceship, because he said every day, he wanted 
every person working on that plane to try to think of a way to 
make it safer. And if they once had a design that they had to 
defend, they would go in and there would be 50 changes in it 
and the inspectors would say, how could you possibly say this 
is a perfect design?
    So I just wonder if you could talk about the psychology 
going forward. My bottom line is that it looks like your 
biggest mistake is that you are operating under a dysfunctional 
regional office that seemed to have not got its act completely 
together. It is not an excuse, but some wanted to be punitive 
and others seemed to want to work on a collaborative basis and 
there you are trying to figure out what you are supposed to be 
doing.
    Mr. Kelleher. Well, I will tell you what. I learned more 
about the alleged lack of harmony at their CMO this morning 
than I think Gary and I ever had any idea. So that was kind of 
a revelation to us. But I will say this, that I have worked 
personally with the FAA, and I mean, for 15 years on a day to 
day basis insofar as any alleged infractions were concerned, 
insofar as FAA policies were concerned.
    I must say that from my personal experience over that 
period of time, I think the FAA did an excellent job, which 
might be called a tough love job. Because the FAA was not 
hostile, but indeed, it was firm. I can just give you one 
little example of what I am talking about. And I am not talking 
out of the side of my neck when I say this, I am telling you 
the truth.
    I was sitting in my office one day and the FAA inspector 
comes in and he says, Herb, you have too many foreign objects 
on the ramp. And I said, no, we don't, Eric, I said, I keep 
track of foreign object damage to our engines, and I haven't 
seen any. He said, are you going to be here for a couple more 
hours? I said, yes, sure. He leaves, and he comes back and he 
has a big bag full of bolts and nuts that he took off our ramp. 
I said, I think he is right, let's get some magnetic sweepers 
to clean the ramp.
    In other words, it wasn't a kissy-kissy relationship. But 
he just said, you are wrong and I am going to show you. And I 
said, and you are right and I am going to act on it. We have 
always had, historically had that sort of relationship with the 
FAA. And I think the FAA has done a tremendous job over its 
history. I know a lot of carriers abroad that would love to 
have the FAA as their regulatory body instead of the one that 
they have. And its record is superb and it is unparalleled.
    But of course, I haven't particular cottoned, and I am sure 
Gary hasn't, either, to anything that was said today by 
previous witnesses with respect to the dysfunction of our CMO. 
And of course, several times Members quite properly asked the 
question, is this more widespread. Well, frankly, we are not in 
a position to tell you, Gary Kelly or myself. But I think it 
has to be like one of those relationships with, we are married 
to each other, in effect. And we need to treat each other with 
respect. We both need to be proactive with respect to safety 
issues.
    Having a hostile FAA, and I know no one here has suggested 
that, but having a totally hostile FAA I think would cause 
carriers to perhaps be less forthcoming about some of the 
mistakes that they have made and to shy away perhaps from some 
of the programs that we have put together to keep track of 
trends and in cooperation with the FAA.
    I think there is a balance that needs to be struck. But I 
think it would be a mistake, I don't know whether Gary 
disagrees with me, but I don't think he does, to toss out the 
whole voluntary disclosure program. I do think from what I 
heard today that maybe it could use some improvements.
    Mr. Kelly. Yes, sir, I would just add that first of all, we 
are accountable for the safety of Southwest Airlines. And 
certainly we want to cooperate, and we respect what the FAA's 
role is and they are the regulator. We fully understand that. I 
would want our employees to disclose problems. If there was 
such a punitive atmosphere created that people are incented to 
hide things, that is in no one's best interest, and certainly 
for the leadership of a company like Southwest Airlines. So a 
voluntary reporting program, I think, is critically important.
    Likewise, we want to share information with the FAA. This 
particular matter has been under investigation for a year, but 
we the airline are just now learning about it a year later. So 
it would be nice, in other words, to know instantly if there 
are concerns. There is always a matter of trying to reconcile 
conflict among people. So there has to be a mechanism to do 
that and we have to embrace that. But in the end, we have to 
have leadership and accountability to be able to reconcile that 
conflict.
    Southwest Airlines, I think, it is a trendy term today, but 
Colleen Barrett, our president, had a whistleblower line before 
it was the thing to do. So you have to have an open door, you 
have to welcome feedback and information. It is that kind of an 
atmosphere that creates a culture of safety, quite frankly.
    Mr. Petri. We need some ideas or some reasonable procedures 
to prevent the self-disclosure program, which seems to be a 
well-intended, constructive one, from turning into a heads-up 
program where people, you are being accused of hiring, or 
inside dealings basically, because employees come and then they 
have relations with each other and the next thing you know, 
they are calling their buddies up and saying, we just are about 
to find out something that is going to, and you are going to be 
in it, so that is not the spirit of self-disclosure.
    Mr. Kelly. It is not.
    Mr. Petri. It is not really in anyone's long-term interest.
    Mr. Kelleher. No, it is not.
    Mr. Petri. So you need to figure out ways, as an industry, 
as well as we, to make something like this work for the 
traveling public.
    Mr. Kelly. We have found some opportunities here to put 
better checks and balances in place, to have more frequent 
audits, that would help mitigate the kind of thing that you are 
talking about. But in the end, I would still rather hear people 
disclose what problems are as opposed to have people incented 
to hide them.
    Mr. Oberstar. Thank you, Mr Petri. I appreciate your 
thoughts and you suggested some very important lines of further 
consideration.
    Chairwoman Brown, the Chair of our Rail Subcommittee.
    Ms. Brown of Florida. Thank you. Mr. Kelleher and Mr. 
Kelly, I want to tell you that most Members of Congress, they 
think they are experts definitely with aviation, because we 
travel two, four times a week. As I told you, I am from Florida 
and I use your airline all the time. In fact, in my other life, 
I used to be a travel agent. So I understand all of the 
wonderful things, on time, the cost, the safety, the fact that 
you have carried over a billion people.
    But this little incident, as you know, is a black eye on 
Southwest. I guess I have a couple of questions in that light. 
One of them is that your Washington representative said that 
neither you nor the management team had any knowledge of those 
violations until some of the stories started appearing in the 
press. Is this unusual? You know this has damaged the airlines. 
What have you done to make sure that this doesn't happen again?
    Mr. Kelly. Well, it is unusual. We have never found 
ourselves in this situation before, quite honestly. To put this 
particular matter into context, the reason that the mistake was 
made in the first place was because Southwest Airlines was 
making investments and modifications to our aircraft to make 
them safer. So we were reducing areas that had to be inspected 
previously by installing new solid metal panels.
    This one small area that Herb mentioned earlier was left 
off. Clearly, this experience has identified a change order 
control process that we want to improve upon. We don't find 
many errors, but I think what we have all heard all day is that 
we want to strive to be perfect. And I can guarantee you that 
we will strive to be perfect. I cannot guarantee you that we 
will be perfect. But we are always looking for opportunities to 
improve.
    And it is a black eye. But my commitment to you is that we 
are going to take this constructively and we are going to 
better for that. We have implemented already a number of 
changes within our regulatory compliance function so that we 
will escalate these issues to the proper management level 
without question. And we will address the root cause to 
mitigate the number of errors.
    Ms. Brown of Florida. Mr. Kelleher, if there was a song 
coming up that I really liked, like, you have personality and 
the airline represents kind of your personality, and you have 
done a great job. But we just finished talking about, and I 
know you heard it, about this culture as far as customer as 
opposed to stakeholder and the relationship between you all and 
FAA. Can you talk about that a little bit? Because basically, 
it seems as if the relationship is too close. Not that we want 
adversaries. But it is just the difference between me and Mr. 
Oberstar and me and Ms. Johnson.
    Mr. Kelleher. I think one of the things that the Committee 
has touched on here that is very, very meaningful, 
Congresswoman, and it is exactly what you said, from what I 
have now heard and from what I have found out, since this 
became an issue, there can be too much closeness between the 
regulator and the regulated. And we were very, Gary in 
particular, and Ron Ricks, were very disturbed to learn that 
this decision had been made without bringing it to the 
attention of even our vice president of maintenance. That will 
not happen again. I can assure you.
    But there was some kind of temporary malfunction there for 
some reason. We certainly don't want a relationship that is too 
cozy with the FAA. Because of course, that doesn't in the 
longer run do the carrier any good. The carrier needs to have 
people at the FAA saying, hey, wait a second, you are not doing 
this right, you can do this better, you need to revise your 
records. That sort of thing, that advice, that counsel, that 
guidance, I think is very important to the carrier, coming the 
other way. And apparently, we were a little shy on getting that 
too.
    Ms. Brown of Florida. Thank you. I yield back the balance 
of my time. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you. I now call on Chairwoman Johnson, 
Chair of our Water Resources Subcommittee.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I am probably one of the few people on this Committee that 
has known Southwest Airlines ever since there has been a 
Southwest Airlines. What I am concerned about, Mr. Kelleher, 
is, do you feel at any time that the safety of the passengers 
was breached during this time?
    Mr. Kelleher. No, I do not, in any way, shape or form. Let 
me give you a comparison, if I might. And I am bearing in mind 
the Chairman's admonition earlier against creep. I do 
understand that.
    But to put this in context, when you first come under the 
aging aircraft AD, right, you are just getting under it, the 
FAA gives you 4,500 cycles before you have to start inspecting. 
With our operations, that is about a year and a half before you 
have to start inspecting.
    We flew these airplanes for about eight months. I think 
Inspector Boutris mentioned 30 months, but that is not so. It 
was June of 2006 to February of 2007. And so what I am saying 
is that the FAA doesn't regard that there is any threat to the 
airplane from cracks until you fly it for a year and a half. We 
flew it less than a year and a half.
    Furthermore, as Gary Kelly said, we probably inspected that 
particular airplane and its fuselage 80 times during the year. 
Don't think that an airworthiness inspection directive is the 
only inspection that airlines apply to airplanes. We probably 
have four times as many regular inspections on our airplanes as 
the FAA requires. Those airplanes, it is like going to an 
internist twice a week for an examination with respect to the 
fuselage.
    And there is another special AD inspection that comes 
within seven tenths of an inch of where we are talking about. 
So it would be unusual to do that one and not go seven tenths 
of an inch and look at the other area of the fuselage.
    So no, I don't think there was any threat whatsoever to the 
safety of passengers during that time. And I base that on 
technical analysis, not just saying, nothing happened, even 
though we have never had anything happen from the passenger 
fatality standpoint, as I explained. I think the planes were 
perfectly safe and the public could have complete confidence in 
them.AFTER 6:00 p.m.
    Ms. Johnson. Thank you.
    Mr. Kelleher. Nobody flies them more than we do.
    Ms. Johnson. Mr. Bassler, have you been in communication 
with the Southwest Airlines manager of regulatory compliance 
since your reassignment?
    Mr. Bassler. Was that to me?
    Ms. Johnson. Yes.
    Mr. Bassler. No, ma'am.
    Ms. Johnson. Did you call from a Government phone or your 
personal cell phone when you attempted to----
    Mr. Bassler. After I was reassigned to the DFW FSDO? No. 
Not to my knowledge, no. I haven't had any communication with 
them. Not that I am aware of. Are you talking about Southwest 
Airlines employees, correct?
    Ms. Johnson. Yes.
    Mr. Bassler. No.
    Ms. Johnson. Did you say you requested the reassignment?
    Mr. Bassler. Yes, ma'am, I did. Back in October of 2007.
    Ms. Johnson. And what was your major frustration at the 
time?
    Mr. Bassler. There was a very hostile work environment. And 
we had brought it to the attention of management up to region, 
many, many investigations came through there over the issue. 
And nothing was done about it. It was continually dysfunctional 
and hostile.
    Ms. Johnson. Did you have a conversation with the person 
who is now on suspension that was in charge of the Southwest 
Airlines inspection?
    Mr. Bassler. The principal maintenance inspector?
    Ms. Johnson. Pardon me?
    Mr. Bassler. The principal maintenance inspector?
    Ms. Johnson. Yes.
    Mr. Bassler. Doug Gawadzinski?
    Ms. Johnson. I am sorry, I don't know his name. The person 
that got suspended from Southwest when they found out about 
the----
    Mr. Bassler. Mr. Gawadzinski, correct? Because there were 
two, there was Mr. Mills, I think, the manager, and Mr. 
Gawadzinski. If you are talking about Mr. Gawadzinski, I have 
conversed with him since, yes. Not on these topics, though.
    Ms. Johnson. Pardon me?
    Mr. Bassler. Not on these topics, though.
    Ms. Johnson. Okay. But do you feel that he was lax in his 
responsibility and did you talk with him about it?
    Mr. Bassler. As I said in my testimony, I wasn't privy to 
the information because I am avionics and he was maintenance. 
He wasn't my direct supervisor. I didn't directly work for him.
    I did have, when my supervisor PAI was out of town or if he 
was incapacitated, I of course would fill in for him as the PAI 
on occasion. So during the two and a half years, I had gone to 
meetings as the PAI with the PMI. And at no time had I ever 
seen that type of behavior exhibited by Mr. Gawadzinski, at 
least in my presence.
    Ms. Johnson. Okay. Thank you. I apologize for having been 
absent a period of time. But lots of things go on at the same 
time here. Thank you very much, Mr. Chairman.
    Mr. Oberstar. Mr. Cummings, Chair of our Coast Guard 
Subcommittee.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank all of you for your testimony.
    Let me talk very briefly, Mr. Kelly, you talked about 
improvements to the voluntary disclosure program. I want to 
know exactly what you may have had in mind. I want to go back 
to something that Ranking Member Petri talked about. He was 
saying sometimes you can have a voluntary disclosure and people 
abuse it. That is true. In Baltimore, we had a situation where 
at a hospital they were giving AIDS tests and hepatitis B tests 
with equipment that did not work. Thousands of them, thousands 
of AIDS tests, people getting the wrong results. And if it were 
not for disclosure, we would have never known it.
    Part of the problem with the disclosure is that when it was 
disclosed, management sort of suppressed it and kept it sort of 
in a little cocoon, and it never got past a certain point. I 
guess what I am getting at is, I get the impression that you 
are looking at your voluntary disclosure procedures and trying 
to make sure they are what you want them to be.
    I think we have to be very careful and set a different kind 
of standard when we are talking about life or death. In other 
words, I don't worry so much about, I do understand people may 
abuse the process. But I agree with you that I would rather 
know than not know. If you are talking about life or death, 
those pilots sitting back there, if it is going to their lives 
and al the passengers that they fly around, I want to know.
    So I hope that when you reevaluate, you said you were 
looking at it and whatever, I hope you will keep that in mind. 
I understand what Mr. Petri is saying, but we are talking about 
thousands of flights and thousands of people. We are also 
talking about that thing that I talked about a little bit 
earlier, that trust that things are in order.
    Did you have a comment on that?
    Mr. Kelly. Well, yes, sir and hopefully I can clarify. I am 
a huge proponent of our voluntary disclosure program, because 
we do want to know, we want to know the truth. If mistakes are 
made, we want people to feel comfortable that they can report 
mistakes without some kind of punishment.
    The point that I was making earlier is we want to make sure 
that that is a credible self-reporting process and have enough 
proper research done, have enough independent checks and 
balances to look at that to make sure that the proper decision 
is being made about how to deal with a matter once it becomes 
known.
    I am more concern about that, in other words.
    Mr. Cummings. And I guess at the earliest possible point. 
In other words, making that determination.
    Mr. Kelly. Yes, sir, and I think that is part of the 
complication and trying to discuss these issues in a one size 
fits all fashion. As Herb was describing earlier, he has 
colorfully described this, the AD requirements as not being the 
10 Commandments. So they are very complex, they are very 
overlapping. It doest require research often to determine if 
there is in fact an issue.
    And Mr. Chairman, for the record, if I could, the rudder is 
a similar scenario, where there was a possible non-compliance 
that was discovered like the AD in question that we are talking 
about for March. Both issues were self-reported. Upon further 
research, one was ultimately determined to be truly a non-
compliance issue. The rudder issue, once we completed our 
research there, it was found that it in fact was not a non-
compliance.
    So out of an abundance of caution, we did the self-
disclosure there. So sometimes it does take some effort, and we 
do want to do exactly what you said, which is encourage people, 
once there is some credible evidence that there is a problem, 
to bring it up so that it can be researched properly and we can 
make the right, safe decision.
    Mr. Cummings. I am running out of time, I just want to ask 
you both this other question. I think you both talked about the 
change order process, you were trying to improve the planes. 
And come to find out, there is that space that you talked about 
that you somehow were maybe not aware of that, that it needed 
inspection also. Is there something that the FAA needs to do to 
make sure that it is very, very clear that when you make X, Y, 
Z improvements you still have to deal with certain things? In 
other words, what we want to do is make sure that we don't, and 
I know you don't, want to go down this road again. Since you 
all are doing, trying to make your planes safer, it seems to me 
we would want to make sure that we are very clear as to what 
still needs to be inspected. Since I assume that this is an 
ongoing process, you are constantly trying to make airplanes 
better, how do you make sure that you have all the information 
you need to be able to accomplish what I just said?
    Mr. Kelleher. As the Administrator said, as I mentioned 
earlier, Congressman, this particular set of ADs is six in 
number, pertaining to the same issue. And furthermore, as a 
result of the voluntary program that we have undertaken at 
enormous expense to improve these airplanes, you get into a 
situation where you get an interaction between the ADs. In 
other words, if you replace the skins on this part of the 
airplane, you don't have to inspect these other parts of the 
airplane.
    Well, airplanes are big. They have a lot of skin. And under 
that circumstance, it is no excuse, but I can understand the 
engineer missing the fact that you still needed to inspect this 
part of the airplane, despite the fact that the rest of it was 
exempt. And those particular ADs, I think, could be streamlined 
and simplified. I don't mean to imply, nor does Gary Kelly in 
any way, shape or form, as a way to get out from under them. It 
is just to make them more understandable, so they are easier to 
comply with and easier to enforce.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Cummings.
    Mr. Carney, the gentleman from Pennsylvania.
    Mr. Carney. Thank you, Mr. Chairman. I want to thank the 
panel for their patience. I can imagine you are going to do a 
lot of standing this evening.
    [Laughter.]
    Mr. Carney. Everybody understands the context in which 
these hearings are being held, and the state of the airline 
industry and Southwest is much better than your competitors in 
many regards. But still it is tough context, fuel prices, tough 
economy, et cetera. We never want to create the perception here 
that the airlines are cutting corners on safety in this 
context. I hope we can put that to rest, and we are all going 
to have to work very closely in this Committee in particular. 
We are doing our jobs from the Hill here, and you and all your 
competitors are also going to have to do that.
    Mr. Kelleher. Could I make a comment that might be helpful, 
Congressman, in that respect? When deregulation took place, 
there were a lot of predictions that because of the enhanced 
competition in the industry, the safety of the industry would 
be reduced. Because they said, ah, more competition, fewer 
profits as a result of it, and airlines would start cutting 
back on their maintenance. They didn't. Their record was better 
after deregulation than it was prior to that time.
    Mr. Carney. Mr. Kelleher, I understand.
    Mr. Kelleher. And I think we are in that situation now, 
where no airline is going to sacrifice, no matter what the 
economy is like.
    Mr. Carney. I certainly hope so. But you can understand the 
perception out there, because I hear that from my colleagues, 
and frankly, my constituents are a little nervous sometimes.
    Mr. Kelleher. I want to reassure them.
    Mr. Carney. Of course, although you don't fly anywhere near 
my district, I am afraid. We can talk about that offline 
sometime.
    For Mr. Kelly and Mr. Kelleher, has your investigation been 
able to determine whether anyone in your tech ops organization 
pressured Paul Comeau to keep the airplanes in service after 
the self-disclosure was filed, or was that his decision alone?
    Mr. Kelly. That investigation is still continuing. We have 
testimony and other words from some employees. We have been 
able to audit some records, but there is obviously more input 
that we could gain, so at this point, no, there is no evidence 
of that.
    Mr. Carney. Okay. Did you take 70 aircraft offline for the 
rudder PCU issue? Or did you self-disclose at least 70?
    Mr. Kelly. I would love to spend maybe two minutes 
describing the rudder issue to clarify.
    Mr. Carney. That is up to Mr. Oberstar. He has been very 
generous today, so I think he will probably let us.
    Mr. Kelly. This is a March 2007 matter.
    Mr. Oberstar. This is the modification you made at Boeing, 
that Boeing recommended that you didn't have to do but you did 
anyway?
    Mr. Kelly. On the rudder.
    Mr. Oberstar. No, on the windows.
    Mr. Kelly. No, this is on the rudder, sir.
    Mr. Oberstar. You're talking about the rudder. All right.
    Mr. Kelly. So just a little background. The rudder has two 
separate power units. It has the main power unit with two 
hydraulic lines coming in, it has the standby power unit. The 
main power unit is subject to an Airworthiness Directive. The 
standby power unit is not. It is not.
    It is the standby power unit that we had information that 
there was a possible non-compliance with our maintenance 
program, not with an AD, with our maintenance program. And we 
self-disclosed that. Initially, we did think it was 70 
airplanes. After we researched it, we eliminated 52. They were 
in full compliance. We discovered that a year ago. Once we 
completed our research this year, we found that all of those 
airplanes were in fact compliant with our maintenance program.
    Mr. Carney. How long does research take on that sort of 
thing?
    Mr. Kelly. This particular one was confusing. Because of 
again just all the complexities associated with the changes 
that have been made to the rudder over the years. But in this 
particular case, it took a while to look at the paper trail, 
probably took three or four weeks. But we did not do, we did 
not complete the research last year to determine whether we 
were in compliance. We simply made the self-disclosure. We got 
the proper FAA approval for the remedy and we made the remedial 
action last year, even though we later found out that we didn't 
have to do that.
    So it was an abundance of caution and hindsight.
    Mr. Carney. That is good to know. I appreciate that.
    One more question, actually, for Mr. Collamore and Mr. 
Bassler. Isn't it true that another team of inspectors 
performed the same inspections at Southwest Airlines after you 
did, and you found 50 favorable findings and 8 negative, is 
that correct? And the other team found, changed it actually to 
41 negative findings and 17 favorable ones?
    Mr. Collamore. Actually, that SAI has been accomplished 
five times with five different results.
    Mr. Carney. Do we have an average of those results then?
    [Laughter.]
    Mr. Collamore. Not on me, no, sir.
    Mr. Carney. Mr. Bassler?
    Mr. Bassler. I would like to add something, too, Mr. 
Carney. I pulled up the data, that ATOS data repository. We had 
nine noes and of the nine noes, we had an inspector action 
taken, which is required even under 1.1 on every single one, 
including an investigation EIR for the one that was the only 
one that was regulatory. An EIR was sent.
    The one that they did right after ours, which was under 
1.2, which has even stricter requirements, they had 17 noes and 
out of the 17 noes, 15 have no action taken.
    Mr. Carney. Why is that?
    Mr. Bassler. That is a good question. And that is what I am 
trying to raise, is that our data is skewed. I know, I can tell 
you----
    Mr. Carney. Hold on, hold it, hold it, Mr. Bassler, hold on 
a second. I kind of want to get to the crux of something here. 
How much subjectivity is actually in this process? It seems to 
me that there is some hard science here that you actually have 
to follow.
    Mr. Bassler. You answer the question. You answer the 
question. We are told, when we answer these questions, if it is 
a yes, it can be no yes, but, it is a yes, move along. We have 
been drilled on that for 10 years. In the SAI they have 
incorporated now, yes comments are required, under 1.2. But in 
the EPIs they are not still required to have yes comments. The 
reason being is when you get, it is good information to have 
when an inspector goes out there and he does an SAI of the 
subsystem level, which is what the SAI is, to look at the 
program, do they have a program in place? For the next 
inspector that comes along a year or two later, you want to see 
where is it, where is it in the manual system.
    But like I said, here you have one, when this was right 
after ours, when it was known that this was a hot, critical 
issue, a supervisor was the TC and 15 noes have no action 
taken. How did that get through the data quality, all the way 
through the DEPM to the data base with no actions taken? That 
means you have 15 no answers. What is the FAA doing about it?
    I am pretty sure you can go to the office and find there 
was a letter sent. I am almost sure. I know these two 
individuals, there was a letter sent. But the data base doesn't 
reflect it.
    Mr. Carney. Well, data base management is certainly a 
critical factor here. If we can't go back and do a research or 
do a history on a plane or fleet, that is certainly an issue. 
But I think that we probably need to get a lot less 
subjectivity in the process and a lot more objectivity in the 
process by all members, everybody involved in this process.
    Gentlemen, I thank you for your time. It has been a long 
time and I appreciate your patience. Thank you. No further 
questions.
    Mr. Oberstar. Thank you.
    Mr. DeFazio, Chair of our Surface Transportation 
Subcommittee.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I 
regret I had to miss some of the testimony, I had to go do a 
television feed.
    To either Mr. Kelleher or Mr. Kelly, this is a very 
substantial fine and in my recollection it is one of the 
largest, if not the largest ever assessed. But I also know 
historically with the FAA, things happen. There is a lot of 
publicity about a big fine. And then the fine is appealed and 
reduced and ends up in many cases being insignificant.
    Have you or do you intend to appeal this fine and have it 
reduced?
    Mr. Kelleher. We have not sat down with the FAA legal 
department to discuss what approaches might be taken one way or 
the other. Although as soon as we found out about what had been 
transpiring, Congressman, Gary did take all this to Washington 
and sit down with the FAA with respect to the issue. But the 
fine itself was not, the amount of the fine was not discussed.
    Mr. DeFazio. Right. But you would not be unique among 
airlines, it would be standard practice if you were to seek to 
have this reduced. But the FAA has made much to do here today 
about the magnitude of this fine and the gravity of the 
situation and how serious they are about changing the systemic 
problems we have. I just want to kind of put a caveat on that, 
it may or may not end up being a $10.2 million fine.
    Mr. Kelleher. That is possible. That is entirely possible. 
And may I suggest in sort of a sotto voce way that perhaps, if 
this Committee had not been as active as it is, it might have 
been a lower fine.
    Mr. DeFazio. Yes, and I am afraid we may not have gotten 
some of the assurances we got. I have to say that Mr. Bassler's 
testimony is a bit confusing to me, because initially I thought 
in talking about the tumult in the office and the personality 
conflicts, he was saying that effectively there were no 
problems, which I would have questioned because of what the IG 
found. But now what he is saying is there might have even been 
more problems that somehow later got swept under the rug. Is 
that the thrust of your testimony here, that those 15 that you 
say are unanswered?
    Mr. Bassler. Mr. DeFazio, I am raising the question that 
the data bases that we have in the FAA and the policies and 
procedures that we have in place, and you have to remember that 
when these two SAIs were done, one was done under 1.1, which at 
the time was the national policy, when Larry and myself did the 
SAI, this was under 1.2 with even stricter requirements. How 
does that pass all those quality processes.
    And how can you do the same SAI five times by AFS 900, I 
don't even know how many, because I haven't even been privy to 
that, I just heard it was done five times after ours and they 
all came out with different conclusions. There is something 
wrong with either the process or the questions we are asking 
here or how you view it.
    Mr. DeFazio. I would reflect that when I was a ranking 
Democrat and they were developing this ATOS process, I had Mr. 
Sabatini and others in three or four times to explain to me how 
this might work. I expressed at the time that I was really 
dubious that this was going to be an effective program. I 
understand the idea of mega data and trying to look for 
anomalies and targeting those sorts of things.
    But I said to them then, and I guess I would repeat now, I 
would rather have the inspectors out in the field, the good 
old-fashioned way, armed with as much data as we can give them, 
but not sitting there just plugging stuff into a computer 
program. Because it does seem that this program, which I have 
never understood, does potentially have some problems.
    Mr. Bassler. Sir, may I just add, and just remember that at 
the SAI level, you are at a sub-system level. So you are 
looking at the program. You are not necessarily touching the 
airplane. That is where the EPI comes in.
    Mr. DeFazio. I understand, and that is a big concern to me. 
At the time, when I was relating this back to Mr. Sabatini many 
years ago, I recounted how United did its in-house maintenance 
then, and I had just been to the United facility at San 
Francisco. And an old-time mechanic had found a problem with a 
rotor that shouldn't have been there, but something wasn't 
quite right, so then he required they do additional testing and 
whatever they call it, flux testing, and they can find these 
micro-cracks.
    It is the same thing, people who are there with hands-on 
experience and looking over someone's shoulder and seeing what 
someone is doing and talking to them, I think they are going to 
pick up some of the threads that we are trying to pick up with 
this ATOS thing, personally, but that is my own Luddite 
prejudice, I guess.
    Thank you, Mr. Chairman.
    Mr. Oberstar. It is not Luddite in the least, and Mr. 
Sabatini earlier committed to modifying this voluntary 
disclosure program and correcting holes in it and reporting 
back to us in due course.
    Ms. Brown.
    Ms. Brown of Florida. Yes, Mr. Chairman, I just have one 
follow-up question.
    With respect to all recent grounding, you know, Delta had a 
big one, and I think American, do you think the type of non-
compliance we are now seeing with previously allowing aircraft 
to continue in operation instead of grounding?
    Mr. Kelleher. I am not really familiar from the technical 
standpoint with what required the grounding at the other 
carriers. And if I were to give an opinion on that, I think I 
would have to be inside those carriers or inside the FAA. So it 
is really hard to tell exactly what transpired. I have read 
press accounts of what went on with respect to some of the 
airplanes. But I really don't have any insight into how serious 
the issues were with the other carriers.
    Ms. Brown of Florida. Mr. Kelly?
    Mr. Kelly. I don't have any insight at all as to what 
happened at other carriers. I can describe our own March 11th 
experience, which was in creating a new document for a change 
order, and being ever-vigilant in this environment, we did find 
an instruction that was conflicting. It was confusing. We used 
the word ambiguous. It was unclear which type of inspection was 
required for 44 of our aircraft. Mind you, we did an 
inspection. We just weren't certain that we did the inspection 
with the right method. It is either with an electrical device 
or doing it visually.
    We talked to Boeing, we talked to the FAA. All agreed that 
the wording was ambiguous. So they asked us to perform the most 
conservative inspection on the night of March 11th. Once we 
tried to do that inspection, we found that it could not be 
done. The metal was such that it would not accept this 
electrical eddy current device. It took all day on March 12th 
to resolve that particular discrepancy.
    So I do think that you will find things like that when all 
of this is subjected to that level of scrutiny. I am not 
complaining about it, but I am just pointing out that some of 
the reactions that you might be seeing are in fact just taking 
it to that level of detail. We had one aircraft that was 
grounded for an entire weekend over a washer that is less than 
the size of a dime. Historically, manufacturing allowances are 
such that you could use one washer, two washers, up to three 
washers. We had two washers on one bolt that was about an inch 
and a half long. And it took all weekend to resolve whether we 
could use two washers instead of one washer.
    So there is that kind of detail that is embedded in 1,110 
pages of inspections that human beings are being subjected to 
try to work their way through. So I am sympathetic to what some 
of the airlines are going through.
    Ms. Brown of Florida. Would either one of you like to 
respond to that question?
    Mr. Collamore. I think the thing that led us astray was if 
you looked in the preamble to the AD 2004-1806, the particular 
question was asked about the area that Southwest Airlines had 
missed during the NPRM stage that because of the window belt 
and the over-wing exits the extra skin and doubler inside made 
that area on stringer 10 between body stations 540 and 727 
extremely difficult, if not impossible to inspect. And the 
FAA's response at that time, from the ACO, the aircraft 
certification office, was that because of the extra skin and 
the doublers in that area, they did not consider that area as a 
cracking concern.
    I can't speak for Mr. Gawadzinski. But I believe that that 
was what he had based his decision on to allow those airplanes 
to be flown, because that was the exact same area that 
Southwest Airlines had disclosed to us.
    Ms. Brown of Florida. Thank you, Mr. Chairman. I yield back 
the balance of my time.
    Mr. Oberstar. Thank you for those questions. They are very 
pertinent and very right on point.
    Mr. Kelleher and Mr. Kelly, earlier in the exchange, you 
one, referred to a statement by Mr. Boutris that, or attributed 
to him the 30-month violation. In fact, this is documented in 
your own self-disclosure detail document on page three, time 
violation remained undetected, 30 months. This is your own 
document.
    Reason why the violation was inadvertent, your response is, 
due to individual human errors during the document data 
transition, I won't go through all the items, were 
inadvertently, the inspections were inadvertently omitted. 
Unfortunately, due to the extended time span, we cannot 
definitively determine the exact reasons the initial error 
occurred and was then overlooked during creation of the 
document, its revisions and reviews. We can reason that the 
error occurred because of the complex nature of the ADs 
involved.
    Do you disagree with the ADs?
    Mr. Kelly. Mr. Chairman, I don't remember the 30 months. 
But our executive vice president reminds me that the 30 months 
maybe the time that the document was out there in error, but 
the actual aircraft were not in non-compliance for that entire 
time period.
    Mr. Oberstar. But do you disagree with this directive?
    Mr. Kelly. No, I don't disagree with the AD, no.
    Mr. Oberstar. Good. There is a process by which you can 
disagree with Airworthiness Directives, not only you but all 
airlines.
    Mr. Kelly. No, sir.
    Mr. Oberstar. You haven't done that and you're not in 
disagreement?
    Mr. Kelly. We are not, no.
    Mr. Oberstar. Count one of the FAA fine imposition reads, 
``Fifty-nine thousand seven hundred ninety-one of the flight 
cycles addressed in paragraph 16 were operated at the time when 
Southwest Airlines was unaware of its failure to incorporate 
the repetitive external detailed and eddy current inspections 
of stringer 10 left and right at body stations 540, 597 and 
663, 727 at intervals not to exceed 4,500 flight cycles.''
    Number 17, ``The aircraft addressed in paragraph two were 
un-airworthy when they were operated on the flights above 
because required AD inspections had not been accomplished.'' 
That is the finding of the FAA. Do you disagree with that?
    Mr. Kelly. I think we have fully admitted that once we 
discovered the non-compliance and self-reported it, that we 
should not have continued to fly those aircraft based on what 
we know today. So we certainly don't agree with that.
    Mr. Oberstar. And that is the statement Mr. Kelleher made 
earlier, we should not have flown?
    Mr. Kelly. Yes, sir.
    Mr. Oberstar. There are maybe many other questions, but 
again, I just want to underscore that it is your own document 
that says, time violation remained undetected, 30 months. This 
was not attributable to an FAA inspector. This is your own 
filing, your own admission. And I think that is appropriate. It 
is candid. You should not be disputing the time frame.
    Mr. Kelly. Well, again, as I say, my recollection is based 
on the schedule of aircraft that I looked at, that the time 
that we were beyond the 4,500 cycle requirement, the longest 
time period was eight months. What I think the 30 months refers 
to is the time that the AD documentation was created that had 
the small area missing from the inspection. So I believe that 
that is what the 30 months is. But I apologize, otherwise I 
just, I don't recall the 30 months.
    Mr. Oberstar. It is clear from the body of evidence 
presented today and the testimony that there is a great deal of 
adjustment that needs to be made and process at issue here. 
Voluntary disclosure, partnerships, relationships, the ability 
of a carrier to call and complain about an inspector and have 
that person removed, those are things that should not be 
happening within the safety context of FAA and its relationship 
with the airlines. As Mr. Sabatini said earlier in response to 
my questions, there are going to be substantial adjustments on 
a number of those policies, and we will follow those very, very 
closely. We look forward to airline participation in this 
process as well.
    I thank the panel for their presentation and testimony, and 
appreciate your being here throughout this very long day.
    Mr. Kelly. Thank you very much.
    Mr. Kelleher. Thank you for the opportunity to appear.
    Mr. Oberstar. You are always welcome.
    Our next panel includes Mr. Tom Brantley, President of the 
Professional Aviation Safety Specialists organization, 
accompanied by Linda Goodrich, Vice President, Region IV of 
PASS; Mr. Richard Andrews, Aviation Safety Inspector, American 
Eagle Operations Unit, also of PASS; Mr. Joseph P. Thrash, 
Aviation Safety Inspector, retired, for Continental Airlines; 
and Mr. Bill McNease, retired Aviation Safety Inspector, FedEx 
CMO.
    I will ask you all to raise your right hand. Do you 
solemnly swear that the testimony you will give before this 
Committee in the matters now under consideration will be the 
truth, the whole truth and nothing but the truth, so help you, 
God?
    [Witnesses respond in the affirmative.]
    Mr. Oberstar. Thank you.
    Mr. Brantley, we will begin with you.

  TESTIMONY OF TOM BRANTLEY, PRESIDENT, PROFESSIONAL AVIATION 
 SAFETY SPECIALISTS, ACCOMPANIED BY LINDA GOODRICH, REGION IV 
   VICE PRESIDENT, PROFESSIONAL AVIATION SAFETY SPECIALISTS; 
 RICHARD A. ANDREWS, AVIATION SAFETY INSPECTOR, AMERICAN EAGLE 
    OPERATIONS UNIT, AMR CMO, PROFESSIONAL AVIATION SAFETY 
    SPECIALISTS; JOSEPH P. THRASH, RETIRED AVIATION SAFETY 
INSPECTOR, CONTINENTAL AIRLINES CMO; AND BILL MC NEASE, RETIRED 
              AVIATION SAFETY INSPECTOR, FEDEX CMO

    Mr. Brantley. Thank you, Mr. Chairman.
    I want to begin by quickly introducing the people here with 
me. I think they may very well end up being helpful. Linda 
Goodrich, as you said, our Regional Vice President, 
representing our aviation safety inspectors. And Rick Andrews, 
a retired FAA safety inspector. I want to thank Rick for 
offering his own comments today.
    In the interest of time, I am going to dispense with my 
prepared remarks. I would just like to comment on a few things 
I have heard today that I found very disturbing. They relate to 
this idea of whether this is an isolated incident, what 
happened in the Southwest CMO or whether it is a systemic 
problem. I see the FAA trying very hard to portray this problem 
as a Southwest CMO problem.
    What I would offer is that there are problems in that CMO 
that are unique. They have the two factions down there that are 
battling constantly. That really exacerbated the problems with 
their system. But I think what we are seeing is a systemic 
problem. The fact that we are seeing delays and cancellations 
at many airlines, because they are grounding planes for checks, 
for maintenance that they are concerned hasn't been done or 
that in fact has not been done, speaks to the fact that this is 
a systemic problem. I think trying to portray it as anything 
else is a little misleading by FAA.
    Along those lines, one of the things that has been most 
disturbing to me has been the way the FAA has described this 
special review that they have undertaken over the last 10 days. 
I think it is clear to everyone that was nothing more than an 
attempt to paint a picture for this Committee, plain and 
simple. That review was set up in a manner that there was no 
way they would find problems.
    I mean, quite frankly, they made a public announcement that 
they are doing this special review, and then they quietly sent 
direction to inspectors that unless the aircraft is already out 
of service for heavy maintenance, don't worry about a visual or 
physical inspection. Review the data that you are provided by 
the airline and make your determination based on that. That is 
exactly what they did before this review.
    So to expect them to find a problem that hadn't already 
been found is kind of ludicrous. I think the biggest fear that 
I have isn't that we know how unsafe things are, it is that we 
have no idea right now what the status of the industry's 
compliance with these airworthiness directives is. Frankly, 
right now, we don't have any idea. We can guess that the 
majority of them are done, and I think that is safe.
    But without having the physical inspections that verify 
compliance, I think it leaves everyone wondering exactly where 
we are. I think until the FAA integrates that piece back into 
their process, it is going to be a flawed process. I don't care 
how much data you collect, if you don't know that the data is 
good, it is meaningless, it is absolutely useless, as you 
mentioned earlier, Mr. Chairman.
    I think until the agency is forthcoming about that and 
faces that problem and deals with it, this is not going away. I 
will conclude on that and I look forward to any questions you 
might have.
    Mr. Oberstar. Thank you for your candor.
    Ms. Goodrich?
    Ms. Goodrich. I am going to turn this over to Rick Andrews.
    Mr. Andrews. Chairman Oberstar, Members of this Committee, 
thank you for holding these hearings on the relationship 
between the FAA and the airlines. My name is Richard Andrews. I 
was employed as an aviation safety inspector by the FAA at the 
American Eagle Certificate Management Office in the Southwest 
Region and assigned as an aircrew program manager in the 
American Eagle unit until March 31st of this year.
    I am a member of the Professional Aviation Safety 
Specialists and I served as the PASS representative for the 
American Eagle Airlines Operations Unit in that Certificate 
Management Office.
    I have worked for the FAA over 31 years. During that time, 
I have witnessed dramatic changes in the aviation industry. 
When I first started my career with the FAA, safety of the 
system was the priority. With the financial hardships facing 
many of the airlines and the pay for performance mentality of 
FAA managers, safety has become a second thought.
    My work at the Certificate Management Office has proven to 
me that management's primary goal is to fill the quotas for the 
office, in other words, producing members is the focus, rather 
than getting the job done right. As FAA inspectors, we are the 
workforce trained to focus only on the safety of the system. It 
is beyond frustrating when we discover a problem with an air 
carrier and are prevented from doing anything about it. We are 
frequently stopped in our tracks by several layers of 
management and our focus is on pleasing the airlines.
    Thirty-one years ago, I was out in the field with my hands 
on airplanes and looking for safety problems. I had the power 
to make a difference. Now, in the age of self-disclosure and 
the tight relationships between FAA management and the 
airlines, inspectors are sitting at their desks getting their 
information into a computer. Unfortunately, what suffers most 
from all this is the safety of the system.
    I have seen and experienced the repercussions of these cozy 
relationships between the FAA and airlines in the past. A 
recent situation illustrates the point. In October of 2007, I 
met with the American Eagle Unit assistant manager and 
principal operations inspector to discuss the status of 
American Eagle Airlines' flight operations and training. It was 
agreed that American Eagle should be under surveillance, and I 
was asked to start doing an in-depth evaluation of their 
manuals and programs. After several months of working on this 
project, in addition to my other full-time assignments, I came 
up with numerous issues that placed regulatory compliance in 
question.
    After completing my research, I drafted 11 letters 
detailing handbooks, compliance issues, procedural problems and 
training issues. The drafts were forwarded to the principal 
inspector so that he could put them into formal FAA letter 
format. The principal inspector forwarded those letters to the 
unit supervisor. And in November of 2007 and again in January 
of 2008, I asked the unit supervisor about the status of the 
letters in the presence of the principal inspector and the 
assistant unit manager. On both occasions, the unit supervisor, 
who I have been told used to work for American Eagle, responded 
that we cannot send all those letters to American Eagle, as it 
``will overwhelm them.''
    However, after details of this hearing were released, I was 
notified last week by the principal inspector that the unit 
supervisor has now told him, get those letters out of this 
office. It took over four months for anything to happen with 
these letters. I am confident that nothing would have happened 
if not for this hearing.
    Due to the extended delay in sending out the letters, 
several of the compliance issues I discovered remain 
unaddressed or undocumented. I was forced to attempt to do 
work-arounds on many of the issues. This has not damaged my 
credibility with the air carrier, but it is not the best way to 
address situations so important to public safety.
    As I previously stated, I retired at the end of last month. 
I would have worked longer, but I could not do so under the 
current conditions that prevail at the FAA. Inspectors in large 
offices are confined by all these get out of jail free 
programs, and FAA's management's refusal to hold airlines 
accountable.
    Again, I thank the Committee for holding these hearings and 
investigating these serious issues. As an experienced FAA 
inspector, I believe nothing should ever be more important that 
the agency's safety mission. Thank you.
    Mr. Oberstar. Thank you very much, Mr. Andrews. I greatly 
appreciate your testimony. It raises issues that I will come 
back to in a moment.
    Mr. Thrash?
    Mr. Thrash. I have heard Sam Rayburn's name only once 
today, so I would like to hear it again. I would like to thank 
the people from Tennessee for sending Sam Houston down to what 
we can now say is Texas, and that is where I came from, through 
Houston, via Lufkin, Houston, up here.
    So they sent us both, Sam Rayburn and Sam Houston. So if 
there is any Tennessee people out there, I want to thank you 
very much. And I hope we can invoke their spirit in your hearts 
to have the strength to follow through on some of the facts of 
the matter that you have heard today.
    I look around here and some of the people that I wanted to 
talk to are gone. That is Mr. Stuckey, Mr. Sabatini and Mr. 
Ballough. By the way, my name is Phil Thrash, and I have about 
40 years operational aviation experience, military, part 121 
Frontier Airlines. I was in the FAA unit that oversaw 
Continental Airlines for 20 years. My last 10 years I served as 
an FG-1825, that is an aviation safety inspector, air carrier 
operations. My job description was the aircrew program manager 
over the Continental Airlines Certificate Management Group in 
Houston, Texas.
    We do, did, when I left, have a functional CMO. My beef is 
not with the airlines, but it is with FAA higher level 
management. I put my family in the back of any of those 
airlines right now, because that was my job, to enure that 
their manuals and training programs complied with the orders of 
the FAA and the regulations. My executive summary, which you 
have, Continental Airlines contract mechanic was killed during 
ground operations January 16th at El Paso, Texas. This was a 
fatal aircraft accident and the flight crews' actions were 
accepted into FAA's ASAP program during the week following the 
accident. The week following the accident.
    As the FAA's Boeing 737 aircrew program manager in the 
Continental Airlines Certificate Management Office, I sent a 
February 14th, 2006 e-mail to my professional disagreement with 
the ASAP's decision to Administrator Blakey. On February 27th I 
was interviewed by Assistant Manager of the FAA's American 
Airlines CMO, Mr. Don Klos, regarding my e-mail concerns at the 
request of Mr. Thomas Stuckey, who has departed. We know who he 
is.
    During the interview, Mr. Klos stated the previous week 
that he had visited Thomas Stuckey and indicated that 
Administrator Blakey and FAA's Associate Administrator, Mr. 
Sabatini, who was also a part of these proceedings, told Mr. 
Stuckey to investigate how the El Paso matter had gotten 
accepted into ASAP. Mr. Klos stated during this February 27th, 
2006 interview that he and Thomas Stuckey agreed that the 
accident should not have been accepted into ASAP, but that 
``Washington FAA'' would have the final call.
    I advised Mr. Klos that the Continental CMO certificate 
manager, Bernie Mullins, and Principal Operations Inspector, 
John Merrifield, had stated in previous meetings with me that 
ASAP had not provided any precursors to the El Paso accident. 
The horse was already out of the barn. There was no quid pro 
quo. That is what ASAP is based on, you get amnesty, you give 
something. There was no quid pro quo.
    A December 17th, 2001 memo by AFS-1 Director of Flight 
Standards Service, Mr. Ballough, might be the key that Mr. 
Scovel can use in your wisely-directed order to him to inspect 
this ASAP program. This is a key memo, because it gives the 
ASAP FAA event review committee member total autonomy in his or 
her decision to accept or reject the crew member's ASAP report. 
This event review committee is made up of three people: two 
Continental people, usually a senior management captain and 
usually a union representative. The FAA event representative 
ASAP in our Continental Certificate Management Office was a 
retired was a retired Continental Airlines pilot.
    After the El Paso accident occurred, another Continental 
Boeing 737 safety-related incident occurred, which was accepted 
into ASAP. The Continental manager then, Bernie Mullins, 
removed this ASAP representative from the ASAP program. During 
this FAA ASAP representative's tenure from 2001 to 2006, I was 
never contacted regarding any ASAP reports. The manager, POIs 
and APMs could not access APM's data repository to gather risk 
indicators, accident precursors on which to focus our limited 
inspector resources. From the summer of 2006 until my 
retirement, I conducted two enforcement investigative reports 
regarding FAR violations and four reexaminations of airmen 
under 47 U.S. Code, that is the Aviation Code, 44709 paragraph, 
which was after this former ASAP representative, the ex-
Continental Airlines captain, was removed from his ASAP 
position and was replaced with the aviation safety inspector, 
who was rated on the 737.
    During this tenure, from 2001 to 2006, this former ASAP 
person, the Continental Airlines representative, was not 
qualified on any of Continental's all-Boeing fleet.
    AFS-2, FAA Deputy Director of Flight Standards Service, 
John Allen, wrote an FAA memo dated April 28th to Administrator 
Blakey as FAA's Flight Standards official position to my 
February 14th, 2006 e-mail. Allen's memo appears to obfuscate 
the facts that happened at El Paso to cover up these facts to 
support that FAA's highest level management in the FAA's Flight 
Standards Service, AFS-1's, Mr. Ballough, who is not here now, 
and AFS-2's decision to sustain this matter acceptance into 
ASAP. This memo is in the written testimony. It contains 
fictionalizations, false statements, innuendoes and unfounded 
conclusions. I recommend your questions to me in that regard.
    If Mr. Allen's official memo of record was an intentional 
obfuscation of facts, he may be in violation of Federal laws. 
If Mr. Allen's official record contains unintentional mistakes 
and misstatements of facts, he might be seen as incompetent. I 
don't know if the Secretary of Transportation is still Ms. 
Peters or not, she is? Well, I think she might need to know 
about that as well.
    On September 21st, 2006, Mr. Ballough, that is Mr. Allen's 
boss, Mr. Ballough, AFS-1, the Director of Flight Standards 
Service, sent an official letter of response to the Honorable 
Texas Senators Kay Bailey Hutchison and Jon Cornyn to close out 
their Congressional inquiries into the El Paso ASAP matter. Mr. 
Ballough included Allen's aforementioned memo to corroborate 
the FAA's Flight Standards official position on the acceptance 
of the El Paso ASAP matter, a fatal aircraft accident, into 
ASAP.
    If Ballough intentionally forwarded to United States 
Senators known fictionalizations, false statements, 
inaccuracies and obfuscation of facts, he may have violated 
some Federal laws. If unintentional, his competency might be in 
question. I was unable to accomplish my duties as aircrew 
program manager, which is on the front of 110(a), based on the 
FAA Act of 1958, to sustain Flight Standards' mission statement 
to provide accident-free operations to the traveling public.
    Due to the policies and decisions made by James Ballough, 
AFS-1, FAA Director of Flight Standards Service James Allen, 
and AFS-2, FAA Deputy Director of Flight Standards Service, Mr. 
Ballough, Mr. Allen, they sustained the acceptance of that 
fatal accident into FAA's voluntary disclosure program known as 
ASAP.
    The DOT OIG has had my file since October of 2006. It is 
very comforting to hear you give them guidance and orders to 
look into the ASAP matters. I think Mr. Scovel will be on 
target in that regard.
    I think the Achilles heel is the 2001 memo, which we can 
share with Mr. Scovel. Twice I made myself available to discuss 
the matter with Administrator Blakey, Sabatini, Ballough and 
Allen, which did not happen.
    Mr. Nicholas Sabatini signed Regulation 14, CFR Part 193, 
under provisions of 49 U.S.C. 40123, to essentially prohibit 
the release of ASAP and other certain FAA-approved voluntary 
disclosure information on January 26th, 2005. The regulation 
essentially protects ASAP, which is a non-regulatory, voluntary 
program, created by an advisory circular, which supplants 
Federal Aviation regulations in this particular case, from the 
public's rights and the freedom for information regarding their 
safety.
    Mr. Oberstar. Thank you. Very precise, very specific 
references. I appreciate that very much.
    Mr. McNease.
    Mr. McNease. First of all, I would like to thank you for 
inviting me here today. Before I get into my statement, FedEx, 
where I was located, FedEx Certificate, the last guy on the 
seniority list is called the caboose. And I am the caboose 
here. I am not going to talk about ASAP, I don't need to do 
that, talk very little about ATOS. I can, because I have had 
the opportunity to listen to all of the testimony, there are a 
couple of items before I get into my statement that I would 
like to mention.
    Mr. DeFazio, and well, let me wait and maybe he will come 
back and I will mention that. ATOS is now being mandated to all 
135 operators and all 141 operators. It is going to be an 
impossible situation. There is not going to be any way for that 
to work. In the general aviation part of it, if you have one 
inspector, you can have 10 certificates, how is he going to do 
the work that it takes a fleet of people to do in the current 
situation with ATOS. So mandating the new, the operators, 135 
and 141, to go to ATOS, is again going to be a real problem, I 
believe.
    Just a little bit of background about myself, and I wasn't 
going to tell you all this stuff, but I need to, I have 
received numerous awards from the FAA. I was nominated as 
inspector of the year for the Southern region in 2005. I 
received a letter of commendation from Admiral Bussey many 
years ago. I graduated first in my military flight school 
class. I flew 173 combat missions.
    I was appointed as the chairman of the Government Safety 
Inspector Working Group for the International Society of Air 
Safety Inspectors. I am a member of the Royal Aeronautical 
Society. I have been a test pilot. I currently hold an airline 
transport certificate with more than 16,500 hours and 40 years. 
I have 23 type ratings. I have pilots certificates from 
Switzerland, Italy, Indonesia, Costa Rica, Saudi Arabia, Malawi 
and Hungary.
    I was also an undercover pilot for the DEA and Customs. 
Currently, I am the Director of Safety, Security and Regulatory 
Compliance for an air carrier in China.
    Now I am going to read my statement, if you don't mind. I 
have spent 14 years of my life working for the U.S. Government; 
10 of those with the FAA. During my last assignment with the 
FAA as an inspector on the Federal Express certificate, I found 
an issue with FedEx that has implications not with just FedEx, 
but throughout the industry.
    Due to the loss of retirement benefits and large cuts in 
pilot salaries, many pilots are supplementing their income by 
flying for companies other than their primary employer. This is 
legal and in accordance with current Federal aviation 
regulations only as long as flight, duty or rest times are 
complied with.
    What I found was that the Director of Operations at Federal 
Express was issuing authorization letters allowing pilots to do 
outside commercial flying. When I contacted the Federal Express 
crew scheduling section, I was informed that the company has no 
policy nor method to track outside commercial flying.
    During the course of another investigation, it came to the 
attention of our office that a pilot for FedEx had been caught 
flying an illegal charter trip. The pilot admitted that he had 
flown the trip, and immediate his status as check airman, 
representing the FAA, was rescinded. This pilot is an MD-11 
international captain.
    Since this pilot and the company had possibly violated the 
Federal aviation regulations by not recording or tracking the 
outside commercial flying, I asked my supervisor how he wanted 
me to proceed. I was told not to continue my investigation. I 
was given no reason why not to proceed.
    I followed up with an e-mail to my supervisor to verify 
what I was told. No answer via e-mail was ever received by me. 
I later met with my supervisor, along with another inspector to 
act as a witness, and asked once again if he wanted me to not 
investigate this matter. I got the same answer, do not continue 
the investigation.
    I was amazed that I was being told not to continue an 
investigation with such far-reaching implications. I am not 
implying that FedEx or the pilot involved had violated the 
Federal aviation regulations. What I am saying is that without 
an in-depth investigation, the FAA and FedEx have no way to 
determine if a violation has occurred or is continuing to 
occur.
    This same situation applies throughout the airline industry 
and to my knowledge is not being investigated. Since I have 
given you this statement, and I will provide a copy of this to 
the Committee, it is an INFO, Information for Operators 
concerning this subject was issued by the FAA on March 21st, 
2008. I don't think this is a coincidence that this was issued.
    On another issue, I was treated the same way but at a much 
higher level with the FAA. I was told from FAA management in 
Washington to stop working on a problem. I attempted to contact 
the Associate Administrator, Nick Sabatini, via e-mail, 
telephone and through the chain of command for more than two 
years. I never once received any acknowledgement from him, in 
spite of his so-called open door policy.
    I had the same situation with Mr. Ballough. I finally did 
get to see him. The purpose of my meeting with Mr. Ballough was 
to discuss an issue with Thomas Stuckey. I was given 30 minutes 
to present my case. I was told that I would receive an answer 
within two weeks from his staff. I am still waiting, it has 
been two and a half years.
    I understand that the other issue that has to do with 
security, Chairman Oberstar has referred that matter to another 
Committee. So I won't go into details at this time. But it is 
very serious. I have met with the Homeland Security Committee 
people and something will happen with that.
    Now that Mr. DeFazio is back and Mr. Carney and Ms. Johnson 
also, thank you very much for sticking around. I appreciate it.
    One other thing, to Mr. DeFazio, I waited to hold this, you 
questioned a number of times about Mr. Mills' hand delivering 
everything. The answers you got from Mr. Sabatini, Mr. Ballough 
and Mr. Stuckey seemed to think that, or they seemed to tell 
you that that wasn't the way things happened. That is 
incorrect. It was the way things happened. I was in the 
Southern region, not the Southwest region. In the Southern 
region, my manager had to go out and deliver every one of those 
to everybody. It took him really probably a month and a half, 
or at least that long. He had other duties. But it happened 
throughout the FAA, it is not localized.
    I hope you see that the testimony from all of us is that 
this is, I believe, a systemic problem with the FAA. It is 
happening in other parts of the Country, not just in the 
Southwest region.
    Thank you for your time. I would be happy to answer your 
questions.
    Mr. Oberstar. Thank you very much for that testimony and 
for the reaffirmation of Mr. Mills' testimony.
    I have one question. Each of you has referred to this shift 
that we have been discussing throughout the day of emphasis at 
the FAA from a regulatory compliance oversight role in 
maintenance to one that is airline-friendly, cooperative with 
these voluntary disclosure programs, with the customer service 
initiative, with ASAP and ATOS. When did you see this shift 
occurring? During what period of time? What time frame was it 
happening? It didn't happen all at once, it just happened 
somewhat gradually, but you have all testified to it. We have 
heard it throughout the day. You are on the ground level, tell 
me when.
    Mr. McNease. I spent three tours with the FAA. I left in 
disgust all three times. It is terrible that I had to do that. 
But when I left the FAA before this last time, when I retired, 
I left in 1988. In 1988, we didn't have this problem. We just 
didn't have the problem that we have now.
    When I came back in 2003, I noticed then that in 2003, we 
had another significant problem. Things had changed 
considerably over that period of time.
    Mr. Oberstar. Well, 1988 was roughly the Bussey era?
    Mr. McNease. Yes, sir, it was.
    Mr. Oberstar. There was a very compliance-oriented period 
then.
    Mr. Thrash?
    Mr. Thrash. Thank you. And I would like to say, it is a 
wise leader who surrounds himself with aviation expert 
professionals, as you have done, with Clay Thushay 
[phonetically]. As a Greek Hermes who was the pathfinder to 
help people along their way, on line-oriented flight training, 
which incorporated aircrew decision-making, he, I could say, I 
guess, fair Clay, Robert Helmick was a mentor. Dr. Robert 
Helmick worked in a brain trust sponsored by FAA, NASA and the 
University of Texas on 23, not 2317 Showcreek, but on Showcreek 
Boulevard down there, Lamar Boulevard. He also was a pioneer on 
advance qualification programs, which is a voluntary training 
program, which incorporates what Clay started, the crew 
resource management. And aircrew decision making has been 
responsible or probably even in the Flight Standards Guide for 
more than 60 percent of fatal aircraft accidents. So aircrew 
decision-making.
    Getting back to your point, Bill here drew a good picture. 
We are in sort of a schizophrenic situation. In 1988, we were 
operating under two sets of rules, essentially. We have the 
voluntary disclosure, which came along in I would say 1998 or 
so, along with ATOS. And prior to that, 1988, we have a 
compliance and enforcement order, it is 2150.3(a), I believe 
that is right, 2150.3(a), which is a compliance order. It is an 
order. It tells us what we do. And we have like a 45-day 
deadline, once we start on an EIR, to get our facts together to 
get it up to legal at that point.
    After 1998, ASAP 2001 to 2006, as I previously mentioned, I 
did not do an EIR. We had one of our attorneys come down from 
the Southwest region, Tim Duff, and he said they are farming 
him out to the Southern region, because he didn't have any 
business in the Southwest region.
    So anyway, I think to answer that question, 1998, when ATOS 
took over and we started the voluntary ASAP. But we are still 
under this, I would submit, this schizophrenic, we have two 
sets of rules here.
    Mr. Oberstar. Thank you very much. That is roughly about 
what I was thinking.
    I want to move to Mr. DeFazio and recognize him at this 
point for questioning.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Thank you, Mr. McNease, for helping fill out the testimony 
of Mr. Mills. I felt it probably wasn't isolated, and I am 
going to hope in some way the Committee can pursue that, 
whether through the IG or someone else. We need to know how 
many people basically were sent on this mission, which is to 
hand deliver something which could have been easily and 
effectively delivered electronically or via the United States 
Postal Service. But I guess this Administration wouldn't want 
to do that, because that means you are using Government 
employees to deliver it.
    But something that took them away from their critical 
safety mission.
    Mr. Oberstar. Will the gentleman yield?
    Mr. DeFazio. Yes.
    Mr. Oberstar. The fact that Mr. Mills and others that Mr. 
McNease identified a moment ago were directed personally to 
undertake this mission shows the high level of significance 
upper FAA management placed on this cozy relationship structure 
that they were setting up. That goes right to the top.
    Mr. DeFazio. Yes. How about Mr. Brantley? Have you heard 
this from others? Could you survey your folks and ask how many 
were given this mission, maybe since we can't get a straight 
answer out of the upper echelons of the FAA?
    Mr. Brantley. Yes, Mr. DeFazio, we can survey them and see 
what kind of feedback we get. I can tell you that just in 
talking with inspectors throughout the Country, my 
understanding is they were directed across the board to do 
this, that managers in every office were told.
    Mr. DeFazio. Well, how could that be if Mr. Sabatini, Mr. 
Ballough and Mr. Stuckey didn't know a thing about it? I wonder 
who directed them? I guess maybe someone above them directed 
them and left them out of the loop?
    Mr. Brantley. Their memories may not be as good in this 
room as they are outside.
    Mr. DeFazio. Yes.
    Mr. Oberstar. That is the only salvation they have, because 
they were testifying under oath. If they have faulty memory 
under oath, that is one thing. But we have them on record.
    Mr. DeFazio. Mr. Brantley, I think it was you or someone 
else from PASS at a hearing in the not too distant past 
testified about, we were talking about basically the scope of 
inspectors' jobs and as I remember the particular focus of this 
hearing was outsourcing and trying to find whether or not it 
was possible for people to even get to and inspect the people 
who are theoretically under the purview. I remember some 
testimony that, working as quickly as they could, it would take 
some people years before they could get around. Is that 
accurate?
    Mr. Brantley. Yes, that is accurate, sir. Just the process 
of getting permission, getting it arranged and then being able 
to get out and do it, the lead time is anywhere from six to 
eight months if things go well. That is on something out of the 
Country, yes.
    Mr. DeFazio. But yet we heard again from Mr. Stuckey in a 
rather cavalier way, well, they are out there all the time, 
they are seeing, going around visiting people all the time, and 
it would be no problem to ask them to just carry this multiple 
page document with them and distribute it.
    Mr. Brantley. I am comfortable saying that is simply not 
true, sir.
    Mr. DeFazio. Okay. Well, I hope we can figure out what the 
consequences would be. Do we still have that little jail over 
there in the Capitol?
    [Laughter.]
    Mr. DeFazio. I also asked questions of them, the previous 
panel, the customer service initiative. I think you are well 
familiar, I talked about the changes I made in the law in 1996. 
I am trying to nail them, whether after we changed the law in 
1996, to say the focus is safety, not promotion, if we started 
down that path and we were making progress and kind of removing 
that conflict from people's minds and from their workplace, and 
if we did start down that path, when did we go wrong? Was it 
before 2003 or was it particularly in 2003 with this customer 
service initiative? Can you give us a little, anything on that?
    Mr. Brantley. In my recollection, I think your instincts 
are probably pretty good. Because I think there has always been 
an undercurrent in the FAA, but I really saw it start to 
blossom around 2002, 2003. It has been the last five or six 
years that it has really started moving strongly that way.
    Mr. DeFazio. That is what I was afraid of. And 
specifically, ValuJet came at the end of a bad era, and with 
outsourcing, and we are into even more outsourcing today. I am 
very alarmed, if we are back to the pre-1996 attitude with more 
outsourcing than we had in 1995, 1996. Most of the majors have 
outsourced now.
    Mr. Brantley. Yes, sir, I believe we are, if not in a worse 
state, we are at least back to where we were in 1996, 1997.
    Mr. DeFazio. Do you think ATOS will protect us? Is that a 
substitute?
    Mr. Brantley. Again, when the data can't be verified, 
without physically checking that the maintenance is being 
accomplished and just taking the word of the carrier, I think 
that is a flawed process, and we will continue to see problems 
like what occurred with Southwest. Hopefully, they will be 
compliance issues and not accidents.
    Mr. DeFazio. I think in the case of Southwest, they didn't 
try and phony up compliance, they didn't report that they had 
complied and get bad data in the computer, it was more 
complicated.
    Mr. Brantley. Yes, absolutely.
    Mr. DeFazio. But there could be, and I think back to the 
good old days of Frank Lorenzo, imperious management that is 
basically telling people to phony up data.
    Mr. Brantley. Yes, sir. One of the keys that we have seen 
is, ATOS was set up to try to accomplish oversight with limited 
resources. But it has evolved over the last decade as not just 
a way to do that, but a way to further reduce resources, if 
possible. So one of the things we hear frequently from the FAA 
is, we are trying to find a way to get the work done without 
having the people.
    And quite frankly, they have gone to a point where there is 
not enough of the people doing the work that they should to 
make sure that the data base that they're relying on, that this 
automated system is a tool rather than the ultimate authority. 
And right now it is the authority and it doesn't know what it 
is talking about.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. Chairwoman Johnson.
    Ms. Johnson. Thank you, Mr. Chairman.
    Mr. Brantley, would you describe your professional 
responsibilities?
    Mr. Brantley. Yes, ma'am. Actually, my professional 
responsibilities, as it relates to--are you referring to what I 
would do for the FAA? I come from a different workforce. I come 
from the systems specialists that repair and maintain the 
equipment that the FAA uses to control air traffic. So I am not 
an aviation safety inspector.
    Ms. Johnson. And you work with a number of other 
specialists?
    Mr. Brantley. Yes, ma'am. Not today, but I have, yes. Today 
I work full-time for the union.
    Ms. Johnson. Okay. Has there ever been any discussion of 
some of the relationships or some of the things that might be 
missed because of it in your group?
    Mr. Brantley. It is a little bit different, because there 
is not the outside interaction. What we tended to see more in 
the workforce I came from was managers or even employees going 
to work for a company right after leaving the FAA and sometimes 
not in the, let's say under questionable circumstances.
    I can recall, there was a director of what was then airway 
facilities, six or eight years ago, that retired from the FAA, 
went to work for a company immediately after. And the way he 
got around, apparently, ethics rules was the last year, six to 
twelve of his months of employment with the FAA, he just 
recused himself from being involved in any decisions that might 
be related to that company. That seemed like an ethics problem 
to me.
    So I think there are loopholes that are found throughout 
the FAA. That is something that I have had a concern with for a 
while. But it is a very different issue than I think what you 
are looking at with the inspector workforce.
    Ms. Johnson. Do you think it is widespread practice that 
the flight standard managers alter information entered into the 
FAA data base or anything to protect the airlines?
    Mr. Brantley. Ma'am, I think that is not just a bad idea, I 
think that is, if not criminal, it should be. I just think that 
if there is a difference of opinion, there should be a way to 
document that and get it to a place where a decision can be 
made.
    But to give anyone the authority to just unilaterally 
override what has been found, and this is the findings of an 
investigation or an inspection, to just override that is I 
think extremely poor judgment by the agency.
    Ms. Johnson. Do you think the ATOS is broken?
    Mr. Brantley. I need to qualify my answer, because I think 
there is a lot of things that could be fixed with ATOS and with 
the voluntary disclosure systems. I think there is value in 
both of them. But quite frankly, unless there is a change in 
leadership in the FAA, none of that will matter. Because the 
culture has to change. And that won't change because of changes 
in the programs. That has to come with changes in the people at 
the top. And that has to flow down.
    Until that happens, I think anything else would be 
cosmetic, and it may keep things out of the newspapers for a 
period of time. But the problems will be there, they will 
remain.
    Ms. Johnson. Thank you very much. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you for your questions, very pointed 
and right on target.
    The gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. This is for anybody 
who cares to jump in. I have asked this of prior panels earlier 
today, too. It is about, since the investigation broke in the 
press a couple of weeks ago, we have seen the FAA order the 
national audit. In the last couple of weeks, hundreds of 
aircraft have been grounded in six of the major airlines. Why 
is that happening now? Why shouldn't this have been occurring 
all along?
    Mr. Brantley. Well, sir, I think, if I might start, it is 
clear in my mind that there is fear that something is going to 
be found that they wouldn't want to be found. There is going to 
be an incentive for the airline to disclose that. One of the 
things that I didn't mention earlier that is also a part of 
this ongoing review that the FAA is doing, they are doing this 
jointly with the airlines. So it is not like just inspectors 
doing it, either. That way, if there is a problem found, it can 
very easily be voluntarily disclosed. Then it is non-punitive. 
And frankly, I think that gets to the heart of the problem 
again.
    It feels to me like the FAA just doesn't get it, or maybe 
they're just arrogant enough to believe that they can do it 
anyway.
    Mr. Carney. Anyone else?
    Mr. McNease. I will chime in just a bit, since I am not in 
the Southwest region. If ATOS worked, somebody said this 
earlier, if ATOS worked, these other carriers would have 
already been identified as having those problems. ATOS didn't 
work, I don't believe it is going to work, it is certainly not 
going to work for the 135 carriers of which there are 
thousands, not just a hundred. I don't see ATOS working. I 
believe it failed.
    Mr. Carney. How much of a problem do you all think the 
revolving door is, private industry and FAA?
    Mr. Andrews. I don't see that as near a big a problem as 
ATOS is.
    Mr. Carney. Really?
    Mr. Andrews. No. And something that not been mentioned 
about ATOS here is the resources that it drains from the 
inspector workforce. The AFS 900 is a virtual office, and I 
believe, it is my understanding they employ close to 100 
inspectors there. So there is 100 inspectors that could be out 
in the field, looking at airplanes, flying with pilots, doing 
the job that we used to do, they are sitting in an office 
somewhere generating questions on a computer.
    And to answer the Congresswoman's question about, she had 
some question earlier about the questions, I have been here 31 
years, and some of the questions, the question that came up 
was, how can we do the same SAI 5 times and get 5 different 
results. I was with the FAA for 31 years, and some of the 
questions that are contained in those SAIs and EPIs, I have no 
idea what they mean. I mean, literally, some of them I have 
read over and over again, trying to figure out what they want 
me to do.
    That is not an isolated incident. The entire system is set 
up like that.
    Mr. Carney. Mr. McNease, I will close on this, Mr. 
Chairman, when you raised the issue to your management about 
the FedEx pilot that took the illegal charter trip, what was 
their response? Why did they not pursue action against this 
pilot?
    Mr. McNease. Their response to me was, don't do anything. 
Actually, his illegal charter that he flew, in his own 
airplane, I might add, that particular trip, the guidance that 
we have in our enforcement handbook calls for any deliberate 
violation of a regulation, any regulation, equals a revocation 
of your certificates.
    He received a 30-day suspension, which he was able to 
whittle down at a hearing, or at a meeting with the FAA, to 13 
days. He took two weeks' vacation and a day of sick leave, so 
it didn't cost him anything. Not a thing.
    So the enforcement guidelines were not followed in that 
case. But that was a separate case from my issue. My issue was, 
was he flying over the requirements using that trip and what he 
was flying at Federal Express. Simply I don't know, because I 
wasn't allowed to do my inspection. Why my supervisor told me 
not to do the inspection is a question you ought to ask him.
    Mr. Carney. Maybe we ought to ask that question, Mr. 
Chairman.
    Mr. Oberstar. We can certainly send written questions and 
require their response.
    Mr. Carney. Very good. No further questions. Thanks to the 
panel.
    Mr. Oberstar. Thank you, Mr. Carney, and members of the 
panel, I want to thank you. But before we conclude, the 
Inspector General made several suggestions and I am sure you 
heard those, let me repeat. Recommending the establishment of 
an independent body to investigate inspector concerns, do you 
think that is a good idea?
    Mr. Andrews. Can I speak to that?
    Mr. Oberstar. Certainly.
    Mr. Andrews. I think that is an excellent idea. A question 
came up a while ago about the manipulation of the ATOS data. 
Less than two months ago, I wrote a hot line complaint to the 
Inspector General, and part of the problem I addressed was the 
manipulation of inspection data. The IG apparently felt that it 
wasn't within their purview, and they forwarded that complaint 
down to the Federal Aviation Administration Flight Standards 
Division.
    And guess where they sent it? They sent it down to the two 
guys that I wrote it about to answer. So I don't think our 
existing hot line is effective in any way at all. In the past, 
I have used the Administrator's hot line and I have used the IG 
hot line as a lever to move this organization where I saw a 
serious problem and couldn't address it from the floor up.
    Mr. Oberstar. As the first panel today said, or Mr. Boutris 
said, I signed my name.
    Mr. Andrews. I did too, every time. Every time I have 
submitted one, I put my name and phone number.
    Mr. Oberstar. So what is a whistleblower, unidentified 
whistleblower line going to do? If they don't pay attention 
when you sign it, then how are you going to pay attention if 
you don't sign it?
    Mr. Andrews. Exactly. I have never asked for whistleblower 
protections and I have never submitted an anonymous complaint. 
I think if you are going to have an effective hot line, and I 
think you need an effective hot line, it is going to have to be 
something similar to the way a police department works, like a 
civilian review board that has no outside or governmental 
interest one way or the other.
    Mr. Oberstar. The question is, we are going to have an 
independent body, the IG said, recommended that the FAA 
established it. I think that would be dangerous.
    Mr. Andrews. Absolutely.
    Mr. Oberstar. Who should be the originating entity to 
create an independent body? Mr. Brantley?
    Mr. Brantley. Mr. Chairman, as everyone has said, another 
internal hot line is the last thing the FAA needs. I think this 
needs to be set up by, it has to be independent. I think the IG 
could probably come up with some regulations for that very 
quickly. And with all respect to both the Inspector General and 
the Office of Special Counsel, I would have a hard time 
recommending to any of the members that I represent that they 
go anywhere but one of those two places. Because there is 
nothing internal to the FAA that will get their problems 
resolved without them becoming a target.
    Mr. Oberstar. That is absolutely right. I have been mulling 
this over and probably a combination of recommendations by the 
Inspector General, the Comptroller General, the General 
Accounting Office or Government Accountability Office and maybe 
Mr. Bloch's office.
    Mr. Brantley. Absolutely.
    Mr. Oberstar. Or a recommendation from the NTSB, which has 
independent authority. Something of that nature.
    Mr. Andrews. Mr. Oberstar, if I might, I have to tell you, 
too, I was amazed to sit here today and listen to Mr. Stuckey 
and Mr. Ballough and Mr. Sabatini speak about what heroes they 
thought Mr. Boutris and Mr. Peters are. Because it has been my 
experience over the last years that people like Mr. Boutris and 
Mr. Peters and these gentlemen sitting here next to me are not 
treated like heroes by the FAA.
    Mr. Oberstar. They certainly weren't until this hearing.
    Mr. Andrews. That is exactly right. And they generally 
define this as problem employees or disgruntled. That is why 
the people in our organization are afraid to stand up and be 
counted. The culture inside the FAA is, there is no problem in 
my unit, there is no problem in my office, there is no problem 
in my region and there is no problem in the FAA. Until the FAA 
admits that we have serious problems, they are not going to be 
able to fix themselves.
    Mr. McNease. I would like to say that I do agree with an 
outside agency, however it is set up. The hot line deal doesn't 
work, because it does come right back down to the inspector. 
And everybody knows who it comes back to. But you mentioned 
earlier, and you mentioned in one of your press conferences 
prior to this that we need to clean house here. It needs to 
start from the top. I think all of us agree here on this panel 
in particular that it certainly needs to happen from the top. 
That is Mr. Sabatini, Mr. Ballough and Mr. Stuckey. If you 
think integrity is an issue, there is more to check into. There 
are a lot of integrity problems.
    It is just unfortunate that they have been allowed to take 
us down this route. I believe they have done it. I believe that 
when Mr. Sabatini said, the buck stops here, I agree, it stops 
there. And it should stop there and action should be taken.
    Mr. Oberstar. Thank you. Mr. Thrash?
    Mr. Thrash. I would like to piggyback on what Mr. McNease 
said. The ferret, warm-blooded animal, was used before the 
common era, you have to say BCE any more to be sensitivity 
proper, but nevertheless, it was used to exterminate vermin for 
ages and ages and ages. It looks like a mink and it is small 
and warm-blooded and thin-bodied and they can be domesticated.
    They were introduced into the United States in the 1800s 
from sailing ships, because they were infested with rats. The 
sailors didn't like the rat terriers, because they barked and 
kept them awake. The cats were a favorite, but the rats could 
get into the hold and the cats couldn't get them.
    But when they brought the ferrets in, the rats didn't have 
any place to go. And of course, if you have some rats in the 
rafters higher up in these places here in the Washington area 
and the division area, the term, metaphorically of course, rats 
of abuse, metaphorically speaking, obviously, the term ``ferret 
out'' comes from that. And you all have the horsepower to get 
that done.
    Mr. Oberstar. Thank you.
    We are going to use that horsepower, and today's hearing 
was a launch pad to do that. Your testimony and those of your 
colleagues preceding you are powerful tools for us to use to 
improve aviation safety.
    The real question is, does the buck really stop with Mr. 
Sabatini? Or does it go higher? That is a question that we 
aren't really going to know until there is a sweeping change of 
administration and a new administrator and we begin making 
corrections from the top down.
    My Italian grandfather immigrated from Naples. When you 
look at a fish, you know whether it is good or not if the head 
is in good shape. But if the head is rotting, then the whole 
fish is no good. And we have to take a good look at this fish.
    Thank you very much for your testimony, for your candor, 
for your courage in coming forward. This has been a most 
enlightening and invigorating hearing. We will proceed forward 
with lessons learned today.
    The Committee stands adjourned. I thank Members for 
persisting throughout this day as well.
    [Whereupon, at 7:37 p.m., the Committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
